<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-867]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-867
 
                      THE SITUATION IN AFGHANISTAN

=======================================================================



                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                          JUNE 15 AND 16, 2010

                               __________

         Printed for the use of the Committee on Armed Services






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
64-545                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                      The Situation in Afghanistan

                             june 15, 2010

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary of Defense for Policy.     9
Petraeus, GEN David H., USA, Commander, U.S. Central Command.....    16

    To Continue to Receive Testimony on the Situation in Afghanistan

                             june 16, 2010

Petraeus, GEN David H., USA, Commander, U.S. Central Command.....    28

                                 (iii)



                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                         TUESDAY, JUNE 15, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Webb, Udall, Hagan, 
Begich, Bingaman, Kaufman, McCain, Inhofe, Sessions, Chambliss, 
Graham, Thune, Wicker, Brown, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Ilona R. Cohen, counsel; William 
G.P. Monahan, counsel; Michael J. Noblet, professional staff 
member; and William K. Sutey, professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; Michael V. Kostiw, professional 
staff member; Daniel A. Lerner, professional staff member; 
David M. Morriss, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Jennifer R. Knowles, Christine G. 
Lang, and Hannah I. Lloyd.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Greta Lundeberg, assistant 
to Senator Bill Nelson; Ann Premer, assistant to Senator Ben 
Nelson; Gordon I. Peterson, assistant to Senator Webb; Tressa 
Guenov and Stephen C. Hedger, assistants to Senator McCaskill; 
Jennifer Barrett, assistant to Senator Udall; Roger Pena, 
assistant to Senator Hagan; Lindsay Kavanaugh, assistant to 
Senator Begich; Halie Soifer, assistant to Senator Kaufman; 
Anthony J. Lazarski, assistant to Senator Inhofe; Sandra Luff, 
assistant to Senator Sessions; Jason Van Beek, assistant to 
Senator Thune; Brian Walsh, assistant to Senator LeMieux; Kevin 
Kane, assistant to Senator Burr; and Ryan Kaldahl, assistant to 
Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. This morning the 
committee receives testimony on the progress in Afghanistan 
from Under Secretary of Defense for Policy Michele Flournoy and 
General David Petraeus, Commander, U.S. Central Command 
(CENTCOM).
    General Petraeus, please extend to all of the men and women 
who are serving under your command the thanks of this committee 
for their tremendous service, their valor, their dedication to 
the causes of this country. They deserve our support and I know 
our committee gives them that full support, and to their 
families as well.
    General Petraeus. I'll do that, Mr. Chairman. Thank you.
    Chairman Levin. Last month a milestone was reached when it 
was announced that for the first time more U.S. troops are 
serving in Afghanistan than in Iraq. This month marks 1 year 
since General Stanley McChrystal took command of the North 
Atlantic Treaty Organization (NATO)-led International Security 
Assistance Force (ISAF). The news from Afghanistan in recent 
weeks has been largely negative: the increase in casualties 
among U.S., coalition, and Afghan security forces, the mixed 
results in Marjah, and the apparent return of Taliban 
intimidation and assassinations of local officials there, the 
failure of Afghan Government officials to deliver much-needed 
services to win local allegiances, the delay in the Kandahar 
campaign, the resignation of two senior Afghan security 
officials who seemingly were among the most competent members 
of the cabinet and had strong coalition support, the role of 
local power brokers, including members of the Karzai family, in 
Kandahar, the growth of militias, and the counterproductive 
activities of some U.S.-hired private security contractors, 
apparent differences with the Karzai regime over approaches for 
reconciliation with the Taliban.
    At a press conference last week, General McChrystal 
acknowledged these press reports, but he emphasized that ``You 
also have to step back and see the trend in direction.'' This 
morning we want to hear from our witnesses on how they see 
these trends.
    My focus is and always has been on getting the Afghan 
National Security Forces (ANSF) trained and equipped to take 
over the responsibility for their country's security. Doing so 
is the key to success in Afghanistan. As General McChrystal 
said at a press briefing last week, the ANSF are ``the 
strategic main effort and they're key to the long-term 
stability in Afghanistan.'' General McChrystal has repeatedly 
set out the goal of putting Afghans in the lead and making them 
responsible for their future, and Afghan leaders have said they 
want to be responsible for their own security and their own 
affairs.
    At the Consultative Peace Jirga held at the beginning of 
this month, the 1,600 Afghan delegates adopted a resolution 
calling on the international community to ``expedite the 
process of equipping, training, and strengthening the ANSF so 
they can get the capability in taking responsibility to provide 
security for their own country and people.''
    But progress towards the goal of Afghans taking the lead in 
operations has been unsatisfactory. Today, operations in 
Afghanistan are excessively dependent on coalition forces. The 
campaign plan for Kandahar, which is underway, anticipates 
increases in Afghan and ISAF forces in and around Kandahar City 
to create a ``rising tide of security,'' but at a 1 to 2 ratio, 
that is one Afghan soldier or policeman for every two ISAF 
troops. That's not good enough. Our partnering goal should be 
at least a ratio of 1 to 1 in Kandahar and Afghan troops should 
be in the lead in many, if not most, operations.
    Having Afghan units in the lead is critical in Kandahar 
since the likelihood of success there is based on popular 
support. That support is at the heart of the counterinsurgency 
strategy which is so well set forth by General Petraeus. The 
Afghan National Army (ANA) has broad public support and even 
the Afghan Government has more than twice the support that the 
United States does. Polling numbers in The New York Times 
indicate that 90 percent of Afghans support the Kabul 
Government over the Taliban, but only 40 percent of Afghans 
have a favorable view of the United States.
    The 100 or so elders that we met in a local shura in 
southern Afghanistan last year, when we asked what they wanted 
the United States to do, told us that we should train and equip 
the ANSF to provide for their own security and then depart.
    Last week General McChrystal announced that ISAF would slow 
the expansion of the Afghan and coalition troop presence in 
Kandahar in order to allow time to secure the support of local 
tribal leaders for that effort. I trust General McChrystal's 
judgment on the timing. He's right that ``It's more important 
we get it right than we get it fast,'' and he's also saying 
correctly in my judgment that when you go to protect people, 
the people have to want you to protect them.
    So I'd rather delay a few months and have a few more Afghan 
forces in the lead when the security presence is expanded and 
operations begin more forcefully than to have an ISAF-dominated 
force attempt to secure Kandahar a few months earlier. Our top 
priority then must be training, mentoring, and partnering in 
the field with Afghan troops and placing them in the lead in 
operations against insurgents, backed by U.S. and coalition 
support.
    Currently, according to ISAF, the growth of the ANSF is on 
track. The NATO Training Mission-Afghanistan (NTM-A) under 
Lieutenant General Bill Caldwell reports that recruitment for 
ANA and Afghan National Police (ANP) now actually exceeds 
monthly recruitment goals. These forces are above where they 
need to be to meet the end strength goals for October 2010 of 
134,000 army and 109,000 police personnel.
    What is disturbing and hard to comprehend, however, is that 
the training mission still does not have enough trainers to 
process all the Afghan recruits who are signing up to join in 
the security forces. The most recent available figures show 
that, of the more than 5,200 trainers that we need, only about 
2,600 are on the ground.
    Secretary Gates has deployed 850 U.S. soldiers and marines 
to Afghanistan to serve as a stopgap. According to a May 29 
report from Lieutenant General Caldwell, the training mission 
has yet to receive 750 trainers pledged by NATO members. 
Furthermore, last week NATO Secretary General Rasmussen 
announced that NATO members have yet to pledge an additional 
450 trainers needed to meet training requirements.
    It's totally unacceptable that this shortfall persists. 
NATO members who, for whatever reason, do not send additional 
combat troops or who intend to reduce their combat troop 
presence in the near future, should at least be willing to 
provide trainers who operate away from the heavy fighting.
    The question remains, why are more Afghan forces not in the 
lead in Kandahar, using forces that are trained and ready? 
According to figures provided by the ISAF Joint Command, 25 
Afghan battalions, or kandaks, are able to operate 
independently, 42 Afghan kandaks can operate with coalition 
support. Now, that's 67 of 113 total ANA kandaks. More recent 
ISAF data on Afghan forces' capability casts some doubt on the 
accuracy of that assessment of the ANA's capabilities, but they 
do not explain why it is U.S. or coalition forces that are 
usually leading operations instead of the other way around.
    The ANA has about 125,000 troops available, more than we 
do. But it is our troops that are concentrated in the areas 
where the fighting is heaviest and where Afghanistan's future 
may well hang in the balance.
    So many questions regarding the ANA remain unanswered and 
perhaps we will hear answers today. Why aren't more ANA troops 
leading security operations in the south? How many Afghan 
combat battalions and how many Afghan combat troops are there 
in Kandahar? When will the Afghan units take the lead there? 
Why aren't large numbers of ANA troops from other areas moving 
to Kandahar in preparation for the push? Why isn't the ratio of 
coalition to Afghan troops in Kandahar at least 1 to 1, instead 
of two coalition troops to one Afghan?
    I know American troops are better equipped and trained than 
Afghan troops. But the issue isn't force-on-force. If it were I 
would accept our taking the lead most often in Kandahar 
operations. The issue is who can best connect with and protect 
the population of Kandahar. As Afghanistan Defense Minister 
Wardak recently and aptly described the situation in Kandahar, 
``It is a different type operation. It is not like Marjah. It 
is not going to be that kinetic.''
    The ANA can handle the population protection mission 
adequately and is equipped to do so. It is the hearts and minds 
of Afghans, particularly the Pashtun population in Kandahar, 
that must be won over. That population wants security and it 
wants that security provided by Afghans. Having Afghan troops 
among the Afghan people is more acceptable to them, with 
coalition forces in the background providing support for those 
Afghan troops. Success in Kandahar will be more likely with 
Afghan troops in the lead.
    I'm going to put the balance of my statement now in the 
record and simply conclude by saying that the Afghan Government 
and people need to demonstrate a sense of urgency and 
commitment to succeed in building a lasting peace in 
Afghanistan. If the Afghan Government and people demonstrate a 
willingness to fight and assume increasing responsibility for 
their security and affairs, then the American people will be 
steadfast partners in that endeavor.
    [The prepared statement by Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Today the committee receives testimony on the progress in 
Afghanistan from Under Secretary of Defense for Policy Michele Flournoy 
and General David Petraeus, Commander, U.S. Central Command. General 
Petraeus, please extend the thanks of all of us on this committee to 
the men and women serving in Afghanistan, Iraq, and throughout the area 
of responsibility you command, for their valor, dedication, and service 
to the country. They deserve our support and I know this committee will 
do everything necessary to give them that support.
    Last month a milestone was reached when it was announced that for 
the first time, more U.S. troops are serving in Afghanistan than Iraq. 
This month marks 1 year since General Stanley McChrystal took command 
of the North Atlantic Treaty Organization (NATO)-led International 
Security Assistance Force (ISAF). The news from Afghanistan in recent 
weeks has been largely negative: the increase in casualties among U.S., 
coalition, and Afghan security forces; the mixed results in Marja and 
the apparent return of Taliban intimidation and assassinations of local 
officials there; the failure of Afghan Government officials to deliver 
much-needed services to win local allegiances; the delay in the 
Kandahar campaign; the resignation of two senior Afghan security 
officials who seemingly were among the most competent members of the 
cabinet and had strong coalition support; the role of local 
powerbrokers, including members of the Karzai family, in Kandahar; the 
growth of militias and the counterproductive activities of some U.S.-
hired private security contractors; and apparent differences with the 
Karzai regime over approaches to reconciliation with the Taliban. At a 
press conference last week, General McChrystal acknowledged these press 
reports, but emphasized that ``you also have to step back and see the 
trend in direction.'' We want to hear from our witnesses this morning 
on how they see these trends.
    My focus is, and always has been, on getting the Afghan National 
Security Forces trained and equipped to take over the responsibility 
for their country's security. Doing so is the key to success in 
Afghanistan. As General McChrystal said at a press briefing last week, 
the Afghan security forces are ``the strategic main effort, and they're 
key to the long-term stability in'' Afghanistan.
    General McChrystal has repeatedly set out the goal of putting 
Afghans in the lead and making them responsible for their future, and 
Afghan leaders have said they want to be responsible for their own 
security and affairs. At the Consultative Peace Jirga held at the 
beginning of this month, the 1,600 Afghan delegates adopted a 
resolution calling on the international community ``to expedite the 
process of equipping, training, and strengthening the Afghan national 
security forces, so they can get the capability in taking 
responsibility to provide security for their own country and people.'' 
But progress toward the goal of Afghans taking the lead in operations 
has been unsatisfactory.
    Today, operations in Afghanistan are excessively dependent on 
coalition forces. The campaign plan for Kandahar, which is under way, 
anticipates increases in Afghan and ISAF forces in and around Kandahar 
city to create a ``rising tide'' of security, but at a 1 to 2 ratio 
that is, one Afghan soldier or policeman for every two ISAF troops. 
That is not good enough. Our partnering goal should be a ratio of at 
least 1 to 1 in Kandahar, and Afghan troops should be in the lead in 
many if not most operations.
    Having Afghan units in the lead is critical in Kandahar since the 
likelihood of success there is based on popular support. That support 
is at the heart of the counterinsurgency strategy. The Afghan Army has 
broad public support, and even the Afghan Government has more than 
twice the support that the United States does. Polling numbers from the 
New York Times indicate 90 percent of Afghans support the Kabul 
Government over the Taliban, while only 40 percent have a favorable 
view of the United States. The 100 or so elders we met at a local shura 
in southern Afghanistan last year, when asked what they wanted the 
United States to do, told us that we should train and equip the Afghan 
security forces to provide for their country's security, and then 
depart.
    Last week, General McChrystal announced that ISAF would slow the 
expansion of the Afghan and coalition troop presence in Kandahar in 
order to allow time to secure the support of local tribal leaders for 
that effort. I trust General McChrystal's judgment on the timing. He's 
right that ``It's more important we get it right than we get it fast,'' 
and that, ``when you go to protect people, the people have to want you 
to protect them.'' I'd rather delay a few months and have more Afghan 
forces in the lead when the security presence is expanded and 
operations begin more forcefully, than have an ISAF-dominated force 
attempt to secure Kandahar a few months earlier.
    Our top priority, then, must be the training, mentoring, and 
partnering in the field with Afghan troops and placing them in the lead 
in operations against insurgents, backed by U.S. and coalition support. 
Currently, according to ISAF, the growth of the Afghan security forces 
is on track. The NATO Training Mission-Afghanistan (NTM-A) under 
Lieutenant General Bill Caldwell, reports that recruitment for the 
Afghan army and police now actually exceeds monthly recruitment goals. 
These forces are above where they need to be to meet the end strength 
goals for October 2010 of 134,000 Army and 109,000 police personnel.
    What is disturbing and hard to comprehend, however, is that the 
training mission still does not have enough trainers to process all the 
Afghan recruits who are signing up to join the security forces. The 
most recent available figures show that of the more than 5,200 trainers 
we need, only about 2,600 are on the ground. Secretary Gates has 
deployed 850 U.S. soldiers and marines to Afghanistan to serve as a 
stopgap. According to a May 29th report from Lieutenant General 
Caldwell, the training mission has yet to receive 750 trainers pledged 
by NATO members. Further, last week NATO Secretary General Rasmussen 
announced that NATO members have yet to pledge an additional 450 
trainers needed to meet training requirements. It's totally 
unacceptable that this shortfall persists. NATO members who, for 
whatever reason, do not send additional combat troops, or who intend to 
reduce their combat troop presence in the near future, should at least 
be willing to provide trainers, who operate away from the heavy 
fighting.
    The question remains: Why are more Afghan forces not in the lead in 
Kandahar, using forces that are trained and ready? According to figures 
provided by the ISAF Joint Command, 25 Afghan battalions, or kandaks, 
are able to operate independently, and 42 Afghan kandaks can operate 
with coalition support. That is 67 of 113 total Afghan army kandaks. 
More recent ISAF data on Afghan forces' capability casts some doubt on 
the accuracy of that assessment of the Afghan army's capabilities, but 
they do not explain why it is U.S. or coalition forces that are usually 
leading operations, instead of the other way around. The Afghan army 
has about 125,000 troops available, more than we do. But it is our 
troops who are concentrated in the areas where the fighting is heaviest 
and where Afghanistan's future may well hang in the balance.
    So, many questions regarding the Afghan National Army remain 
unanswered. Perhaps we will hear answers today: Why aren't more Afghan 
army troops leading security operations in the south? How many Afghan 
combat battalions, and how many Afghan combat troops, are there in 
Kandahar? When will the Afghan units take the lead there? Why aren't 
large numbers of Afghan army troops from other areas moving to Kandahar 
in preparation for the push? And why isn't the ratio of coalition to 
Afghan troops in Kandahar at least 1 to 1, instead of two coalition 
troops to one Afghan?
    I know American troops are better equipped and trained than Afghan 
troops. But the issue isn't force-on-force--if it were, I would accept 
our taking the lead most often in Kandahar operations. The issue is who 
can best connect with and protect the population of Kandahar. As Afghan 
Defense Minister Wardak aptly described the situation in Kandahar, ``It 
is a different type operation, it is not like Marja, it is not going to 
be that kinetic.'' The Afghan army can handle the population protection 
mission adequately and is equipped to do so. It is the hearts and minds 
of Afghans, particularly the Pashtun population in Kandahar, that must 
be won over. That population wants security, and it wants that security 
provided by Afghans. Having Afghan troops among the Afghan people is 
more accepted by them, with coalition forces in the background 
providing support for those Afghan troops.
    I am also concerned by evidence that our own contracting practices 
may be harming the counterinsurgency effort. Our reliance on private 
security contractors--who often draw on militia forces--is empowering 
local powerbrokers and warlords who operate outside the government's 
control. As stated in one recent military analysis of Kandahar, ``what 
used to be called warlord militias are now private security 
contractors.''
    The widespread hiring of private security contractors undermines 
the Afghan security forces' ability to recruit and retain personnel. 
Some private security contractors working under Defense Department 
contracts, actively recruit those with ANA or ANP experience. Our 
committee's investigation into private security contractors in 
Afghanistan has revealed that they are frequently paid more than Afghan 
security forces. A Department official recently testified that one 
reason for high attrition rates among Afghan National Civil Order 
Police officers, for example, is that ``many of them are recruited by 
higher paying private security firms.''
    The threat that security contractors pose to mission success is not 
insignificant. In May 2010 the U.S. Central Command's Armed Contractor 
Oversight Directorate reported that there were more than 26,000 private 
security contractor personnel operating in Afghanistan. Last week, 
General McChrystal acknowledged the problems arising from our 
contracting practices, specifically private security companies, and 
said that ISAF will be looking at what needs to be done. I hope that 
review will lay out a path to phase out the use of private security 
contractors in Afghanistan and to integrate those personnel into the 
Afghan National Security Forces. In his November 2009 inaugural 
statement, President Karzai stated that within the next 2 years, he 
wanted ``operations by all private, national, and international 
security firms to be ended and their duties delegated to Afghan 
security entities.'' We and the Afghan Government need to take concrete 
steps to achieve that goal.
    General McChrystal has emphasized repeatedly that the campaign in 
Afghanistan ``is a process that takes time.'' The patience of the 
American people is not infinite, and their sacrifices have already been 
great. As Secretary Gates said ahead of a NATO defense ministerial 
meeting last week, all NATO members, for the sake of their publics, 
need to show by the end of this year that ``our strategy is on track, 
making some headway.'' He added that ``if we are making progress and 
it's clear that we have the right strategy, then the people will be 
patient.''
    I agree with that assessment, but would add one thing. That is, 
that the Afghan Government and people need to demonstrate a sense of 
urgency and commitment to succeed in building a lasting peace in 
Afghanistan. If the Afghan Government and people demonstrate a 
willingness to fight and assume increasing responsibility for their 
security and affairs, then the American people will be steadfast 
partners in that endeavor.

    Chairman Levin. Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I thank our 
distinguished witnesses for joining us this morning to discuss 
events in Afghanistan. Let me thank you for your leadership of 
our men and women in uniform, especially those in harm's way.
    As is well known, I believe that winning the war in 
Afghanistan is a vital national security interest. I've said 
for years that the best way to achieve a success is through a 
properly resourced counterinsurgency strategy backed by strong 
civil, military, and U.S.-Afghan partnerships. For this reason, 
I have supported and still do support strongly the President's 
decision to increase our commitment in Afghanistan.
    I'll be brief, Mr. Chairman, and come right to the point. 
As I gauge the progress of any war effort, I look at the 
broader trend lines, and it is for this reason that I am deeply 
concerned about our campaign in Afghanistan. Many of the key 
trends seem to be heading in a bad direction, perhaps even 
signaling a mounting crisis.
    As an example, 10,000 additional NATO troops are supposed 
to deploy along with our surge forces. But we presently have 
just over half that number and, more importantly, it's not 
clear when or from where the rest of them will arrive. At the 
same time, the Dutch and Canadian Governments continue to plan 
for an imminent withdrawal of their forces, while just 
yesterday the Government of Poland, which has been a major 
troop contributor, called on NATO to draw up a timetable to end 
the alliance's mission in Afghanistan and withdraw our forces.
    In Marjah our troops are performing exceptionally, but it 
appears that we and our Afghan partners have not been able to 
provide durable, consistent security to the population. Not 
surprisingly, governance and development seem to be lagging. 
General McChrystal recently referred to Marjah as a ``bleeding 
ulcer'' and questioned whether we have enough troops there.
    Rather than serving as proof that NATO and the Afghan 
Government will succeed, which was the intention, I fear that 
Marjah at the moment is sending a much more troubling signal. 
In Kandahar, where the success of the war itself could be 
determined, I agree with General McChrystal's recent comment 
that ``It's more important we get it right than we get it 
fast.'' That said, the delay in our operation is not projecting 
an air of confidence and success.
    To get Kandahar right, we all know that we need an 
integrated political-military strategy. But as far as I can 
tell, the political part of that strategy still isn't there. I 
hear a lot about the number of civilians who will deploy in 
Kandahar, but I still haven't heard a convincing explanation 
for how we will begin to change the complex balance of power 
within the province, the troubling behavior of key local power 
brokers, the performance of the ANP in the city, and the 
counterproductive contracting practices that we are dependent 
on.
    Meanwhile, it's very troubling that President Karzai has 
decided to remove his minister of interior and his head of 
intelligence, two of our most important partners in his 
government and two men I know to be upstanding and effective. I 
don't know why President Karzai made this decision, but the 
explanation given by his former intelligence chief which we 
read in the newspaper this weekend seems to have a ring of 
truth to it: that President Karzai no longer believes the 
United States will succeed and that he is shifting as a result 
to a policy of accommodation with the Taliban and the Pakistani 
military. If true, this could be very dangerous.
    That's the larger trend that underlies all the others, the 
mounting loss of confidence in America's commitment to succeed 
that seems to be shared by both our friends and enemies in 
Afghanistan as well as its neighbors. As our witnesses know, 
especially General Petraeus, a counterinsurgency is a battle 
for the thoughts and allegiance of people. It's about 
demonstrating to those sitting on the fence that they should 
throw their lot in with our partners and us because we're going 
to win.
    No matter how much it's been explained and fixed with 
caveats, the decision to begin withdrawing our forces from 
Afghanistan, arbitrarily, in July 2011 seems to be having 
exactly the effect that many of us predicted it would. It's 
convincing the key actors inside and outside of Afghanistan 
that the United States is more interested in leaving than 
succeeding in this conflict. As a result, they're all making 
the necessary accommodations for a post-American Afghanistan.
    This is not to say that we cannot succeed. I think we can 
and we must. But it is to say that, with ongoing difficulties 
in Marjah, a delayed offensive in Kandahar, growing concerns 
about the Afghan Government, troop commitments still lagging 
from NATO, and the final units of our own surge not set to 
reach Afghanistan until the 1st of September, it now seems 
increasingly clear that hoping for success on the arbitrary 
timeline set by the administration is simply unrealistic.
    Again, I'd echo General McChrystal: ``It's more important 
we get it right than we get it fast.'' That goes for Kandahar 
and for the war itself. It's time for the President to state 
unequivocally that we will stay in Afghanistan until we 
succeed. We need to begin a realistic debate about what it will 
take and how long it will take to achieve our goals. I look 
forward to having that discussion with our witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Secretary Flournoy. Mr. Chairman, Senator McCain, and 
distinguished members of the committee, thank you very much for 
inviting us here to testify today. I'd like to give you an 
update on recent progress and remaining challenges in 
Afghanistan. President Obama announced a number of key 
refinements to our strategy last December, including the 
deployment of an additional 30,000 U.S. service men and women. 
Today over 18,000 of these additional troops have deployed and 
the remainder will be in place by the end of the summer.
    Our own troops will be joined by over 9,000 international 
troops. Approximately 60 percent of NATO and partner troops are 
currently in place in Afghanistan and more will come in the 
coming months.
    Currently the main operational effort for ISAF and our 
Afghan partners continues to be in the Central Helmand River 
Valley and Kandahar. Our focus in these operations is on 
protecting the population and fostering Afghan security and 
governance capacity. So far, we believe we have been making 
gradual but important progress. The coalition is contesting the 
insurgency more effectively, in more places, and with more 
forces.
    But this insurgency is both resilient and resourceful. In 
both April and May, we saw insurgent activity resume in Marjah 
and much of Central Helmand Province. Nonetheless, the nature 
of recent insurgent attacks is beginning to indicate a possible 
reduction in some of their operational capacity. For example, 
the percentage of complex attacks, those employing more than 
one means of attack, has steadily dropped since its peak in 
February, and the average number of casualties per attack is 
below 2009 levels.
    Local Afghans in the region have also shown an increased 
willingness to report suspected improvised explosive devices 
and insurgent weapons caches, which suggests growing pockets of 
confidence among ordinary people and a willingness to support 
ISAF and Afghan efforts to establish security and governance.
    In Kandahar Province, we are taking a deliberate approach, 
gradually expanding our efforts to improve local governance in 
key districts as coalition and ANSF operations improve the 
security situation gradually.
    Some in Congress have expressed concern about the impact of 
local power brokers on our efforts in Kandahar. We share this 
concern and we recognize that there are ways in which our own 
contracting practices have actually had unintended 
consequences, concentrating wealth among a relatively small 
number of Afghans who control companies large enough to procure 
contracts. General Petraeus and Admiral Mullen have created a 
two-star task force to examine our contracting practices with a 
view to reducing these unintended consequences. When we have 
evidence of corruption, we will also work with the Afghan 
Government to prosecute those who have violated the law.
    Let me turn now to our efforts to build the capability and 
capacity of the ANSF. Building an effective ANSF capacity 
remains key both to the long-term security and stability of 
Afghanistan and to our ability to transition security 
responsibility and draw down our forces as conditions allow. 
While we are still short about 450 institutional trainers, we 
have reduced the instructor-to-trainee ratio from about 1 to 80 
to now 1 to 30.
    The ANA is on schedule to meet our goal of 134,000 troops 
for fiscal year 2010, and nearly 85 percent of the ANA is now 
fully partnered with ISAF forces as they operate in the field. 
The ANP is on track to reach its goal of 109,000 police by the 
end of the fiscal year and we have increased the capacity to 
conduct ANP training by 400 percent over the last 12 months, 
and follow-on training has been provided to both ANP in 83 key 
districts as well as the Afghan Border Police (ABP).
    Recent salary and benefit initiatives have addressed pay 
disparities between the ANA and the ANP and these initiatives 
appear to be improving retention and attrition. Literacy 
programs have also proven to be a positive incentive. Further, 
we believe that rising end strength numbers and newly 
instituted rotation schedules will further reduce attrition. 
Consequently, we believe the ANSF end strength goals for 2011 
are achievable.
    Needless to say, the purpose of these efforts is to ensure 
a gradual transition of security responsibility to the Afghan 
Government. I want to emphasize here that transition does not 
mean abandonment or withdrawal. We are committed to supporting 
the people of Afghanistan over the long term and we will not 
walk away from this commitment. Nonetheless, we cannot and 
should not remain in the lead combat role indefinitely. As the 
international military presence begins to shift from a combat 
role to an advise and assist role, it will be absolutely vital 
to ensure a more robust and long-term international civilian 
assistance effort focused on capacity-building, governance, and 
development.
    We are working closely with the Afghan Government to plan 
for the transition process. In May, President Karzai and 14 
members of his cabinet were here in Washington for just about a 
week for a strategic dialogue. At the Kabul conference in July, 
the Afghan Government will present further plans for achieving 
progress in governance and development across four ministerial 
clusters. We also expect to hear more from President Karzai 
regarding actions taken to address corruption as well as plans 
for reconciliation and reintegration.
    Let me say a few words about reconciliation and 
reintegration since I know it's an issue that has generated a 
great deal of interest. All parties to the conflict in 
Afghanistan recognize that in the end some political resolution 
will be required to bring this conflict to a close. This 
recognition has driven the Afghan Government to begin to 
develop plans to reconcile insurgent leaders and reintegrate 
low-level fighters. In early April, President Karzai presented 
his interim plans for reintegration. In May, a Consultative 
Peace Jirga gave President Karzai a conditional mandate to move 
forward in this area.
    The United States supports an Afghan-led process that seeks 
to bring back into society those who cease violence, break ties 
with al Qaeda, and live under the Afghan constitution and all 
of its requirements.
    Let me conclude by underscoring that our overall assessment 
is that we are heading in the right direction in Afghanistan. 
Of the 121 key terrain districts identified by ISAF in December 
of last year, 70 were assessed at that time to be sympathetic 
or neutral to the Afghan Government. By March of this year, 
that number had climbed to 73 districts. This and other 
indicators suggest that we are beginning to regain the 
initiative and the insurgency is beginning to lose momentum.
    That said, the outcome is far from determined, and these 
are still early days for the administration's new strategy. 
It's only a matter of months since the President's 
announcement. When I briefed this committee in February, I 
said: ``Inevitably, we will face setbacks, even as we achieve 
progress.'' None of what we are doing in Afghanistan involves 
quick fixes. These are long-term problems and their solutions 
will require patience, persistence, and flexibility. But we are 
making progress, sometimes slow, but we believe steady. We are 
confident that General McChrystal will be able to show more 
progress by the end of the year.
    We greatly appreciate this committee's continued support 
for our efforts, from the Operation Enduring Freedom budget to 
our supplemental request. Particularly, we appreciate your 
support for full funding for the Afghan security forces, for 
coalition support funds, and for the Commanders' Emergency 
Response Program authority, which we believe is an absolutely 
critical tool in the counterinsurgency fight.
    Thank you again for inviting us here today for this 
discussion and for your support, your continued support to the 
men and women who serve in uniform, and your support to enable 
progress in Afghanistan. Thank you and I look forward to your 
questions.
    [The prepared statement of Ms. Flournoy follows:]
             Prepared Statement by Hon. Michele P. Flournoy
    Mr. Chairman, Senator McCain, and members of the committee: thank 
you for inviting us here to testify today, and for reporting out S. 
3454, the National Defense Authorization Act for Fiscal Year 2011. I 
greatly appreciate this committee's support for authorities that assist 
our warfighters in stability, counterterrorism, and counterinsurgency 
operations. The Commanders' Emergency Response Program and the 
authority to reimburse coalition partners are critical to field 
commanders, and we're grateful for your ongoing support.
    My testimony today will address our efforts to improve the capacity 
of the Afghanistan National Security Forces (ANSF), support the Afghan 
Government in improving governance and security, and plan for 
reconstruction and economic development. I will also outline the 
progress being made in Helmand and Kandahar provinces, and discuss 
issues of reconciliation and reintegration.
    Let me start by recapping some of the key events and decisions of 
the past year and a half. As I noted when I last briefed you in 
February, the United States and our Afghan and international partners 
were confronted by a bleak situation when President Obama took office. 
Early gains against the Taliban had eroded, the Taliban and associated 
insurgent groups had reconstituted in safehavens along the border 
between Afghanistan and Pakistan, and Afghan confidence in the 
coalition was in decline.
    President Obama ordered an immediate strategy review, and in the 
course of that preliminary review we made a number of key changes. We 
grew our force by 38,000 troops, and the North Atlantic Treaty 
Organization (NATO) appointed General McChrystal as Commander of 
International Security Assistance Force (ISAF) (COMISAF). Perhaps most 
importantly, General McChrystal quickly implemented a counter-
insurgency strategy that prioritizes protecting the Afghan people over 
killing the enemy.
    In December of last year, after an extensive strategic review, the 
President announced a number of key refinements to our strategy, 
including the deployment of 30,000 additional U.S. service men and 
women. As of June 2, over 18,000 of these additional troops had already 
deployed, and the remainder will be in place by the end of the summer. 
Our own troops will be joined by over 9,000 additional NATO and partner 
nation troops--some 2,000 more troops than were pledged by our allies 
and partners in January 2010. Approximately 60 percent of the NATO and 
partner troops are currently in place in Afghanistan, and more will 
arrive in the coming months. We are concerned about the possible loss 
or reduction of the Dutch contingent in Uruzgan Province, as well as by 
the Canadian plan to end their military mission in Afghanistan in 2011. 
We continue to work with both nations to find ways through which they 
can demonstrate their continued commitment to our shared goals in 
Afghanistan.
          counterinsurgency in helmand and kandahar provinces
    Currently, the main operational effort for ISAF and our Afghan 
partners continues to be in the Central Helmand River Valley and 
Kandahar. For ISAF and our Afghan partners, the Helmand operations have 
been the first large-scale effort to fundamentally change how we do 
business. Our focus in these operations is on protecting the population 
and fostering security and governance capacity, and our preparations 
for the Helmand operation included extraordinary levels of civil-
military planning and engagement with the Afghans--from our ANSF 
partners, to Afghan ministries, to local tribes and populations. 
Ultimately, the operation was approved and ordered by President Karzai.
    We have made significant progress in establishing security, which 
is a precondition for enhancing governance and expanding development. 
Today, our coalition forces are contesting the insurgency more 
effectively, in more places, and with more forces.
    But even as we make progress, we face continued challenges. In both 
April and May, we saw resumed insurgent activity in Marjah, and an 
expansion of insurgent capacity throughout Central Helmand. Insurgents 
carried out numerous high profile attacks in Kandahar City. This 
renewed insurgent activity has disrupted governance efforts and 
prompted several nongovernmental organizations to plan withdrawal from 
the area. The insurgency is both resilient and resourceful, and the 
upsurge in violence demonstrates this.
    Nonetheless, the nature of recent insurgent attacks is beginning to 
show trends consistent with a reduction in the insurgents' operational 
capability. For example, the percentage of complex attacks (those 
employing more than one means of attack) has steadily dropped since a 
peak in February and the average number of casualties per attack is 
below 2009 levels. As nascent security, governance and development 
initiatives begin to unfold, we are also seeing increased signs of 
popular resistance to insurgent demands. Insurgents continue to seek to 
influence the population through assassination and other intimidation 
tactics, but local Afghans in the region have shown an increased 
willingness to report suspected improvised explosive devices and 
insurgent weapons caches, another indicator that the insurgent attacks 
are becoming less effective. These incidents suggest growing pockets of 
confidence among ordinary people, and a willingness to support ISAF and 
Afghan efforts to establish security and governance in the region.
    Let me also say a bit about Kandahar. Kandahar is the heart of the 
Pashtun-dominated south, and it is a key population center that serves 
as a hub of several major trade routes. It is also the spiritual center 
of the Taliban. In Kandahar, we are taking an incremental approach, 
gradually expanding efforts to improve local governance in key 
districts as Coalition and ANSF operations improve the security 
situation.
    You have expressed concern about the impact local powerbrokers have 
on our efforts in Kandahar. We share this concern. Our goal is to 
foster transparent, effective, and accountable democratic governance in 
Afghanistan--yet we recognize that there are ways in which our own 
contracting practices have had unintended consequences. The large sums 
of money spent by the U.S. and other coalition partners to support 
operational requirements--including trucking, personal security 
contractors, and construction--have concentrated wealth among the 
relatively small number of Afghans who control those companies able to 
execute the required support operations.
    General Petraeus and Admiral Mullen have created a two-star task 
force (in coordination with Under Secretary Carter's Acquisition, 
Technology, and Logistics office) to examine our contracting practices. 
Our goal is to find ways to reduce these unintended consequences of our 
contracting practices. When we have evidence of corruption, we will 
also work with the Afghan Government to prosecute those who have 
violated the law.
        growing the capacity of the ansf and improving security
    Our efforts to increase the strength and capability of the ANSF 
remain key both to the long-term security and stability of Afghanistan, 
and to our ability to draw our own forces down, in accordance with the 
timeline President Obama has laid out.
    These efforts are showing progress, though here too, significant 
challenges remain. We continue to work to improve retention and 
decrease attrition in the ANSF, and to improve the quality of the 
force. We are also partnering ISAF with the ANSF at all levels, from 
the Ministries of Defense and Interior down to the small unit level, 
with the aim of intensively mentoring the ANSF and growing the next 
generation of leaders.
    In the face of continued shortfalls, we are engaging in aggressive 
diplomatic efforts to encourage our international partners to provide 
additional institutional trainers and mentoring teams for the ANSF. A 
series of NATO meetings over the last 6 months--including last week's 
Defense Ministerial--focused heavily on addressing these shortfalls.
    Currently, the Afghan National Army (ANA) stands at 125,694 
soldiers, which is well above our target of 116,500 for this time 
period, and is on schedule to meet our goal of 134,000 for fiscal year 
2010. The Afghan National Police (ANP) numbered 105,873 as of early 
June, and the Ministry of the Interior is on track to reach its goal of 
109,000 police by the end of the fiscal year. Beginning in fiscal year 
2011, the security ministries' goals are to build the ANA to 171,600 
troops, and the ANP to 134,000 officers. We think these goals are 
achievable.
    Formed in November 2009 and led by LTG William Caldwell, the NATO 
Training Mission-Afghanistan (NTM-A) is working closely with the MoD 
and MoI on several initiatives to improve recruiting, training, 
retention, and attrition. Recent salary and benefit initiatives have 
addressed pay disparities between ANA and ANP forces, and our initial 
assessment suggests these initiatives have led to improved retention 
and attrition rates. Literacy programs have also proven to be a 
positive incentive for recruitment and retention.
    Further, we believe that rising end-strength numbers will also have 
a positive impact on retention and attrition rates. The Afghan Ministry 
of Defense and the Ministry of Interior are also instituting ANA and 
ANP unit rotation schedules, to reduce the strains associated with 
indefinite deployments and to provide greater opportunity for security 
personnel to be home with their families. We believe that this effort 
will also reduce attrition rates.
    Training the police remains our greatest challenge, but we have 
taken important steps to ensure that the Afghan police we put into the 
field are better trained and more capable. The MoI has implemented a 
revised ANP development model so that all recruits receive adequate 
training before they are deployed. We have raised the capacity to 
conduct ANP training by 400 percent over the course of the past 12 
months. Additionally, the MoI has sought to institutionalize best 
practices, in part by creating institutions such as the new Recruiting 
and Training Commands.
    Through the Focused District Development program, we and our 
Coalition partners have provided follow-on training for Afghan 
Uniformed Police in 83 districts, and the Focused Border Development 
program is accomplishing the same for the Afghan Border Police. In 
coordination with NTM-A, the MoI has also initiated planning to address 
leadership and professional development issues and to identify ways to 
counter corruption. The NTM-A/Combined Security Transition Command-
Afghanistan (CSTC-A) is working with the MoI to institute a competitive 
officer selection and promotion process that is transparent and merit 
based. COMISAF has directed that the Afghan National Civil Order Police 
(ANCOP) partnering program be expanded to provide direct mentoring, and 
today, nearly 85 percent of the ANA are fully partnered with ISAF 
forces as they operate in the field.
                               transition
    We are also working on several other fronts to ensure a gradual 
transition of responsibility to the Afghan Government. At NATO's 
Tallinn Foreign Ministerial in April, the ministers approved a 
framework for transition. Based on this decision, NATO Senior Civilian 
Representative Mark Sedwill and General McChrystal are now engaging 
more formally and intensively with the Afghan Government to develop a 
joint Afghan-international community transition plan. This plan is 
expected to be presented during the Kabul Conference in July.
    I want to emphasize that ``transition'' does not mean abandonment 
or withdrawal. We are committed to supporting the people of Afghanistan 
over the long-term, and we will not walk away from this commitment. 
Nonetheless, we cannot and should not remain in a combat role 
indefinitely. The transition to Afghan responsibility will be a 
conditions-based process, one through which the Afghan Government, over 
time, assumes increasing responsibility for security and other 
government functions throughout the country, with continued ISAF 
support.
    The scope and pace of that transition will depend on circumstances 
on the ground. But as the international military presence begins to 
shift from a combat role to an advise-and-assist role, it will be 
absolutely vital to ensure a more robust and long-term international 
civilian assistance effort focused on capacity building, governance and 
development.
            u.s. and afghan government long-term partnership
    In January 2010, at the London Conference, President Karzai 
reaffirmed his government's commitment to establish security and good 
governance, fight corruption, increase economic development, and 
improve regional cooperation, among other issues. In May, President 
Karzai and 14 members of his cabinet visited Washington for a Strategic 
Dialogue to follow up on the London conference. Their meetings with 
President Obama and U.S. cabinet officials reinforced the long-term and 
vital partnership between our two countries, in areas ranging from 
security to governance and economic development.
    Senior Department of Defense (DOD) officials met with a large cadre 
of capable Afghan officials who are implementing programs that meet our 
shared objectives. President Karzai's visit underscored international 
cooperation and support for the mission in Afghanistan, and also 
highlighted the continuing support among Afghans for U.S. Government 
involvement in Afghanistan. President Karzai visited Walter Reed Army 
Medical Center, where he met with our wounded warriors, and Fort 
Campbell, KY, where he thanked soldiers from the 101st Airborne 
Division as they departed for Afghanistan. We do feel that our Afghan 
partners appreciate the sacrifices being made by U.S. soldiers and 
civilians.
    The discussions held in May on governance, security, economic and 
social development, and regional issues built on past sessions of the 
United States-Afghanistan Strategic Dialogue. During these discussions, 
President Obama and President Karzai reaffirmed their growing 
cooperation and their commitment to the solid, broad, and enduring 
strategic partnership between the Governments and peoples of the United 
States and Afghanistan. This partnership is based on shared interests 
and objectives, as well as mutual respect. The two sides declared that 
a sovereign, stable, secure, peaceful, and economically viable 
Afghanistan that has friendly relations with all its neighbors and 
countries in the region is vital to regional stability and global 
security.
    President Obama and President Karzai's joint statement of May 12 
highlighted several key points in the area of security. The two 
Presidents recognized the importance of the Afghan Government to 
assuming increasing responsibility for security. They further 
recognized that developing ANSF capabilities is necessary to facilitate 
an orderly, conditions-based security transition process. Additionally, 
the United States reaffirmed its commitment to transitioning 
responsibility for detention facilities to the Afghan Government. 
Finally, President Obama and President Karzai recognized the importance 
of Afghan-led peace and reconciliation efforts.
    The Afghan Government's next opportunity to demonstrate progress 
toward meeting the commitments made in London will be the Kabul 
Conference in July. Eighty international delegations will be on hand 
for the Kabul conference, at which the Afghans will present plans for 
integrated progress in governance and development across four 
ministerial clusters. We also expect to hear from President Karzai 
regarding actions taken to address corruption. Finally, we expect to 
hear President Karzai's plans for reconciliation and reintegration, 
based on the mandate he received from the Consultative Peace Jirga.
                            afghan attitudes
    As a result of General McChrystal`s shift to a counterinsurgency 
approach, the percentage of Afghan civilian casualties caused by 
Coalition actions has dropped substantially. This improvement has 
produced significant shifts in Afghan attitudes towards ISAF and Afghan 
forces. Compared to a year ago, polling suggests that Afghans are now 
more optimistic about the future and have greater confidence in the 
ability of the Afghan Government and their Coalition partners to 
prevail over the insurgency.
    We have seen other positive indicators in the last year, as well. 
Of the 121 key terrain districts identified by ISAF in December 2009, 
60 were assessed as sympathetic or neutral to the Afghan Government. By 
March of this year, that number had climbed to 73 districts.
    Nonetheless, the Afghan public still considers government 
corruption a serious problem, and extends the blame to ISAF and the 
rest of the international community. Corruption in Afghanistan remains 
a widespread problem. As stated in DOD's April 2010, Report on Progress 
Toward Security and Stability in Afghanistan, Afghanistan has achieved 
some progress in its anti-corruption efforts. But substantive change 
remains elusive.
    Despite this and other serious problems that remain unaddressed, 
there are reasons for optimism. A national survey completed in March 
indicates that 59 percent of Afghans believe their government is headed 
in the right direction, an increase of 8 percent over September 2009.
                    reintegration and reconciliation
    All parties to the conflict in Afghanistan recognize that there is 
a limit to what military activities alone can accomplish. In the end, 
some political resolution will be required to bring the conflict to a 
close. This recognition has driven the Afghan Government's efforts to 
reconcile insurgent leaders and reintegrate low-level fighters.
    This effort must be Afghan-led. In early April, President Karzai 
presented his interim plans for reintegrating lower-level insurgents 
who renounce violence and disassociate themselves from terrorists back 
into Afghan society. In May, a Consultative Peace Jirga, a traditional 
Afghan method of gaining national consensus, was held to address 
reconciliation. The Jirga's final report gave President Karzai a 
conditional mandate to pursue talks with the Taliban.
    In recognition of this progress, the Department has released Afghan 
Reintegration Program Authority funding (authorized under the National 
Defense Authorization Act for Fiscal Year 2010) to fund DOD 
reintegration activities in support of this Afghan Government 
initiative. Along with contributions from the international 
reintegration trust fund, co-managed by the British and Japanese 
Governments, the Afghan Reintegration Program Authority will play an 
important role in supporting reintegration opportunities as they emerge 
on the battlefield.
                            looking forward
    Last week, Secretary Gates attended the informal NATO Defense 
Ministerial in Brussels. General McChrystal and Ambassador Sedwill have 
been charged with coordinating with the Afghan Government to develop a 
joint assessment process and a plan to begin a conditions-based 
transition process, and in Brussels last week, Ambassador Sedwill, the 
NATO Senior Civilian Representative in Afghanistan, presented a concept 
for Afghanistan transition that was accepted by the NATO Ministers.
    Following the July Kabul Conference, the Afghan Government will 
prepare for September Parliamentary elections. The international 
community will insist on transparency during this round of elections. 
The leadership and membership of the election commission has changed 
since the 2009 Presidential elections, and we believe that the Afghan 
Government understands the importance of demonstrating real progress in 
terms of holding free, fair, and transparent elections.
                               conclusion
    Let me conclude by underscoring our assessment that we are heading 
in the right direction in Afghanistan. We are regaining the initiative 
and the insurgency is beginning to lose momentum. That said, the 
outcome is far from determined. Approximately 54 percent of additional 
planned coalition forces are now in place, but those troops still to 
come are critical to achieving success.
    I want to repeat something I know I have said before: none of what 
we are doing in Afghanistan involves quick fixes. These are long-term 
problems, and their solutions will require patience, persistence and 
flexibility. At this point, though, I remain cautiously optimistic 
because the elements key to success are being put in place. As we move 
forward, we will continue to adjust--and I believe that we will 
continue to make progress. I share Secretary Gates' confidence that 
General McChrystal will be able to show demonstrable progress by the 
end of this year.
    We very much appreciate this committee's continued support for our 
efforts. Congress is currently considering the Department of Defense's 
fiscal year 2011 budget request, including $110.3 billion for Operation 
Enduring Freedom, as well as a supplemental request of $28.8 billion 
for fiscal year 2010, and we believe that these funds are critical to 
our success in Afghanistan. I appreciate the support this committee has 
given, in its mark-up of the National Defense Authorization Act for 
Fiscal Year 2011, for full funding of the Afghanistan Security Forces 
Fund, and for the extension of Coalition Support Funds to reimburse 
Pakistan and other key nations that cooperate in contingency operations 
in Afghanistan. I would also encourage full funding of our Commanders' 
Emergency Response Program request as we see this authority as a key 
nonkinetic weapon in the counterinsurgency fight. I also appreciate the 
Senate's passage of the Supplemental Appropriations Act for Fiscal Year 
2010 last month.
    With your help, we have accomplished a great deal over the past 
year, but there is a great deal still to do.
    Thank you once again for inviting us here today. I look forward to 
continuing to work together, and I welcome your questions and comments.

    Chairman Levin. Thank you, Secretary Flournoy.
    General Petraeus.

   STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Petraeus. Mr. Chairman, Senator McCain, members of 
the committee, thank you for the opportunity to provide an 
update on the situation in Afghanistan and our execution of the 
comprehensive civil-military counterinsurgency campaign that is 
being conducted there. I note that it's a pleasure to do this 
with Under Secretary of Defense for Policy Michele Flournoy, 
who I might note was a contributor to the conference at Fort 
Leavenworth in January 2006 that launched the effort to develop 
and draft the Army and Marine Corps Counterinsurgency Manual.
    I'll begin with some brief context. As you'll recall, soon 
after the September 11 attacks an international coalition led 
by the United States conducted an impressive campaign to defeat 
the Taliban, al Qaeda, and other associated extremist groups in 
Afghanistan. In the years that followed, however, members of 
the Taliban and other extremist elements gradually reconnected 
in the Afghanistan-Pakistan border regions and rebuilt the 
structures necessary to plan and execute insurgent operations.
    In recent years, these groups have engaged in an 
increasingly violent campaign against the Afghan people, their 
government, and ISAF forces. They have demonstrated symbiotic 
relationships, ambitions, and capabilities that pose threats 
not just to Afghanistan and the region, but to countries 
throughout the world.
    In response to the threat posed by these extremists, ISAF 
forces and our Afghan partners are engaged in a campaign 
intended above all to prevent reestablishment of transnational 
extremist sanctuaries in Afghanistan like the ones al Qaeda 
enjoyed there when the Taliban ruled Afghanistan prior to 
September 11.
    To achieve our objectives, we are working with our ISAF and 
Afghan partners to wrest the initiative from the Taliban and 
other insurgent elements, to improve security for the Afghan 
people, to increase the quantity and quality of the ANSF, and 
to support establishment of Afghan governance that is seen as 
legitimate in the eyes of the people.
    Over the past 18 months we and our ISAF partners have 
worked hard to get the inputs right in Afghanistan. We have 
worked to build the organizations needed to carry out a 
comprehensive civil-military counterinsurgency campaign. We've 
put the best military and civilian leaders in charge of those 
organizations. We've refined and, where necessary, developed 
the plans and concepts needed to guide the conduct of a 
comprehensive effort. We have deployed the substantial 
additional resources, military, civilian, funding, and so on, 
needed to implement the plans that have been developed.
    I note here that the deployment of the 30,000 additional 
U.S. forces announced by President Obama last December and 
their equipment is slightly ahead of schedule. Nearly 18,300 of 
the additional 30,000 as of the latest numbers are now in 
Afghanistan, and by the end of August all the additional U.S. 
forces will be on the ground except for a headquarters that is 
not required until a month or so later.
    Meanwhile, the efforts to increase the size and capability 
of the ANA and ANP are also now on track, though there clearly 
is considerable work to be done in that critical area and to 
sustain the gains that have been made recently in recruiting 
and attrition.
    Even as we continue the effort to complete getting the 
inputs right, the actions taken over the last 18 months, which 
include tripling the U.S. force contribution and increasing 
similarly the U.S. civilian component, have enabled the 
initiation of new efforts in key areas in Afghanistan. The 
initial main effort has of course been in the Central Helmand 
River Valley, and U.S. and U.K. forces have made progress 
there, though, predictably, the enemy has fought back as we 
have taken away important sanctuaries in Marjah, Nad-i-Ali, and 
elsewhere.
    The focus is now shifting to Kandahar Province, where the 
effort features an integrated civil-military approach to 
security, governance, and development. In the months ahead, 
we'll see an additional U.S. brigade from the great 101st 
Airborne Division deploy into the districts around Kandahar 
City together with an additional ANA brigade. We'll see the 
introduction of additional ANP and U.S. military police to 
secure the city itself, along with other U.S. forces and 
civilians who will work together with the impressive Canadian 
provincial reconstruction team that has been operating in the 
city.
    As you have heard General McChrystal explain, the concept 
is to provide the people of Kandahar a rising tide of security, 
one that will expand over time and establish the foundation of 
improved security on which local Afghan governance can be built 
and that will enable improvements in the provision of basic 
services and other areas as well.
    There will be nothing easy about any of this. Indeed, I 
noted several months ago during my annual posture hearing that 
the going was likely to get harder before it got easier. That 
has already been the case, as we have seen recently. But it is 
essential that we make progress in the critical southern part 
of the country, the part where in fact the September 11 attacks 
were planned by al Qaeda during the period when the Taliban 
controlled it and much of the rest of the country.
    Central to achieving progress in Afghanistan and to setting 
the conditions necessary to transition security tasks from the 
international coalition to the Afghan Government is increasing 
the size and capability of the ANSF. To that end, with the 
assistance of the Afghan Security Forces Fund, Afghan security 
forces are now on track to meet their targeted end strength 
objectives by the end of the year, as the Under Secretary 
explained.
    In 2009, the ANSF numbered 156,000. Today, there are over 
231,000 ANSF members. To help achieve greater quality as well 
as greater quantity, General McChrystal has directed much 
greater partnering with the ANSF, an emphasis that is on 
display daily in operations throughout Afghanistan. 
Considerable progress has been made in getting the concepts 
right for developing the ANSF and also in developing the 
structures needed to implement those concepts.
    Improving the ANSF has been facilitated considerably, for 
example, by the establishment last November of the NTM-A, the 
organization created to help the ANSF expand and 
professionalize. It's worth noting that the NTM-A commander, 
Lieutenant General Bill Caldwell, assessed that in NTM-A's 
first 6 months NATO and Afghan security leadership have made 
progress in reversing adverse trends in the growth and 
professionalization of the ANSF.
    Nevertheless, as General Caldwell has also observed, there 
is much work remaining to reduce its attrition further and to 
develop effective leaders through considerably augmented 
partnering, training, education, and recruiting, and 
initiatives are being pursued in each of these areas.
    In all of our efforts, we and President Karzai continue to 
emphasize the importance of inclusivity and transparency on the 
part of the Afghan Government and its leadership, especially in 
linking nascent local governing structures to the 
decisionmaking and financial resources in Kabul.
    Needless to say, innumerable challenges exist in all areas 
of government and much more needs to be done to help the Afghan 
Government assume full responsibility for addressing the 
concerns and needs of Afghan citizens. The National 
Consultative Peace Jirga held in Kabul earlier this month was a 
constructive step in this effort, providing an opportunity for 
President Karzai to build consensus, to address some of the 
political tensions that fuel the insurgency, and, 
appropriately, to promote reconciliation and local 
reintegration as means that can contribute to a political 
resolution of some of the issues that exist. The shura council 
that he conducted on Sunday in Kandahar furthered this process 
and the effort to set the political conditions for progress in 
Kandahar.
    Another critically important part of our joint civil-
military campaign in Afghanistan is promoting broad-based 
economic and infrastructure development. We've seen that 
improvements in the Afghan Government's ability to deliver 
basic services, such as electricity, education, and basic 
health care, provide positive effects in other areas, including 
security and economic development. We've worked closely with 
the international community and the Afghan Government to 
support robust strategies for these areas; again water, 
governance, energy, education, health, and road programs. We're 
now embarking on a project jointly developed by the Government 
of Afghanistan and various U.S. Government agencies to 
dramatically increase production of electricity for the 
Kandahar area and parts of southern and eastern Afghanistan. To 
complement this effort, we also promote agriculture and 
economic programs to help Afghans bring licit products to 
market rather than continuing to grow the poppy.
    Again, none of this is easy or without considerable 
challenges. However, the mission is, as the members of this 
committee clearly recognize, hugely important to the security 
of the region and of our country. In view of that, we are 
obviously doing all that we can to achieve progress toward 
accomplishment of our important objectives in Afghanistan and 
we are seeing early progress as we get the inputs right in that 
country.
    In closing, I want to thank the members of this committee 
once again for your unwavering support and abiding concern for 
the more than 215,000 troops deployed throughout the CENTCOM 
area of responsibility, and for their families as well. Thank 
you very much.
    [The prepared statement of General Petraeus follows:]
            Prepared Statement by GEN David H. Petraeus, USA
    Mr. Chairman, Senator McCain, members of the committee, thank you 
for the opportunity to provide an update on the situation in 
Afghanistan. Today, I will describe our ongoing efforts in support of 
the comprehensive civil-military campaign that is being conducted in 
Afghanistan.
    I'll begin by setting my remarks in context. As you will recall, 
soon after the September 11 attacks, an international coalition led by 
the United States conducted an impressive campaign to defeat the 
Taliban, al Qaeda, and other associated extremist groups in 
Afghanistan. In the years that followed, however, members of the 
Taliban and the other extremist elements gradually reconnected in 
Afghanistan's and Pakistan's border regions and rebuilt the structures 
necessary to communicate, plan, and carry out operations.
    In recent years, these groups have engaged in an increasingly 
violent campaign against the Afghan people, their government, and 
International Security Assistance Force (ISAF) forces, and they have 
developed symbiotic, relationships that pose threats not just to 
Afghanistan and the region, but to countries throughout the world.
    In response to the threat posed by these extremists, coalition 
forces and their Afghan partners are now engaged in a comprehensive 
civil-military campaign intended, above all, to prevent reestablishment 
of transnational extremist sanctuaries in Afghanistan like the ones al 
Qaeda enjoyed there when the Taliban ruled Afghanistan prior to 
September 11.
    To achieve our objectives, we are working with our ISAF and Afghan 
partners to wrest the initiative from the Taliban and other insurgent 
elements, to improve security for the Afghan people, to increase the 
quantity and quality of the Afghan National Security Forces (ANSF), and 
to support establishment of Afghan governance that is seen as 
legitimate in the eyes of the people.
    Over the past year or so, we and our ISAF partners have worked hard 
to get the ``inputs'' right in Afghanistan: to build organizations, 
command and control structures, and relationships needed to carry out a 
comprehensive civil-military campaign. We and our international 
partners have put the best possible civilian and military leaders in 
charge of those organizations. We have refined and, where necessary, 
developed the civil-military plans and concepts needed to guide the 
conduct of a comprehensive counterinsurgency effort. We have deployed 
the substantial additional resources--military, civilian, funding, and 
so on--needed to implement the plans that have been developed. I note 
here that the deployment of the 30,000 additional U.S. troopers 
announced by President Obama last December and their equipment is 
slightly ahead of schedule. By the end of August, all the additional 
U.S. forces will be on the ground except for a division headquarters 
that is not required until a month or so later. Meanwhile, the efforts 
to increase the size and capability of the Afghan National Army and 
Police are also on track, though there clearly is considerable work to 
be done in that critical area.
    Even as we continue the effort to get all the inputs in place, the 
actions taken over the last 18 months, which include tripling the U.S. 
force contribution and increasing similarly the U.S. civilian 
component, have enabled the initiation of comprehensive civil-military 
counterinsurgency operations in key districts in Afghanistan.
    The initial main operational effort has been in the Central Helmand 
River Valley, and progress has been made there, though, predictably, 
the enemy has fought back as we have taken away his sanctuaries in 
Marjah, Nad-i-Ali, and elsewhere.
    The focus is now shifting to Kandahar Province, and the effort 
there features an integrated civil-military approach to security, 
governance, and development. Over the course of the month ahead, we 
will see an additional U.S. brigade--from the great 101st Airborne 
Division--deploy into the districts around Kandahar City, together with 
an additional Afghan Army brigade. There will also be the introduction 
of additional Afghan police and U.S. military police into the city, 
together with other U.S. forces and civilians who will work together 
with the impressive Canadian PRT that has been working in the city. As 
you've heard General McChrystal explain, the concept is to provide the 
Kandaharis ``a rising tide of security'' that will expand incrementally 
over time and establish the foundation of improved security on which 
local Afghan governance can be built, that will enable improvements in 
the provision of basic services, and so on. There will be nothing easy 
about any of this, to be sure, and as I noted during my annual posture 
hearing, the going is likely to get harder before it gets easier. But 
it is essential to make progress in the critical southern part of the 
country, the part where, in fact, the September 11 attacks were planned 
by al Qaeda during the period when the Taliban controlled it and much 
of the rest of the country.
    Central to achieving progress in Afghanistan--and to setting the 
conditions necessary to transition security tasks from the 
international community to the Afghan Government--is increasing the 
size and capability of ANSF. To that end, with the assistance of the 
Afghan Security Forces Fund, the security forces are on track to meet 
their targeted end strength objectives by the end of this year. In 
January 2009, the ANSF numbered 156,000; today, there are over 231,000 
ANSF members. Additionally, General Stan McChrystal has placed a 
premium on comprehensive partnering with the ANSF, an emphasis that is 
on display daily in operations throughout Afghanistan. Clearly, there 
is need for improvement in quality, not just quantity. Considerable 
progress has been made in getting the concepts right for developing the 
ANSF and also in developing the structures needed to implement the 
concepts.
    Improving the ANSF is facilitated considerably by the establishment 
last November of the NATO Training Mission-Afghanistan (NTM-A), the 
organization created to help the ANSF expand and professionalize so 
that they can answer their country's security needs. It is worth noting 
that the NTM-A Commander, LTG Bill Caldwell, assessed that in NTM-A's 
first 6 months, NATO and Afghan security leadership have made 
``progress in reversing adverse trends in the growth and 
professionalization of the ANSF.'' Nevertheless, as LTG Caldwell has 
also observed, there is much work remaining to reduce attrition and to 
develop effective leaders through considerably augmented partnering, 
training, and recruiting.
    In all of our efforts, we continue to emphasize the importance of 
inclusivity and transparency on the part of the Afghan Government and 
leadership, especially in linking nascent local governing institutions 
to the decisionmaking and financial resources in Kabul. Needless to 
say, innumerable challenges exist in all areas of governance, and much 
more needs to be done to help the Afghan Government assume full 
responsibility for addressing the concerns of ordinary Afghan citizens. 
The National Consultative Peace Jirga held in Kabul earlier this month 
represents a constructive first step in this effort, providing an 
opportunity for President Karzai to build consensus, to address some of 
the political tensions that fuel the insurgency, and to promote 
reconciliation and local reintegration as means that can contribute to 
a political resolution of some of the issues that exist.
    Another critically important part of our joint civil-military 
campaign in Afghanistan is promoting broad-based economic and 
infrastructure development. We have seen that improvements in the 
Afghan Government's ability to deliver basic services such as 
electricity and water have positive effects in other areas, including 
public perception, security, and economic well-being. We have worked 
closely with the international community and the Afghan Government to 
develop robust overarching strategies for water, governance, energy, 
and road programs. We are now embarking on a project jointly developed 
by the Government of Afghanistan and various U.S. Government agencies 
to dramatically increase production of electricity to the Kandahar 
area. To complement this effort, we support and promote viable 
agricultural and economic alternatives to help Afghans bring licit 
products to market, rather than continuing to grow the poppy.
    Again, none of this is easy or without considerable challenges. 
However, the mission is, as the members of this committee clearly 
recognize, hugely important to the security of the region and our 
country. We are obviously doing all that we can to achieve progress 
toward achieving our important objectives in Afghanistan.
    In closing, I thank the members of this committee for your 
unwavering support and abiding concern for the more than 215,000 troops 
deployed throughout the Central Command area of responsibility--and for 
their families, as well. Thank you.

    Chairman Levin. Thank you very much, General Petraeus.
    I think we'll try a 7-minute first round. General, let me 
start with you relative to the issue which I raised about the 
ANA not being adequately in the lead down in the south, where 
the major fighting is taking place and where it's going to take 
place in the months ahead. As I understand it, we have 
approximately 94,000 U.S. troops in Afghanistan. About half of 
them are deployed in Helmand and Kandahar, down in the south. 
That's the main focus of our counterinsurgency effort.
    How many Afghan troops are there currently in Kandahar and 
Helmand and about how many Afghan troops do we expect will be 
there in September?
    General Petraeus. Mr. Chairman, I'll be happy to get that 
for you for the record. If I could just provide the overview of 
what it is that we're trying to accomplish in that area, and 
you certainly touched on the importance of, obviously, getting 
the Afghans in the lead.
    [The information referred to follows:]

    There are a total of 10,913 Afghan National Security Forces (ANSF) 
currently deployed throughout all of Helmand Province--7,280 in the 
Afghan Army (ANA), 3,663 in the Afghan National Police (ANP), 2,727 in 
the Afghan Uniform Police, 311 in the Afghan Border Police, 625 in the 
Afghan Civil Order Police (ANCOP), and 28,907 coalition forces (CF).
    In Hamkari, the ratio of ANSF to coalition forces operating in 
support of Hamkari is approximately 1 to 1 and will remain so 
throughout the summer as Afghan and coalition forces continue to flow. 
As of 1 July 2010, there were a total of about 10,750 (6,050 in the 
ANSF and 4,700 coalition forces) for a ratio of 1.29 to 1.

        <bullet> ANA 3,000 Infantry, 850 Support
        <bullet> ANP 1,500 AUP, 700 ANCOP
        <bullet> CF 2,600 Infantry, 300 Military Police, 1,800 Combat 
        Enablers

    As of 1 August 2010, there were a total of about 14,550 (7,550 in 
the ANSF and 7,000 coalition forces) for a ratio 1.08 to 1.

        <bullet> ANA 3,500 Infantry, 850 Support
        <bullet> ANP 1,800 AUP, 1,400 ANCOP
        <bullet> CF 4,200 Infantry, 300 Military Police, 2,500 Combat 
        Enablers

    General Petraeus. We had a video teleconference with 
General McChrystal this morning, in fact, the normal weekly one 
that the Secretary does. The Chairman, Under Secretary 
Flournoy, and I participate in that. In that he described, for 
example, how he will use some of the elements of the additional 
brigade going into the Kandahar belts, the districts around 
Kandahar City, to work with their Afghan partners, so that they 
can do what President Karzai also wants them to do, as he 
announced in the shura council on Sunday to the 500 or so local 
leaders there in discussing what is coming to Kandahar 
Province. That is that Afghan forces lead wherever that is 
possible.
    Chairman Levin. What percentage of the time do you figure 
they're going to be in the lead in this Kandahar operation? 
Will it be most of the time? Will it be less than half the 
time? Roughly how often in these operations that are going to 
take place will it be Afghan troops in the lead? Can you give 
us some estimate?
    General Petraeus. It will depend on which component it is, 
Mr. Chairman.
    Chairman Levin. Not the special forces. Other than the 
special forces.
    General Petraeus. With respect to the police, for example, 
the police are in the lead in Kandahar.
    Chairman Levin. Other than the police. I'm talking about 
troops.
    General Petraeus. The Afghan National Civil Order Police 
will be in the lead. With partners, but not by any means full 
numbers, alongside them, they will be conducting the operations 
and they will be leading in those.
    Chairman Levin. Just for the regular army kandaks, give us 
an idea? Do we expect that most of the time that the operations 
will be led by Afghan troops or not?
    General Petraeus. I would think that the presence patrols, 
if you will, will be the ones that are led by the Afghan 
forces, and that the more high-end operations that require the 
integration of intelligence, surveillance, and reconnaissance 
(ISR) systems, and so forth, that are an important component of 
this overall effort, would still be led by U.S. forces.
    Chairman Levin. Okay. Now, the numbers that we have, the 
ISAF numbers, are that more than half of those Afghan 
battalions are capable of operating either independently or 
independently with coalition support. Even if you reduce that 
number down to 30 percent, which is what I think ISAF is going 
to be doing, there's a lot more kandaks or battalions of the 
ANA that are able to operate independently than we are using 
down in the south.
    Why are we not and why are the Afghans not moving more of 
their troops down to the south for this upcoming campaign?
    General Petraeus. First of all, they have moved more of 
their troops to the south, Mr. Chairman. Second, they are going 
to move more of their troops to the south. Third, there are 
other missions in Afghanistan that require Afghan troops.
    Chairman Levin. Are they capable, General, of leading most 
of these operations where you call high end operations? Are 
there enough Afghan troops capable of leading those high end 
operations?
    General Petraeus. The very high end operations, we have 
Afghan partners on those and we are developing. Now I'm talking 
the very high end operations.
    Chairman Levin. I say leading.
    General Petraeus. Not the very high end. Again, those are 
dependent on U.S. ISR assets that they don't have the ability 
to pull down, nor does virtually any other force in the world, 
for that matter.
    What I think is probably more relevant would be more of the 
standard activities. The standard patrols I think they have the 
capability to do and are doing. They do secure large numbers of 
convoys of various movements, again the presence patrols, the 
framework activities, as it's termed. But when you get into the 
more challenging scenarios, certainly in the difficult 
operations in Marjah, U.S. forces ended up leading the bulk of 
those.
    Chairman Levin. General, let me ask you whether or not you 
continue to support the strategy of the President which has the 
additional forces coming in, but, more specifically, do you 
continue to support that July 2011 date for the start of 
reduction in U.S. forces from Afghanistan?
    General Petraeus. I support the policy of the President, 
Mr. Chairman. As I have noted on a number of occasions, my 
sense of what the President was seeking to convey at West Point 
in December were two messages. One is a message of enormous 
additional commitment, again culminating in the more than 
tripling the number of U.S. forces, triple the number of 
civilians, substantial additional funds that you have 
authorized for the ANSF, et cetera, and also a message of 
urgency. The urgency was the July 2011 piece, noting that what 
happens in July 2011 is a beginning of a process for 
transition, that it's conditions-based, and the beginning of a 
process of responsible drawdown of U.S. forces.
    Chairman Levin. When you say that you continue to support 
the President's policy both in terms of the additional troops, 
but also the setting of that date to begin the reduction for 
the reasons that you just gave in terms of laying out the 
urgency for the Afghans to take responsibility, does that 
represent your best personal professional judgment?
    General Petraeus. In a perfect world, Mr. Chairman, we have 
to be very careful with timelines. We went through this in 
Iraq, as you will recall, and I did set a timeline ultimately 
in Iraq. In fact, testifying before this body in September 2007 
I said we would start the drawdown of our surge forces in 
December, based on a projection of conditions that would be 
established.
    We are assuming that we will have those kinds of conditions 
that will enable that by that time in July 2011. That's the 
projection and that is what again we have supported.
    Chairman Levin. Do I take that to be a qualified yes, a 
qualified no, or just a non-answer?
    General Petraeus. A qualified yes, Mr. Chairman.
    Chairman Levin. Thank you.
    General Petraeus. Again, I think there was a nuance to what 
the President said that was very important, that did not imply 
a race for the exits, a search for the light to turn off, or 
anything like that. It did imply the need for greater urgency. 
That target was--I think a number of targets that was aimed at. 
It included the leaders in Afghanistan. It undoubtedly included 
some of our partners around the world. It may have included 
some of us in uniform.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. General, just to follow up here, there's a 
great deal of confusion about this. You just said that 
beginning withdrawal, and it would be conditions-based and 
contingent upon certain factors. Yet there's a recent book by 
Jonathan Alter--and it has quotes:

          ``Inside the Oval Office, Obama asked Petraeus: 
        `David, tell me now. I want you to be honest with me. 
        You can do this in 18 months?'
          `Sir, I'm confident we can train and hand over to the 
        ANA in that timeframe,' Petraeus replied.
          `Good, no problem,' the President said. `If you can't 
        do the things you say in 18 months, then no one is 
        going to suggest we stay, right?'
          `Yes, sir, in agreement.'
          `Yes, sir,' Mullen.''

    Then Mr. Alter goes on to say:

          ``Obama was trying to turn the tables on the 
        military, to box them in after they had spent most of 
        the year boxing him in. If after 18 months the 
        situation in Afghanistan had stabilized as he expected, 
        then troops could begin to come home. If conditions 
        didn't stabilize enough to begin an orderly withdrawal 
        of U.S. forces or if they deteriorated further, that 
        would undermine the Pentagon's belief in the 
        effectiveness of more troops.''

    Then at the end:
          ``At the conclusion of an interview in his West Wing 
        office''--referring to the Vice President--``Biden was 
        adamant: `In July 2011, you're going to see a whole lot 
        of people moving out. Bet on it.' ''

    Now, I don't know if that book is accurate. It has quotes 
in it. But honestly, General, there's a disconnect between the 
comment that you just made in response to the chairman and what 
is being depicted here and the President's repeated statements 
that in July 2011 that we will begin withdrawal. This obviously 
sends a message to our enemies that we are leaving and our 
friends that we are leaving, and then there is accommodation in 
the region.
    So I guess maybe could you clarify the difference between 
what you just said and what is quoted in the book:

          ``I am confident that we can train and hand over to 
        the ANA in that timeframe.''
          ``Good, no problem.''
          ``If we can't do the things you say you can in 18 
        months, then no one is going to suggest we stay, 
        right?''

    That's a quote, apparently a direct quote from the 
President of the United States.
    General Petraeus. Senator, I'm not sure it's productive to 
comment on conversations that took place in the Oval Office.
    Senator McCain. I understand that.
    General Petraeus. What I would come back to is what the 
President said at West Point, and that is something that I 
support, as I just told the chairman. That is that July 2011 is 
not the date where we race for the exits; it is the date where, 
having done an assessment, we begin a process of transition of 
tasks to Afghan security forces based on conditions and begin a 
process of a responsible drawdown of our forces.
    Senator McCain. Do you believe that we will begin a 
drawdown of forces in July 2011, given the situation as it 
exists today?
    General Petraeus. It's not given as the situation exists 
today. Obviously, it is given as projections are for that time. 
I do believe that that will be the case.
    Senator McCain. Do you believe we can begin a drawdown in 
July 2011 under the projected plans that we have?
    General Petraeus. That is the policy and I support it, 
Senator.
    Senator McCain. I understand you support the policy. Will 
conditions on the ground indicate that we will begin a 
withdrawal, in the words of the Vice President: ``July 2011, 
you're going to see a whole lot of people moving out. Bet on 
it.''
    Do you agree with the comment of President Karzai's former 
intelligence chief that Karzai has lost confidence in the 
ability of the United States and NATO to succeed in 
Afghanistan, General?
    General Petraeus. I do not, Senator. Again, as I mentioned 
earlier, in fact we just did a video teleconference, a weekly 
video teleconference with General McChrystal. He spent the bulk 
of Sunday with President Karzai in the process of conducting 
the shura council in Kandahar, going to and from with him as 
well, and in that process there was certainly no sense on 
General McChrystal's part, nor on those of the others who were 
with him, that there was a lack of confidence in the U.S. 
commitment to Afghanistan.
    As I mentioned earlier, the fact that we will have more 
than tripled our forces from January 2009 to the end of August 
2010 is of enormous significance. The same with the civilian 
force structure, the same with the funding, and the same with 
others.
    Senator McCain. Let me reiterate my admiration and respect, 
General, for you and our military leaders in the task, in the 
difficulty of the task before them. I think you are one of 
America's great heroes.
    But I continue to worry a great deal about the message we 
are sending in the region about whether we're actually going to 
stay or not and whether we're going to do what's necessary to 
succeed, rather than set an arbitrary timeline. The best way 
to----[Pause.]
    Chairman Levin. We're going to recess. We're going to 
recess now for a few moments. We'll recess until the call of 
the chair.
    [Recess from 10:23 a.m. to 10:33 a.m.]
    Chairman Levin. General Petraeus appears to be doing very 
well, and we will make a decision as to whether to proceed in, 
hopefully, a few minutes. He's eating. He probably didn't have 
enough water to drink coming in here this morning. But he 
appears to be doing very much better.
    Again, we will make a decision hopefully in a few minutes 
as to whether we're going to proceed this morning or not.
    Until then, we'll stand in recess.
    [Recess from 10:34 a.m. to 10:50 a.m.]
    [Applause.]
    General Petraeus. Senator, my apologies.
    Chairman Levin. Are you kidding?
    General Petraeus. I got a little bit light-headed there. It 
wasn't Senator McCain's questions, I assure you. [Laughter.]
    Chairman Levin. I know, it was mine. [Laughter.]
    General Petraeus. No, it's just that----
    Chairman Levin. Clear me too, would you, with the same 
breath, if you would? Just kidding.
    General Petraeus. I just got dehydrated, sir.
    Chairman Levin. General, you've told us that you're more 
than ready to go.
    General Petraeus. I am.
    Chairman Levin. You always are. You're that kind of an 
incredible person.
    I have consulted with colleagues and we're going to 
overrule you, and we're just not going to continue----
    General Petraeus. Civilian control of the military action 
here?
    Chairman Levin. Yes, proving it again, right----[Laughter.]
    We just would feel better about it. We're going to try to 
continue tomorrow morning. We think at 9 o'clock is fine. But 
you look great, and we just would feel better.
    Secretary Flournoy, I don't know if you've checked your 
schedule or not, but if you could also do that.
    We thank both of you.
    Senator McCain. Mr. Chairman, could I just mention, I would 
finish the thought that I had when General Petraeus felt a 
little ill. You are one of America's greatest heroes and we're 
glad you're recovered and we look forward to seeing you again 
tomorrow.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    We all feel better. I know you feel better, but we all feel 
better doing it this way. So we will stand adjourned until 
tomorrow morning, tentatively at 9 o'clock. [Applause.]
    [Whereupon, at 10:52 a.m., the committee adjourned.]


    TO CONTINUE TO RECEIVE TESTIMONY ON THE SITUATION IN AFGHANISTAN

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:07 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, E. Benjamin Nelson, Webb, McCaskill, Udall, Hagan, 
Kaufman, McCain, Inhofe, Sessions, Graham, Thune, Wicker, 
LeMieux, Brown, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Ilona R. Cohen, counsel; Jessica L. 
Kingston, research assistant; Jason W. Maroney, counsel; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; Christian D. Brose, professional 
staff member; Michael V. Kostiw, professional staff member; 
David M. Morriss, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Jennifer R. Knowles, Christine G. 
Lang, and Hannah I. Lloyd.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin and Vance 
Serchuk, assistants to Senator Lieberman; Greta Lundeberg, 
assistant to Senator Bill Nelson; Ann Premer, assistant to 
Senator Ben Nelson; Patrick Hayes, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Tressa Guenov, 
assistant to Senator McCaskill; Jennifer Barrett, assistant to 
Senator Udall; Roger Pena, assistant to Senator Hagan; Lindsay 
Kavanaugh, assistant to Senator Begich; Halie Soifer, assistant 
to Senator Kaufman; Sandra Luff, assistant to Senator Sessions; 
Andy Olson, assistant to Senator Graham; Jason Van Beek, 
assistant to Senator Thune; Erskine Wells III, assistant to 
Senator Wicker; Brian Walsh, assistant to Senator LeMieux; 
Kevin Kane, assistant to Senator Burr; Kyle Ruckert, assistant 
to Senator Vitter; and Ryan Kaldahl, assistant to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. We're glad to welcome back our witnesses 
this morning, as the committee resumes its hearing on the 
progress in Afghanistan. Under Secretary Flournoy and General 
Petraeus, let me reiterate this committee's great appreciation 
for your service, the sacrifices that you and your families 
make along the way. The demands of your positions are great. 
You carry out your duties professionally and with excellence, 
so thanks to you both.
    General Petraeus, you were more than willing and more than 
able to proceed yesterday morning. It was my abundance of 
caution that led me to adjourn the proceedings until this 
morning.
    Before I turn to Senator McCain, who still has a bit of his 
time remaining, I understand that General Petraeus has a short 
statement.

   STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Petraeus. Thanks, Mr. Chairman, Senator McCain, 
members of the committee. Again, thank you for the opportunity 
for a redo hearing after I demonstrated yesterday the 
importance of following my first platoon sergeant's order 35 
years ago, to always stay hydrated. I'll try to remember that 
in the future. In fact, my team provided me this nifty 
camelback to help me remember it. [Laughter.]
    I pointed out that the committee provides water, and I do 
thank the committee as well for the chocolate chip cookies that 
were in the anteroom before this session.
    If I could, Mr. Chairman, before the questioning resumes, 
I'd like to ensure that my answers to questions by you and 
Senator McCain on the July 2011 date are very clear. As I noted 
yesterday, I did support and agree, at the end of the 
President's decisionmaking process last fall, with the July 
2011 date described by the President as the point at which a 
process begins to transition security tasks to Afghan forces at 
a rate to be determined by conditions at the time.
    I also agreed with July 2011 as the date at which a 
responsible drawdown of the surge forces is scheduled to begin 
at a rate, again, to be determined by the conditions at the 
time.
    As I noted yesterday, I did believe there was value in 
sending a message of urgency, July 2011, as well as the message 
that the President was sending of commitment, the additional 
substantial numbers of forces. But it is important that July 
2011 be seen for what it is, the date when a process begins, 
based on conditions, not the date, when the U.S. heads for the 
exits.
    Moreover, my agreement with the President's decisions was 
based on projections of conditions in July 2011 and, needless 
to say, we're doing all that is humanly possible to achieve 
those conditions and we appreciate the resources provided by 
Congress to enable us to do that.
    Of course, we will also conduct rigorous assessments 
throughout the year and as we get closer to next summer, as we 
do periodically in any event, to determine where adjustments in 
our strategy are needed. As July 2011 approaches, I will 
provide my best military advice to the Secretary and to the 
President on how I believe we should proceed based on the 
conditions at that time, and I will then support the 
President's decision.
    Providing one's forthright advice is a sacred obligation 
military leaders have to our men and women in uniform, and I 
know that that is what the President expects and wants his 
military leaders to provide as well.
    Beyond that, Mr. Chairman, in response to some of your 
questions yesterday, I want to be very clear as well that I 
fully recognize the importance of Afghan security forces 
leading in operations. Indeed, the formation of the North 
Atlantic Treaty Organization (NATO) Training Mission-
Afghanistan (NTM-A), the many initiatives it is pursuing, and 
the vastly increased partnering ordered by General McChrystal 
are intended to help the Afghan forces achieve the capability 
to take the lead in operations.
    To that end, I think we should note that Afghan forces are 
in the lead in Kabul and in a number of other areas and 
missions, and they are very much in the fight throughout the 
country, so much so that their losses are typically several 
times that of U.S. losses.
    In short, our Afghan comrades on the ground are indeed 
sacrificing enormously for their country, as are of course our 
troopers and those of our International Security Assistance 
Force (ISAF) partner nations.
    Thank you.
    Chairman Levin. Thank you very much, General. I am glad to 
hear of your support for July 2011 beginning of U.S. troop 
reduction decision, since I continue to strongly believe that 
it is essential for success in Afghanistan for everyone to 
understand the urgency for the Afghans to take responsibility 
for their own security.
    Now, this morning, after calling upon Senator McCain to 
complete his questions, I'm going to be calling on Senators for 
questions in the early bird order that was established 
yesterday morning, as I believe that we notified all of our 
members' offices yesterday afternoon.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    We were interrupted probably at the most important point of 
my comments yesterday, General Petraeus, when I said I 
considered you one of America's greatest heroes. In case you 
missed that, I'll repeat it.
    Chairman Levin. I don't think you missed that.
    General Petraeus. It was overwhelming, sir. [Laughter.]
    Senator McCain. I still believe that with all my heart.
    I appreciate the statement you just made, General Petraeus, 
and I think it's very helpful. I hope that it's heard in the 
Oval Office and in the Vice President's office, because your 
statement seems to contradict what the President of the United 
States continues to say, what his spokesperson said, that July 
2011 was ``etched in stone,'' administration officials continue 
to say that July 2011 will begin the withdrawal. According to 
what is probably trash journalism, Vice President Biden said: 
``In July 2011, you're going to see a whole lot of people 
moving out. Bet on it.''
    So it would be very helpful if your sentiments were shared 
by the President, the Vice President, the President's National 
Security Advisor, and others. Right now, General, we are 
sounding an uncertain trumpet to our friends and our enemies. 
They believe that we are leaving as of July 2011. I could 
relate to you anecdotes all the way down to the tribal 
chieftain level in Afghanistan.
    It seems to me that organizations, countries, and leaders 
in the region are accommodating to that eventuality, and that 
does not bode well for success in Afghanistan. So to elaborate 
on the comment I made yesterday, if we sound an uncertain 
trumpet, not many will follow, and that's what's being sounded 
now. That's one of the reasons why we see some of the events 
taking place that are in the region, not just confined to 
Afghanistan.
    I know that I've used up most of my time, Mr. Chairman. 
Maybe General Petraeus would like to respond.
    General Petraeus. Senator, first of all, I think July 2011 
is etched in stone, but as I tried to explain it, as a date at 
which a process begins that is based on conditions, and that I 
think was explained clearly at the speech at West Point by the 
President, which I was privileged to attend.
    Beyond that, as I said yesterday, I don't think it's 
productive, obviously, to discuss journalistic accounts of Oval 
Office conversations based on second- and third-hand sources, 
other than to say that I think it is important that folks 
should know that those are not a complete account. I will leave 
it right there.
    What I have tried to explain today is my understanding of 
what July 2011 means and how it is important again that people 
do realize, especially our partners and our comrades-in-arms in 
Afghanistan and in the region, that that is not the date when 
we look for the door and try to turn off the light, but rather 
a date at which a process begins.
    If I could, I'd like to ask the Under Secretary perhaps if 
she wanted to provide some insights, having participated in the 
process as well.
    Secretary Flournoy. Thank you very much.
    I think General Petraeus has characterized the date 
accurately. It is an inflection point. It is a point at which 
the end of the surge will be marked and a process of transition 
that is conditions-based will begin. The President was very 
careful not to set a detailed timeline of how many troops will 
come out at what point in time, because he believes in a 
conditions-based process, and he's said that over and over 
again.
    On the issue of whether or not Afghans understand our 
commitment, I think one of the things that we did in the 
strategic dialogue we had recently with President Karzai and 14 
members of his cabinet was to focus on the long-term commitment 
of this country to the Afghan people and to Afghanistan's 
development. We talked about long-term security assistance, 
long-term commitment to build capacity, governance, 
development.
    I think that everyone walked away from that with no 
questions in their mind about the depth and enduring nature of 
the U.S. commitment to Afghanistan. So I think that that has to 
be important context in which this conversation happens.
    Senator McCain. Thank you, Madam Secretary. We don't live 
in a vacuum here. I've had conversations with him as well. I've 
had conversations with leaders throughout Afghanistan and the 
region, and that's not what they're telling me.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Welcome back, General. It's great to see you looking good 
again. Your recovery time was very impressive yesterday. I 
thought it was at World Cup levels, and the coach may want to 
add you to the team roster before Slovenia later in the week. 
[Laughter.]
    I thank you both for your service and your leadership. I 
want to say at the outset that, as you both said yesterday in 
your opening statements, in previous appearances before our 
committee you've made clear that things would get worse before 
they got better in Afghanistan. Unfortunately, that's exactly 
where we are now.
    But to me the important point here--and I want to go back 
to that December 1 speech by President Obama at West Point. 
We're talking about the deadline parts of it. I want to come 
back to that in a minute. But the President made a very strong 
case there, expressing his decision that the outcome of the war 
in Afghanistan was of vital national security interest to the 
United States, and if it went badly the consequences for our 
security, American security, were disastrous.
    To me that's the most important point. We know from 
previous experience that counterinsurgencies take time. I think 
the key now is to make sure that we have the right strategy, 
that it's sufficiently resourced to execute it with decisive 
force, and, as important as anything else, that we give our 
warfighters and the Department of State (DOS) personnel on the 
ground the time and patience to achieve the strategic national 
goal that we have in succeeding in Afghanistan. I say that to 
us here in Congress as well as to the American people.
    General Petraeus, I think an important part of that is the 
clarification you made just now about what the July 2011 date 
means. It's not a deadline for withdrawal. It's not a deadline 
by which we're going to pick up and go out. It's a goal. I want 
to stress, as you did very clearly today, notwithstanding 
anything that we may have read and what my dear friend and 
colleague from Arizona has described as trash journalism, or it 
may be trash journalism, the fact is that what happens on the 
ground at that time, will determine whether we withdraw any 
troops from Afghanistan in July 2011.
    Obviously, we hope we'll be able to. I believe that it's 
important for the President to make that clear at some point 
soon, because, notwithstanding all the clarifications that 
followed from him, Secretary Gates, Secretary Clinton, and the 
two of you, in our conversations with people in the region that 
date is being read as a date at which the United States is 
going to begin to pull out regardless of what's happening on 
the ground.
    So thank you for your clarification this morning.
    Second, I want to ask this question. Some of us on the 
committee were talking about it afterward. There's been a run 
of bad reporting from Afghanistan over the last couple of 
weeks. The marines took Marjah, but the Taliban is fighting 
back. There's been beheadings and targeted assassinations of 
people who worked with us. General McChrystal announced last 
Friday that the offensive in Kandahar is now being delayed.
    Yet the reports that you gave in your opening statements 
yesterday were quite upbeat about what's happening in 
Afghanistan. I fear there's a gap between the tone and the 
message that you gave us yesterday and what we are reading in 
the media about what's happening. I wanted to ask you to 
address yourself to that gap, because that gap can begin to 
erode the support that you need from Members of Congress and 
the American people in the months ahead.
    General Petraeus. Senator, I think you've raised a very 
important point, and that is the importance of having measured 
expectations. The conduct of a counterinsurgency operation is a 
roller-coaster experience. There are setbacks as well as areas 
of progress or successes. It is truly an up and down when 
you're living it, when you're doing it, even from afar, 
frankly.
    But the trajectory in my view has generally been upward, 
despite the tough losses, despite the setbacks. When I appeared 
before you some months ago for the posture hearing, a coalition 
soldier could not have set foot in Marjah. I did that just, I 
guess it was, a month and a half ago with the district 
governor. There wasn't a district governor at that time. There 
is gradually the expansion of government activities in the form 
of schools, of assistance to revive markets, and of nascent 
judicial systems certainly that are tied into local organizing 
structures as well, which is very important.
    We did the same in Nad-i-Ali, in Kandahar. I bought bread 
in the market down there. Yes, I had security around me, but, I 
had hundreds of Afghans right around me as well, and bought the 
bread directly from them, sat there, chatted with them while we 
ate it.
    This is an up and down process, and that defines the 
experience of counterinsurgency, where there's no hill that you 
can take and plant the flag and then go home to a victory 
parade. Rather, progress is almost the absence of something. I 
remember in Iraq when all of a sudden I realized we were making 
progress. We were hearing less about a certain activity, say a 
car bomb or a suicide attack, and all of a sudden we had 
expanded our forces into an area. The Iraqi forces were 
starting to stand up in certain areas, as is the case again in 
certain areas of Afghanistan.
    So I think it is essential that we realize the challenges 
in this kind of endeavor. It is also essential that, as both 
the Under Secretary and I noted, that people do realize there 
has been progress, but there clearly have also been setbacks.
    Beyond that, if I could just underscore what you said about 
the designation as a vital national security interest. For one 
who taught international relations for a period, that is a code 
word. That is a sign of commitment. That's a rhetorical 
statement that means an enormous amount, and again I appreciate 
your mentioning that because it does highlight what I was 
discussing earlier.
    Senator Lieberman. Thanks, General.
    Did you want to add something, Madam Secretary?
    Secretary Flournoy. Sir, I would agree with what General 
Petraeus said about counterinsurgency campaigns being a roller-
coaster ride. But the overall trajectory is moving in the right 
direction. It's going to be hard. There are going to be times 
when we take one step back and then we'll take two steps 
forward.
    The one thing I wanted to give as an example is I do think 
that the reporting on the delay in the Kandahar campaign has 
been overplayed. We talked a lot yesterday about the importance 
of Afghans taking the lead. We owe General McChrystal a great 
degree of operational flexibility. What's happening in Kandahar 
is he's taking more time to shape the operation. The campaign's 
already begun. The shaping is happening now.
    The shura that President Karzai conducted on Sunday was 
very important for him to step up and take the lead, the 
ownership, of what's going to happen in Kandahar. So if that 
means delaying some aspects by a little bit of time to make 
sure that that Afghan ownership and leadership is in place, 
then we should all be supporting that. That is not any sign of 
failure at all. It's a sign of good counterinsurgency strategy.
    Senator Lieberman. Thank you both.
    General Petraeus. If I could, Senator, we probably should 
distribute what was published as President Karzai's talking 
points for the Kandahar shura, because it really makes a number 
of these points. This is a president who is acting as a 
commander in chief.
    [The information referred to follows:]
          President Karzai's Talking Points for Kandahar Shura
                         future of afghanistan
    ``Hamkari Baraye Kandahar'' is essential to the expansion of the 
exercise of Afghan sovereignty in governance, development and security. 
This is the way forward for Afghanistan--increasing our capacity to 
guide our own future.
    I intend to underscore this growing capacity during the Kabul 
Conference--as demonstrated by the performance of government at all 
levels in ``Hamkari.'' At both the Kabul Conference and the NATO Summit 
in Lisbon, I will encourage the international community to take note of 
our growing exercise of sovereignty.
                          priority of kandahar
    Stability in Kandahar is essential for stability and success in 
Afghanistan as a whole. Kandahar faces two big challenges: an 
insurgency that threatens our peaceful way of life; and our own history 
of ineffectiveness in responding to the people's needs for governance 
and security. We must resolve both of these challenges.
    We will ensure success in Kandahar without losing sight of the 
needs of all the Afghan people.
                               my intent
    To provide a firm commitment to the people of Kandahar Province. In 
coordination with the Afghan National Security Forces and numerous 
Government Officials we have conducted a series of meetings to 
synchronize our efforts. As a result, I have directed the following:

          (1) Minister Spanta: Provides oversight and direction of 
        Hamkari through the National Security Council on my behalf.
          (2) Director Popal and the IDLG: He will act as the lead 
        coordinator of all ministries to improve governance and 
        development in Kandahar. They will ensure that appointments are 
        expedited and Tashkils are manned not later than the beginning 
        of Ramadan. Staffs will be provided with appropriate incentives 
        which encourage them to work in Kandahar Province.
          (3) Service and Investments: Ministers will give a high 
        priority to the delivery of services and investments in 
        Kandahar Province.
          (4) Public Service: An essential aspect of this effort is for 
        the people of Kandahar Province join the Government of 
        Afghanistan and become public servants. We encourage families 
        and members of the community to join the Army, the Police, and 
        our civil service ranks.
          (5) Provincial and District Officials: Ensure councils are 
        inclusive and representative of all constituencies.
          (6) Economic Development--

                  (a) Electrical power for Kandahar Province is an 
                extremely high priority and we will work to deliever 
                this basic service as soon as possible.
                  (b) A bypass route for Kandahar City will be 
                constructed this year so that large vehicles do not 
                need to travel directly thru the center of Kandahar 
                City.

          (7) Private Security Companies and Militias: I have directed 
        that Private Security Companies and Militias must be registered 
        and regulated. It is my long term goal that security is only 
        provided by elements of the Afghanistan Central Government.
          (8) Insurgents in the Surrounding Districts: It is 
        unacceptable for Insurgents to control large swaths of 
        Arghandab, Zharay, and Panjwa'i. I ask that you, the citizens 
        of Kandahar Province, confirm your approval of operations to 
        remove these Insurgents from these districts to protect the 
        Afghan People.
          (9) Peace and Reintegration Program: I have directed Governor 
        Wesa to develop and execute the Afghan Peace and Reintegration 
        Program in Kandahar Province. Execution will be at the local 
        level.
          (10) Land Commission: The Kandahar City Mayor will establish 
        a Land Commission to address important land disputes and 
        specifically land disputes related to the misappropriation of 
        properties.
                     responsibility/ accountability
    As your Commander in Chief, I bear the ultimate responsibility for 
the success of our effort in Kandahar. Yet all of us are responsible 
for continuously and rigorously holding each other accountable.
    The principle of mutual accountability extends to our relationships 
with the international community, who are supporting us in these 
efforts.
    We will:

        <bullet> Convene periodically to share updates on progress; to 
        confirm and update our strategic direction; and to resolve any 
        issues that require senior leadership attention.
        <bullet> Mobilize the emerging capacity of this government to 
        prosecute and hold legally accountable officials who have 
        broken the law.
                                timeline
    Our efforts in Kandahar are already underway, and will continue 
aggressively for the rest of the year. We will not see the results all 
at once. Our efforts this year will improve security conditions, and 
lay a foundation for stronger governance. It will take some time for 
better security and governance to earn the trust and confidence of the 
people of Kandahar. As trust grows, local communities will increasingly 
stand up against insurgent presence and corrupt practices, former 
fighters will choose to rejoin peaceful society, violence levels will 
go down, and opportunities for more effective governance and 
development will continue to grow.
                   unity of effort and communications
    Our success in Kandahar requires, immediately, the closest possible 
integration among ourselves. It also requires that we are clear and 
unified in articulating our intent and our progress to the people of 
Afghanistan, our `upset brothers', and the international community.
                   focus on serving the afghan people
    The Afghan people will hold us responsible for making their present 
and future lives better. Success for Afghanistan means that the 
government is representative of all the people and is responsive to 
their needs. In turn, the people support their government and hold it 
accountable. In effect, this is a contract between us and our people, 
and the basis for Afghanistan's lasting stability.
    Stability in Kandahar will require the people's direct involvement. 
The invitation to participate in various councils and shuras is open to 
all Kandaharis who want to be part of peaceful Afghan society.

    Senator Lieberman. That would be very important.
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Madam Secretary, just as a suggestion, I share the concern 
of both of the previous questioners about the exit strategy, a 
certain date. I was relieved when the President made his 
speech, when he said: ``Just as we have done in Iraq, we will 
execute this transition responsibly, taking into account 
conditions on the ground.''
    That's the position that I wanted him to take and I was 
relieved to hear that. The problem is I've only heard it once. 
I asked staff after the meeting yesterday to go back and check 
and see if they've seen any emphasis on that by the President. 
I would recommend that that be done, that he keep saying that, 
and that the administration does it, and certainly General 
Petraeus and others, because that clarifies it and makes it 
clearer. But without that, only having said it once, I think 
there's a little bit of a problem there.
    Let me ask you a question, General Petraeus. You've heard 
me talk about this before and you know that I have a very 
strong feeling about the Commanders' Emergency Response Program 
(CERP). You talked about it in your opening comments yesterday. 
We had the CERP from the defense budget that came from the 
President; it was at $1.3 billion, and this was comprised of 
$200 million in Iraq and $1.1 billion in CERP in Afghanistan.
    Now, this committee, and I respect them for doing what they 
felt was the right thing. I disagreed with it, has lowered CERP 
so that it takes the amount to Afghanistan from $1.1 billion 
down to $800 million.
    Now, I'd like to ask you your feeling about how valuable 
the program is and how would you use it? Then the second part 
of that question is, you had said this, Madam Secretary, that 
General McChrystal needs more operational flexibility. I think 
maybe we need that in the CERP, because during talks on my last 
trip over there as to what needs are there that could come from 
the CERP, something that could be done fast would be power 
stations, electric grids, and dam projects. However, the CERP 
has restrictions due to the statute so that money can't 
necessarily be spent on these types of projects.
    So the second part of the question would be, do we need to 
change the language, either one of you, particularly you, 
General Petraeus, to be able to accomplish these two things 
that people in the field told me we should be spending it on?
    General Petraeus. Senator, thanks for that. First of all, 
the President actually has described what you've quoted him on 
in a number of different occasions. I'd come back to the West 
Point speech in particular, where the very important words, 
``responsible drawdown,'' were used. Just like vital national 
interest, that has been a code word for those of us who went 
through the Iraq Policy Review, at the end of which the 
President announced the responsible drawdown and, as you'll 
recall, lengthened the time over that which was expected 
earlier. We are in the process of doing that and, touch wood, 
we think that it is on track and it will be at the 50,000 
number by the end of August, by the way.
    With respect to the CERP for Afghanistan, we do need the 
full amount, Senator. It is very valuable. You asked about 
that. As I mentioned in my opening statement yesterday, we now 
have the inputs just about right, certainly another 9,000 
troopers to get on the ground and some of our NATO partners as 
well.
    But as we get everybody in position, as we get them out 
performing their tasks and trying to wrest the initiative from 
the Taliban, take away their sanctuaries, and then capitalize 
on that, CERP is critical to that process.
    Now, someone may ask, ``how come the execution rate, the 
obligation rate, this year so far is low?'' In part because 
we're just building up still. Again, we actually are doing many 
more projects that are actually lower cost, is another issue. 
But beyond that, we do indeed have projects that are stacked up 
right now. We just have submitted them in fact, and the Office 
of the Secretary of Defense (OSD) is working on this, and I'll 
let the Secretary talk about these projects, for 
electrification in particular, in the Kandahar, Greater 
Regional Command (RC)-South and RC-East areas.
    Secretary Flournoy. Senator, let me just echo. We think 
that CERP is an absolutely critical and flexible 
counterinsurgency tool. We would urge the committee to consider 
restoring the funding that was removed.
    In the specific case of the electrical projects in 
Kandahar, again it's a very critical element of the fight. We 
think it directly impacts the population that we're trying to 
protect and win over to support the ISAF and the Afghan 
Government. The projects have been developed in close 
coordination with U.S. Agency for International Development 
(USAID), with a bridging strategy that would eventually hand 
off to longer-term development efforts. U.S. Central Command 
(CENTCOM) has submitted these proposals. They're being reviewed 
quickly in OSD and we'll be making a recommendation to the 
Secretary very shortly.
    We do not judge at this point that the language needs to be 
changed. Our reading of the language, and those of our trusty 
lawyers, suggests that the flexibility is there to do this kind 
of thing.
    Senator Inhofe. We're running out of time here, but I would 
only suggest this, that this is information I got from the 
field, that there are things that we could use that we are 
restricted from using. So perhaps for the record you could 
elaborate a little bit on that and send us something.
    [The information referred to follows:]

    In response to Senator Inhofe's questions about: (1) the value of 
the Commanders' Emergency Response Program (CERP); (2) how it is used; 
and (3) whether it requires less restrictive legislative language:
    As stated during the hearing, the CERP is an ``absolutely critical 
and flexible counterinsurgency tool'' and ``[we] do not judge at this 
point that the language needs to be changed.''
    The CERP's overall impact has been immediate and of significant 
tactical, operational, and strategic benefit. Commanders use CERP to 
provide a rapid response capability that complements civilian 
development and reconstruction efforts, particularly in non-permissive 
areas. Commanders use CERP to bridge the gap until civilian agencies 
and traditional long-term development programs can provide assistance 
or the local government can resource requirements. In the dynamic 
counterinsurgency environment, flexibility enables commanders to employ 
CERP funding in the most effective manner. Effective use requires 
different approaches be taken during each distinct stage of the 
counterinsurgency campaign, and requires attention to the significant 
differences between Afghanistan and Iraq.
    Afghanistan requires an array of relief and reconstruction 
assistance--small projects and complementary larger-scale projects. The 
emphasis is on supporting small-scale projects immediately following 
kinetic operations, although CERP funding is also required for larger 
projects that can provide a near-term counterinsurgency impact.
    In Iraq, the CERP has been and will continue to be a critical 
enabler for commanders to carry out the U.S. Government's strategy to 
maintain security gains that are not yet enduring. CERP-funded projects 
focus on the drivers of instability, and in so doing help sustain 
security, and advance Iraqi-led counterinsurgency objectives.

    Senator Inhofe. I'm running out of time here. Let me just 
mention one of the things that I have a hard time answering. 
When I talk to people, they talk about, ``the surge was 
successful in Iraq.'' The surge, however, in Iraq, we ended up 
with close to 165,000 troops in a period of time of 18 months. 
Now we're looking at a surge that might be about 100,000 troops 
and talking about 9 months.
    Now, considering that Afghanistan is about twice the size 
of Iraq, this disparity is--it's hard for me to describe to 
people why this number will work in Afghanistan when it took so 
much more in Iraq. General Petraeus, do you have any thoughts 
that I could share with these people?
    General Petraeus. I do, Senator. Thank you. First of all, 
with respect on the timing of the actual surge in Iraq, we had 
all of the surge forces on the ground by end of June, July-ish, 
in there, and we actually began the drawdown of the first 
brigade in December. We then did lengthen it out over the 
course of the next spring.
    But in this case, we will actually have all of our U.S. 
surge forces, all of our tactical units certainly, again less 
the one headquarters that's not required until a month after 
August, but on the ground by the end of August. Again, the July 
2011 date is the date at which the process again begins that 
would embark on the ``responsible drawdown'' of the surge 
forces. So that's a pretty considerable period.
    Now, with respect to the density of forces, you have a 
situation in Afghanistan where there are a number of places 
that really don't require substantial numbers of coalition 
forces and areas where in fact the Afghans again are very much 
in the lead. So this is about counterinsurgency math. We think 
we'll have the density once we get the additional forces on the 
ground, our additional U.S. forces, NATO forces, and then as 
we're able to ramp up the Afghan forces by about 100,000 
between the period of earlier this year and the fall of 2011.
    Senator Inhofe. Thank you, General.
    Chairman Levin. Thank you very much.
    Senator Inhofe's comment about the importance of the CERP, 
I think, reflects the views of every member of this committee. 
The reason why both the House Armed Services Committee (HASC) 
and the Senate Armed Services Committee (SASC) reduced the $1.1 
billion to $800 million in Afghanistan was because you're on 
track in Afghanistan to spend only $200 million for this entire 
year of the billion that we appropriated last year.
    So, for the record, would you also then explain to us why 
the request is for $1.1 billion and why the reduction to $800 
million would have a negative impact, given the spending rate 
is only $200 million for the entire year? I think I can say 
that what Senator Inhofe says is reflective of this committee's 
very, very strong support for the CERP and your answer to that 
question for the record would be helpful to us as we proceed 
during this budget.
    [The information referred to follows:]

    The requested $1.3 billion in fiscal year 2011 total Commanders' 
Emergency Response Program (CERP) reflects program maturation in 
Afghanistan and a continuing full fiscal year requirement in Iraq.
    In Afghanistan, CERP will be used in the clear and hold phases by 
decentralized local commanders during operations extending into 
previously unchallenged areas. Concurrently, the Department of Defense 
is working with the Department of State, U.S. Agency for International 
Development, and Government of the Islamic Republic of Afghanistan to 
develop larger infrastructure projects in support of the Afghan 
National Development Strategy at the national, regional, and local 
government levels. These  projects  will  focus  on  power,  water,  
transportation,  and  governance  to  build  Afghan  capacity  to  
provide  basic  services,  demonstrate  effective  governance,  and  
promote economic development. As of 21 June, U.S. Forces-Afghanistan 
(USFOR-A) has obligated $95 million of an $805 million fiscal year 2010 
allocation (12 percent). Several factors have influenced a low 
execution rate to include clean-up of fiscal year 2009 projects and 
lower average cost per project over previous years. Execution rates are 
increasing and larger projects are being proposed. USFOR-A expects to 
fully obligate the entire $805 million fiscal year 2010 allocation 
prior to the end of the fiscal year.
    In Iraq, CERP will be used to continue the fiscal year 2010 
momentum to strengthen achievements necessary for supporting the new 
central government, improving employment and vital services growth, and 
complementing the USF-I Responsible Drawdown of Forces. As of 21 June, 
USF-I has obligated $159 million of a $245 million fiscal year 2010 
allocation (65 percent). USF-I's planned fiscal year 2011 CERP 
allocation is $100 million.
    Fiscal year 2011 CERP funding could also be affected by the Senate 
Armed Services Committee (SASC) National Defense Authorization Act 
(NDAA) for Fiscal Year 2011 bill, which would authorize transfer of 
CERP funds for both the Reintegration and the National Solidarity 
programs. These transfers could total as much as $150 million-$200 
million, or 15 percent of the total $1.3 billion CERP budget request. 
Transfers of $200 million coupled with the proposed $400 million cut, 
which appears in both the House Armed Services Committee and SASC NDAA 
bills, would equate to an overall 46 percent reduction of the original 
$1.3 billion fiscal year 2011 CERP request.

    Chairman Levin. I want to thank you, Senator Inhofe, for 
your leadership on that CERP.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Thank you for that 
clarification about CERP. I think everybody on the committee 
does fully support it.
    Good morning to both of you. General, we all on the 
committee understand this is an important time in Afghanistan. 
I think it would be useful to be able to consider President 
Karzai a reliable partner. It's sometimes hard to understand 
what he says versus what he does, and vice versa. I have a 
couple of questions in that regard.
    How do you best explain what seemingly is his mercurial 
personality? One day he talks about making common cause with 
the Taliban and then another day he goes down to Kandahar and 
gives an impassioned plea to the residents there to cooperate 
in the upcoming fight.
    Second, I have had a chance to get to know Minister Atmar 
and had great respect for his talent and his vision. What do 
you think his departure might mean for the important, maybe 
even crucial, police training effort?
    General Petraeus. Thanks, Senator. On the first question, I 
think there are a number of explanations, if you will. First of 
all, perhaps political leaders occasionally differentiate their 
message a tiny bit depending on who the audience might be. I 
know that would never happen in our own country, but----
    Senator Udall. Fair enough.
    General Petraeus.--I think over there that occasionally 
happens.
    The second thing is, this is a tough fight and leaders are 
under enormous pressure. I can tell you that, having dealt with 
leaders throughout our region and having dealt with leaders in 
Iraq at various times who were similarly under enormous, 
perhaps even greater, pressure with just staggering levels of 
violence in Iraq over the years that we were there prior to the 
downturn. Again, this can lead individuals at times to have 
outbursts or to express frustrations. I think there's a bit of 
that that is understandable.
    Now with respect to the president accepting the resignation 
of Hanif Atmar, the former minister of interior, someone indeed 
that we all really knew quite well, have worked with, not just 
as the minister of interior, but in two previous ministry 
positions as well, and one who again has impressed all of us. I 
think the impact of the departure cannot be determined, 
needless to say, until we know who the replacement is.
    There are discussions going on. You should know that 
coalition leaders are certainly included in those discussions, 
which I think is a positive feature of the process. But at the 
end of the day, certainly this will be the decision of the 
president of a sovereign country. But if the candidates that we 
think are under consideration provide the ultimate next 
minister, then I think that the ministry will continue forward 
on a positive trajectory.
    Senator Udall. So I sense you're guardedly optimistic that 
there will be a replacement with whom we can work with and who 
would bring the same sort of focus and expertise?
    General Petraeus. That's correct, Senator. I would not rule 
out again seeing Minister Atmar at some point back in another 
capacity, either.
    Senator Udall. That's heartening to hear.
    If I might, let me move to the very fascinating report over 
the weekend that Deputy Under Secretary of Defense Paul 
Brinkley issued on the mineral and natural resource wealth of 
Afghanistan. It's tied to a military task force, the Task Force 
for Business and Stability Operations. You may know, the 
chairman and I teamed up to offer an amendment in the National 
Defense Authorization Act (NDAA) that authorizes that task 
force's work in Afghanistan.
    The amendment also, General, will ask for a report from the 
Department of Defense (DOD) and DOS to look at the promising 
sectors in Afghanistan's economy, assess the capabilities of 
the government to generate additional revenue, to work on 
infrastructure needs, and so on. We're hopeful this report will 
provide important information that will enable Afghanistan to 
attract investment and pursue new economic opportunities.
    I'd be interested to hear your thoughts on the task force 
work and, more generally, about these economic development 
opportunities. Madam Secretary, you may want to respond as 
well.
    General Petraeus. First of all, if I could just say that 
Deputy Under Secretary Paul Brinkley and the Task Force for 
Business and Stability Operations did phenomenal work in Iraq. 
It was really created initially in fact to our request at that 
time that someone try to get some business leaders back into 
Iraq. It was a land of extraordinary opportunity, but also at 
that time a land of extraordinary violence.
    But you had to look out over the horizon. You had to 
envision a world where the violence was reduced and business 
could begin to flourish again, given the extraordinary 
potential that Iraq has in terms of its energy resources, 
natural water, agriculture, sulphur, and a variety of other 
blessings, including human capital.
    He was able to bring in business leaders at a time when no 
business leader in his right mind would come in on his own. We 
flew them around, secured them, housed them, fed them, and 
everything else. Over time this led to some very big deals, 
actually, for American business, but also in some cases for 
some other businesses as well. We did indeed open it more 
widely than that, with some very, very big transactions that 
Iraq needed.
    In fact, this was at a time when Prime Minister Maliki 
specifically was asking me as a military commander if I could 
get a certain corporation to reengage after their earlier 
disappointing experience there and get another one in. These 
are in the electrical sector, the oil sector, gas, and so 
forth. Again, Deputy Under Secretary Brinkley did great work 
there.
    In fact, I encouraged and we have helped to get him into 
Afghanistan. We might even look a bit more broadly than that, 
but in fact it was during his process of getting acquainted 
with the situation on the ground in Afghanistan that these 
geological surveys and other documents were all pulled 
together, and I think people realized the magnitude of the 
mineral resources that exist in Afghanistan, recognizing the 
enormous challenges to actually turning those into wealth and 
income and so forth for the people, revenue, but nonetheless 
recognizing the extraordinary potential that is there.
    It has some of the world's last remaining super-deposits, 
or some other terms, certainly for iron, lithium, tin, timber, 
and gemstones. It has some coal. It has some natural gas and 
oil. So again, they're not super-deposits, but it has 
extraordinary potential.
    Again, helping business find its way to that, in 
partnership with the military that is trying to create the 
security foundation on which they can build and operate, I 
think is a very important initiative, and I appreciate the 
committee's support for that particular initiative. That's one 
of the areas in which we have learned huge lessons in the 
conduct of counterinsurgency operations in the last 5 years or 
so.
    Secretary Flournoy. Let me just add that I think that what 
the picture that's painted from the U.S. Geological Survey that 
was done, which is only a partial survey, under Mr. Brinkley's 
sponsorship really paints a brighter economic picture for 
Afghanistan mid-term and long-term. It creates at least the 
prospect of a much more sustainable economy that can actually 
support some of the capabilities that we are putting in place 
today, like the armed forces and other government and economic 
capacity.
    It also shines a spotlight on the importance of some of our 
capacity-building efforts, particularly with the ministry of 
mines, which is under new leadership, that seems very capable 
and competent. We are working very closely with them to try to 
build their capacity so that this information informs their 
planning and they get off on the right foot in terms of 
pursuing some of these opportunities, working with businesses 
and private sector companies from around the world.
    We think this is a bright spot on the horizon. As General 
Petraeus said, it's going to take a lot of time and effort to 
build the capacity and the legal structures and so forth to 
really take full advantage of this. But we're working along 
those lines.
    Senator Udall. Thank you for that elaboration.
    Chairman Levin. Thank you very much, Senator Udall. Thank 
you for your leadership on this very, very important part of 
the Afghan picture. It's essential that the leadership be there 
and we're all grateful to you for it.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    General, it's good to see you in such chipper shape today. 
I think there are a lot of cookies back there, which I hope you 
partake in a couple.
    When we met in Afghanistan, actually, we were briefed, in 
fact, of the mineral, oil, and other deposits. It became 
apparent to me that, number one, they have a problem in how to 
get everything out of the Earth. Number two, how to secure it 
and get it from point A to point B. Number three, then, how to 
ensure that the corruption that we've seen in Afghanistan 
actually keeps the money in country and has it flow down to the 
individual citizens.
    So the challenges, Madam Secretary and General, obviously 
seem great. Yes, there is a bright spot, but it also appears to 
be how do we get from point A to point B. Do you see a role 
with the military in anything, aside from security? Or what do 
you think, General, in that regard?
    General Petraeus. Again, the security foundation is the 
essential component to all of this. Without that you can't 
build the legal regime that's required, you can't combat the 
corruption that creeps into these kinds of activities. So it is 
essential in that regard.
    We do indeed provide an important supporting role to those, 
like the Task Force for Business and Stability Operations, 
USAID, some international and nongovernmental organizations 
(NGOs), that are also trying to help Afghanistan. So in that 
sense, we are an enabler for them in certain respects as well.
    Senator Brown. Mr. Chairman, I have a couple other 
hearings, but I'm going to just ask two more questions and then 
turn back the remainder of any time I have.
    Sir, one of the things we also noted, and I'm the 
subcommittee chair on contracting issues with the Afghan 
National Police (ANP) and the like, what's your involvement or 
the military's involvement in curtailing the level of 
corruption of the security forces in Afghanistan? Any news to 
report on that?
    General Petraeus. There is, Senator, actually. In fact, the 
Chairman of the Joint Chiefs of Staff and I have pushed, at 
General McChrystal's request, the establishment of a task 
force, led by a two-star Navy admiral, who in fact--she was the 
Joint Contracting Command-Iraq commander when I was the 
commander in Iraq. Now she has one more star. She is going to 
head a task force that will go in and augment the contracting 
command that helps in Iraq, that oversees this effort in 
Afghanistan, and then gets at who are not only the 
subcontractors, but the subcontractors to the subcontractors, 
literally where is the money going and is it all above board? 
That's a hugely important component of dealing with corruption 
issues, dealing with warlordism and a variety of other 
challenges that cause issues for Afghanistan.
    Senator Brown. Because it's $6 billion and counting, with 
many more billions forthcoming.
    Then on the final note, Mr. Chairman, what type of 
cooperation are we getting from Pakistan regarding some of the 
terrorist activities, the Taliban and the like, that we're 
experiencing on the cross-border situations?
    General Petraeus. Pakistan has over the course of the last 
year, Senator, conducted impressive counterinsurgency 
operations against the Tariq-i-Taliban Pakistani (TTP), the 
Pakistani Taliban, and some of its affiliates in the former 
Northwest Frontier Province, in eastern South Waziristan, 
Baijur, and currently in Orixi.
    There is no question that this is an organization that 
primarily threatens them, although it is also linked to the 
would-be Time Square bomber. So there is an external component 
to this that has emerged.
    There clearly are other extremist elements that TTP has 
symbiotic relationships with, among them certainly al Qaeda, 
the Haqqani Network, the Afghan Taliban, and a number of others 
that have sanctuaries in various parts of the border region of 
Afghanistan. In some cases the Pakistani military has dealt 
with them as part of securing lines of communication for us and 
for themselves, in their fight against the extremists that are 
threatening their writ of governance. In some cases there is 
clearly more work that needs to be done.
    General McChrystal, Admiral Mullen, and I have met with 
General Qiyani. In a recent meeting, we have shared information 
with him about links of the leadership of the Haqqani Network, 
located in North Waziristan, that clearly commanded and 
controlled the operation against Bagram Air Base and the attack 
in Kabul, among others.
    Again, the challenge for the Pakistani military, because I 
think it is important again to note what they have done over 
the course of the last year because it is significant, the 
challenge is a situation in which they have a lot of short 
sticks and a lot of hornet's nests, and they have to figure out 
how to consolidate some of those to get through--they've done 
good clearance operations. They're in the hold, build, and they 
have to get further along in the hold and build phases, and 
then into the transition phases as well, so that they can deal 
with more and more.
    They do realize, I believe, Senator, that you cannot allow 
poisonous snakes to build a nest in your back yard with the 
understanding that those snakes will only bite the neighbor's 
kids, because sooner or later they turn around and bite your 
kids. I think that realization has grown during this whole 
period of their experience with the TTP and its affiliates, and 
as they recognize again what Secretary Gates terms the 
symbiotic relationships with the other extremist elements. 
They're all related.
    Senator Brown. Thank you for that very thorough answer, 
General. I appreciate it. I'm glad to see you well.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Brown, and thank you for 
raising the issue of the security contractors. The committee is 
in the middle of a year-long investigation into these 
activities with the private contractors, not only because of 
some of the problems that have been created by them, but also 
because of the corruption issue which you raised, and we're 
grateful for your bringing this to this committee's attention 
again, but also because they're a drain on the armed forces and 
the police. There's competition for those particular personnel 
and it creates a real issue as well.
    Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman.
    Secretary Flournoy, General Petraeus, it's always weak when 
we say we thank you for your service. I just don't know what 
else to say, but it's incredible that the two of you do what 
you do, and the country is blessed for your doing it.
    I've been one of the people that's supported 
counterinsurgency. I've spent a lot of time looking into 
everything about it and what we're doing here. But I just want 
to ask some questions because sometimes time passes and things 
change, people's perceptions of things change.
    But I think it was pretty clear after our last set of 
hearings, and I was on the Senate Foreign Relations Committee 
in addition to the SASC, what everybody agreed to was the deal 
back then. I don't think that's important, because what does 
cause problems overseas is if it looks like we're changing 
where we are. So I'd just like to ask a few questions just to 
get clear.
    In December we're going to evaluate where we are, isn't 
that right? So in December--and no one should be at the point 
of prejudging where we are. Now, in December we're going to sit 
down and figure out where we are. Then in June 2011, we're 
going to begin to draw down troops.
    The question on conditions on the ground is just how many 
troops we draw down, is that correct?
    General Petraeus. That is correct. Again, that's the point, 
actually July 2011, that's the point at which again the term 
``responsible drawdown of the surge forces'' begins, at a rate 
to be determined by the conditions.
    Senator Kaufman. Exactly. So it's not whether we're going 
to draw down. It's the rate that is determined by conditions on 
the ground?
    General Petraeus. That's the policy, that's correct.
    Senator Kaufman. There will be no more new introduction of 
troops?
    General Petraeus. That is not the intention right now.
    Senator Kaufman. Right, but I think Chairman Mullen, 
Secretary Gates, and Secretary Clinton said in the Senate 
Foreign Relations Committee that this would preclude any 
drawdown of troops. Secretary Gates said there may be the 3,000 
troops we may need for guards and things like that, but 
essentially this is not a situation where we're going to be 
increasing the troops in Afghanistan.
    General Petraeus. Senator, as a commander, as a military 
commander who owes the Commander in Chief and our troops in the 
field my best and I owe the President my best professional 
military advice, that's something that's a sacred obligation 
with our troopers, I would never rule out coming back and 
asking for something more. I think that would be irresponsible. 
The intention right now is, our consideration right now, our 
view is that with the additional forces ordered by the 
President with the flex that you mentioned that Secretary 
Gates, and General McChrystal has stated this in a letter to 
the ranking member of the HASC, that we will have the forces 
required to execute the strategy.
    Senator Kaufman. I guess I should have directed this to 
Secretary Flournoy, because it was the Secretary of Defense and 
the Secretary of State who said we would not introduce new 
troops. General, I respect the fact, and it goes without saying 
that you would ask for more troops if you think we need more 
troops to provide our military objective.
    But in terms of the official position of the President of 
the United States, Secretary of State, Secretary of Defense, 
and the Chairman of the Joint Chiefs, we've put all the troops 
we're going to be putting into Afghanistan; is that fair to 
say, Secretary Flournoy?
    Secretary Flournoy. I think at this point in time that is 
the policy. There is no expectation of introducing any 
additional troops. We are all talking about a period of time in 
the future, so I don't think anybody would want to tie the 
President's hands either way. But as a matter of policy, our 
expectation is that in July 2011 the end of the surge will 
occur and we will begin a responsible drawdown, the pace and 
scope of which will be determined by conditions on the ground.
    Senator Kaufman. General, to try to get at where we do have 
potential problems, the U.S. troops in Afghanistan are 
performing magnificently; is that a fair statement?
    General Petraeus. That is correct. In fact, I have said, 
Senator, that this is the new greatest generation of Americans, 
our young men and women who are performing these tough tasks 
under very difficult conditions against a very difficult enemy.
    Senator Kaufman. I think they're behavior, I think from top 
to bottom when I go over there, I am incredibly impressed with 
the fact that you have been able to inculcate in troops from 
the bottom to the top that we're in a counterinsurgency 
strategy and we move in a counterinsurgency. Just the fact that 
you were able to do it in such a short period of time and the 
performance of our troops is magnificent at all levels.
    So if it was up to our troops, I have no doubt about how 
this would turn out, none, zero. I think it's really incredible 
when you see our partnering--and it's true in Iraq, too. But 
the thing that makes it all work in terms of the partnering is 
they want to be on our team. The Afghan National Army (ANA) and 
ANP, when they see our troops and they spend time with our 
troops, they realize this is it, these are the big guys, these 
are the guys that know what they're doing, these are the guys I 
want to grow up and be like.
    So I don't see anything, anything, in the performance of 
our troops, that is anything except on mark, doing great, we're 
doing fine.
    General Petraeus. Senator, in fact I used to somewhat 
jokingly say, except the truth is it was serious, when I would 
talk to the transition team members in Iraq before they would 
join their Iraqi counterpart units, that our troopers should 
know that the Iraqis--and this is true for the Afghans and 
really for many other countries' forces as well--they see our 
troopers as the Michael Jordans----
    Senator Kaufman. Exactly.
    General Petraeus.--of military operations. I realized that 
that was really the case when I saw them look exactly like our 
troopers, even to the point of wearing their kneepads around 
their ankles rather than on their knees, as they're designed to 
do.
    Senator Kaufman. I think the key is seeing. You literally 
watch them and see them look at our troopers, and you could 
just see it in their eyes. It's like, ``that's what I want to 
be when I grow up.''
    So really the problem here, to the extent we have a 
problem, I think I would say, and we have to evaluate going 
forward, and I think most of the people on the committee have 
recognized from the beginning, is the fact that 
counterinsurgency is not just about our troopers.
    General Petraeus. At the end of the day, it has to be a 
comprehensive civil-military, really we term it ``whole of 
governments'' with an ``s'' on the end, endeavor.
    Senator Kaufman. Before I leave the troops, I went to 
Dahlgren and saw the non-lethal weapons down there. I 
understand you were there, too. When you go over there and see 
what the troopers are faced with if there's a bus coming up 
behind your convoy at a high rate of speed and doesn't stop and 
the only choice you have is to fire into the bus or take the 
chance that it's going to blow up the convoy, that's a tough 
decision for any trooper to make. Or at a forward operating 
base, when you have a car coming for you at a high rate of 
speed and you have two choices, you can fire into the car or 
let it crash into the barricade.
    So I am obsessed with nonlethal weapons in terms of ways to 
give our troopers a third choice at all times between deadly 
force and no action at all and putting themselves into danger. 
Can you talk a little about that?
    General Petraeus. I can, Senator. In fact, if I could, I'd 
offer even a fourth alternative, I guess. The third alternative 
is the various tools that are employed in escalation of force 
circumstances. As you note, some of these are nonlethal 
weapons. There are a variety of different signaling devices, 
disabling devices, and others.
    We have to be very careful with this. We have to realize 
that there are points, obviously, when that vehicle is really 
coming at you, you really have to shoot at it to stop it.
    But there is another option as well, and that same group is 
examining this also, as are other organizations. That is 
equipment to shape the conditions so that you're not in a 
position where you have to shoot at the vehicle at all, that if 
the vehicle keeps coming forward it runs into a cement block or 
something else, there's another alternative altogether.
    That's difficult, but we're working hard. That's a 
leadership, training, and doctrinal challenge as much as it is 
an equipment solution. But the equipment is wrapped into that. 
So we're looking at that as well as a way of just avoiding 
escalation of force situations altogether and not having to use 
either nonlethal or lethal force.
    But that's all caught up in this, and we've been working it 
really very hard, I think since the very early days of Iraq, 
which is where we first had to encounter the suicide bomber 
threat in particular, is where you're most concerned.
    Senator Kaufman. Thank you very much.
    General Petraeus. Thank you, sir.
    Senator Kaufman. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaufman.
    Senator Wicker.
    Senator Wicker. Thank you.
    Thank you, General, for being here and for your great work. 
I want to call to your attention an article which I'm sure you 
read in the June 12 New York Times. The headline is: ``Karzai 
is said to doubt West can defeat Taliban.'' This article talks 
about the firing of two of President Karzai's top aides, Mr. 
Saleh and Mr. Atmar. They were said to have quit because Mr. 
Karzai had made it clear he no longer considered them loyal.
    The article goes on to say that Mr. Karzai has lost faith 
in the Americans and NATO to prevail in Afghanistan. One of the 
fired individuals, Mr. Saleh, has spoken at length, saying that 
President Karzai has been pressing to strike his own deal with 
the Taliban and the country's arch-rival Pakistan, the 
Taliban's long-time supporter. ``According to a former senior 
Afghan official, Mr. Karzai's maneuverings involve secret 
negotiations with the Taliban outside the purview of American 
and NATO officials.''
    What do you say to that? I know Senator McCain was pressing 
on this yesterday. Is this happening at all, in your judgment, 
and if it is, is it happening because the Americans are giving 
an uncertain sound about being a long-term strategic partner 
with Mr. Karzai and his government?
    General Petraeus. With respect to the very last point of 
that, Senator, having talked with President Karzai about the 
meaning of July 2011, just as I started out today's session by 
explaining as precisely as I could what that means, that it's a 
message of urgency that went along with the huge additional 
message of commitment. Senator Lieberman reminded us of the 
words ``vital national interest'' used by the President with 
respect to Afghanistan, and again July 2011, the point at which 
a process begins that is based on conditions, to begin the 
responsible drawdown of the surge forces at a rate to be 
determined by those conditions at that time, based on advice, 
and so forth. It is also a process to begin transitioning some 
tasks to Afghan forces and officials.
    But I am not sure that I share the characterization of the 
headline, at least, about President Karzai's feelings. I base 
that on conversations with President Karzai, a number of them 
in the past month and a half or so, in Kabul, from Kandahar and 
Washington.
    Senator Wicker. How often do you speak to him?
    General Petraeus. It's probably at least every couple 
weeks. Again, it depends on the travel schedule. There was a 
period where we saw him several times in a period of just about 
2 weeks, and then it may go a couple weeks otherwise. What we 
also do, of course, is at the very least weekly 
videoteleconferences with the Secretary of Defense, the Under 
Secretary, Chairman Mullen, and I with General McChrystal, and 
then lots of other conversations with him and exchanges.
    He certainly does not share that sense. He just accompanied 
President Karzai, for example, all day on Sunday when President 
Karzai flew to and from Kandahar and held the shura council 
down there. As I mentioned earlier to the committee, I think it 
would be important that the committee see the talking points 
that he used for that. Because this is a very clear statement 
by a president who is the commander in chief of his country, 
committing to taking the actions that are necessary and is 
rallying the people behind him. Then at the end of this, tells 
the ISAF Commander, also U.S. Forces Commander: ``You now have 
my full support for the conduct of these operations and the 
support of the people in this area.''
    Now, with respect to meetings and so forth, President 
Karzai of course just hosted the National Consultative Jirga, 
Peace Jirga, which indeed addressed reconciliation and 
reintegration. I believe that we are aware of the meetings that 
he has and that his representatives have. He typically either 
includes our elements or at the very least will back-brief us.
    I would not characterize these as something that will 
culminate in reconciliation coming soon to a theater near us, 
reconciliation again being high-level Taliban leaders coming in 
to accept the conditions that President Karzai has established, 
accepting the constitution, laying down weapons, participating 
in the process, and so forth.
    On the other hand, there very clearly is scope for 
reintegration, and that is the term used for the reintegration 
into society of reconcilable members of the Taliban. Now we're 
talking low and mid-level Taliban. There are a number of cases 
in which that is ongoing. I was just reading in the morning 
book this morning the case in Shindand out in the western part 
of the country. There's 80 or so Taliban that have come in with 
their hands up, put their weapons down, want to be 
reintegrated.
    It's very important now, in fact, that the interim guidance 
that President Karzai has provided then is promulgated as 
formal guidance and does move forward to provide what our 
troopers need in terms of legal structures, if you will, and 
what the Afghan Government elements need to work together to 
take advantage of those kinds of opportunities.
    Senator Wicker. How likely is it, General, that secret 
negotiations could have been held with the Taliban outside the 
purview of American and NATO officials?
    General Petraeus. I think it's very unlikely, in part 
because we are told about what goes on, and we also have good 
insights, as they say in the Intelligence Community, into 
what's going on on top of that. The insights tend to correlate 
with what we are told.
    Senator Wicker. Let me touch on one other thing in my 
remaining time. That's interpreters. Of course, we need 
interpreters. But I'm told that in securing the services of 
talented linguists, they're being paid by the coalition 
anywhere from $50,000 to $200,000 a year, which is considered 
by some a distortion of the Afghan economy.
    Are you concerned that we're taking some of the best human 
capital that could be used in the Afghan Government, in Afghan 
civil society, in Afghan business, and taking them away so that 
they can be interpreters for the coalition?
    General Petraeus. The short answer is yes, Senator. In 
fact, Ambassador Holbrooke and I discussed this with President 
Karzai after we completed the 2-day civil-military review of 
concept drill in Kabul about 2 months or so ago, and then went 
to back-brief President Karzai.
    Very clearly there is an issue--by the way, I don't think 
the salaries you quoted are correct for Afghans. I think those 
may be for U.S. citizens or Afghan-Americans or something. But 
again, we might want to verify for you.
    [The information referred to follows:]

    The average salary for Afghan interpreters if $600/month. Only AFG 
local nationals are employed under the interpreter contracts issued by 
Central Command (CENTCOM) Contracting Command in AFG. This information 
is only for interpreter contracts issued by CENTCOM Contracting 
Command. There are other organizations with interpreter contracts in 
AFG.

    General Petraeus. But the fact is your point, which is more 
important, the substance of your point is exactly correct. What 
happens in some cases is the Afghan Government, other 
countries, contributing nations, help build Afghan human 
capital by investing in them with education, to go back and 
work in Afghan ministries and so forth, and then in some cases 
the NGOs hire them away and we hire them away.
    So we're competing with our own efforts, and we have to 
figure out how to come to grips with this. This is another of 
the tasks that this contracting task force is going to take a 
hard look at. In fact, the Afghan Government really needs 
either laws or regulations on this. When the U.S. Government 
sent me to graduate school, for example, I believe I had to 
give back 3 years for each year that I was in graduate school. 
They need something like that. President Karzai is actually 
keenly aware of it, as are we.
    Senator Wicker. Plan to be announced later?
    General Petraeus. Correct.
    Senator Wicker. Thank you, sir.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Let me add my welcome to Secretary Flournoy and General 
Petraeus. I want to thank each of you for your leadership and 
also for your distinguished service. I also thank the men and 
women that you lead, both of you lead. Their service and 
commitment to our country are honored and really appreciated.
    General Petraeus, you recently told members of the HASC 
that training of Afghan National Security Forces (ANSF) is 
being overhauled. I understand that training procedures for ANP 
and ANSF were being overhauled to avoid some of the mistakes 
made in Iraq. General, can you give us an update on training 
efforts in Afghanistan and any lessons learned since 
implementing those changes?
    General Petraeus. With respect, Senator, training's being 
overhauled to avoid mistakes being made in Afghanistan or 
shortcomings in Afghanistan. That's not to say that there 
weren't plenty of shortcomings in our effort in Iraq. In fact, 
we tried to share those with our Afghan counterparts at various 
times during my different tours in Iraq.
    After the conclusion of one of those tours, after standing 
up the train-and-equip mission in Iraq, Secretary Rumsfeld 
asked me to go to Afghanistan on the way home from Iraq. We 
did. We spent time over there, and indeed shared what we had 
learned, but also, frankly, identified a number of areas in 
which improvements could be made there at that time. Some of 
those were made. Some still, frankly, are being addressed now 
that General Caldwell is in command.
    He's been in command about 6 months now. Literally, the 
establishment of the NTM-A itself, which is an input, not an 
output, but that is a hugely significant development for all of 
this.
    But there are a number of initiatives that have been 
already started now. Just to give you one example, instead of a 
3-year ANP officers training program, they now have an officer 
candidate school to complement this, because there's a war 
going on out there and we need officers in the interim as well. 
It's a 6-month program which we think will be good and will 
provide leadership on a more immediate basis, to enable the 
kind of progress that we know we need urgently and not just 
have this very long process.
    There used to be a procedure with the police in a number of 
different areas where they were recruited, assigned, and then 
trained when they got to it. Now the process is very much to 
recruit, train, and then assign. Just the recruiting itself, 
there is the creation of a recruiting component, and that has 
significantly improved, for the ANA as well, recruiting. Then 
there have been measures taken to improve retention, to reduce 
attrition, as well various incentive packages, policies, and so 
forth. Those, on the basis of 3 months at least, we don't want 
to declare that a true trend just yet, but those have enabled 
the building of the additional ANA and ANP elements to be on 
track for now, after a period in which they were not on track.
    So that's just a few of the areas. There are enormous 
changes made in the institutional training business. It used to 
be there was one trainer for every 80 trainees, obviously 
inadequate. Now it's closer to 1 to 29 or 30. I could give you 
again chapter and verse across the board on this.
    For those who are traveling there, I know that the chairman 
and the ranking member both are going to Afghanistan in the 
weeks ahead, General Caldwell looks forward to briefing your 
groups as you come over and describing to you in some detail 
the various programs that have been implemented and others that 
are under development.
    Senator Akaka. Secretary Flournoy, the ISAF and ANSF are 
acting in partnership during operations in Helmand Province. It 
is the first large-scale effort to fundamentally change how we 
are operating together. Madam Secretary, can you give us 
specific examples of how coalition and ANSF have partnered 
together during the Helmand Province operations?
    Secretary Flournoy. I think the Marjah operation really was 
the beginning of a very different way of doing business 
together. I would say it was not only about the partnership 
between ISAF and ANSF, but between ISAF and the broader 
coalition, whole-of-government capabilities, and the Afghan 
Government as a whole.
    So beginning from the planning stages, you had a combined 
Afghan-ISAF team that was planning not only for the military 
dimensions of the campaign, but also for elements of different 
Afghan ministries to come in and immediately establish a 
government presence in Marjah and the surrounding areas. So 
that has really created a different way of doing business 
together that has now carried into other areas. As the planning 
and preparation and the early stages of shaping in Kandahar 
unfold, that same kind of in-depth and multifaceted partnership 
is happening again.
    I would just say that it's not only partnership. It's 
really putting Afghans in the lead in helping to design the 
operation, in helping to determine the timing of the operation 
and setting the conditions for ultimate success in the 
operation. So that is a very different way of doing business 
than we've done in the past, and I think it's an approach that 
General McChrystal has pioneered with his Afghan partners, and 
I think it bodes well for the future.
    Senator Akaka. Thank you.
    Thank you very much.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Petraeus, let me begin by echoing the comments of 
my colleagues that we're very relieved to see you looking so 
well today. I was quite confident that it wasn't the probing 
questions of this committee which caused your problem 
yesterday, and today you've shown for certain that that is the 
case.
    Ultimately, our success in Afghanistan depends on the 
ability of the ANSF to take over the fight and to provide 
security for the country. You've just had an exchange with my 
colleague, Senator Akaka, about the training and you indicated 
that we've gone from having trainers in a ratio of 1 to 80 to 1 
to 29 or 30. But the 12-31 report indicates that NATO overall 
has a requirement for more than 2,300 trainers and that there 
is a shortfall of almost a third, of 32 percent.
    Similarly, General Casey recently noted that the lack of 
trained Afghans was a major concern among U.S. troops in 
Afghanistan. There are also stories where our troops have 
expressed doubts about the willingness of the Afghans to fully 
engage in the fight as long as we're there doing the work.
    What are we doing to fix the shortage of trainers 
internationally and what is the status of the requirement 
versus the actual numbers now? Madam Secretary, if that's a 
more appropriate question for you, you can also answer.
    General Petraeus. Actually, we can both do that, I think, 
Senator.
    Secretary Flournoy. Right.
    General Petraeus. First, Senator, because I just wanted to 
add that the Deputy Supreme Allied Commander in Europe 
literally just sent out a message that I got word on this 
morning, asking for additional trainers.
    The latest numbers that we have, these do fluctuate as 
trainers come and trainers go, pledges are made and filled, and 
indeed trainer requirements grow, because as the forces grow as 
we try to increase capacity for training, needless to say, the 
demand for trainers increases. But the latest that we have is a 
450 shortage.
    We are trying to bridge the gap in certain areas. Soldiers 
and marines are doing some of that. As I mentioned, the Deputy 
Commander for the NATO operational element has just asked for 
more of them.
    Then if I could also add before handing off, as I mentioned 
up front, Senator, the Afghan forces are very much in the 
fight. They are in the lead, indeed, in some areas, limited 
areas, but Kabul is one of them, and other areas and other 
mission sets. There are some functional missions, convoy escort 
and some other tasks, for which they're in the lead.
    But they are very much in the fight throughout the country. 
There is no better or perhaps more tragic metric that shows 
that than the fact that their losses are typically several 
multiples of our U.S. losses on average.
    Secretary Flournoy. Senator, we do have an institutional 
trainer shortfall of about 450. We continue to press our NATO 
allies to step up and fill those gaps. That said, the Secretary 
has made clear that he intends to deploy additional U.S. 
personnel to bridge the gap as necessary, because this is such 
a critical mission. It is a long pole in the tent of what we're 
trying to do in Afghanistan.
    In addition, there are some continued shortfalls, although 
we've made a lot of progress here, in what we call Operational 
Mentor and Liaison Teams (OMLT) and Police Operational Mentor 
and Liaison Teams (POMLT), the mentoring teams that are 
embedded with ANA and ANP units. We started out with a 
requirement of about 180 OMLTs. We're now at a shortfall of 14 
of those teams. We started out with a requirement of 475 
POMLTs. We're now at about 140 shortfall.
    In that case, we are taking two kinds of mitigation 
measures. One is with this much more intensive partnering 
between ISAF and ANSF units in some cases that partnering can 
make up for the fact that you don't have an OMLT or a POMLT 
with a given unit. In other cases, we've taken a train-the-
trainer approach and there are ANP training teams that are now 
prepared to embed to train ANP units.
    So there are a number of mitigation measures in place. We 
are leaning forward on this very hard because it is such an 
important part of the mission.
    Senator Collins. Thank you.
    Counterinsurgency strategy, as we've all learned over the 
past few years, depends on a unity of effort by both the 
military and the civilian side. In an after-action report in 
December of last year, retired General Barry McCaffrey 
predicted that: ``The international civilian agency surge will 
essentially not happen. Although the DOS officers, USAID, 
Central Intelligence Agency, and other American agencies will 
make vital contributions, Afghanistan over the next 2 or 3 
years will simply be too dangerous for most civilian 
agencies.''
    Madam Secretary, what is the status of the international 
civilian surge? It's so essential that we not just rely on the 
military side and that's why General McCaffrey's prediction is 
alarming to me.
    Secretary Flournoy. I think I would agree with your premise 
that the civilian surge is absolutely critical as part of this 
broader campaign. On the U.S. side, we have more than tripled 
our civilian personnel and that is likely to increase further 
as the campaign unfolds. We have developed very cooperative 
concepts of operations so our civilians are partnered with and 
protected by military forces as well as their own DOS security 
forces.
    Internationally, as we've gone out to allies we have 
pressed them not only to increase their troop contributions, 
but also their civilian contributions, and many have stepped 
up, whether it's growing the civilian contributions to their 
Provincial Reconstruction Teams (PRT), which historically 
they've been more military, or in cases like countries like 
Malaysia where they're actually sending a whole new contingent 
of civilian medical personnel and so forth.
    So that is part of the effort. I think one of the 
challenges here on our side is that we have never resourced our 
own--or at least not recently, not since the Vietnam era, 
civilian agencies, DOS and USAID, to actually rapidly deploy 
civilian expeditionary people and capabilities with any 
frequency or with any sustainability.
    If we want to be able to do that as a nation, that's 
something we need to look at in the future, because we've put 
DOS and USAID in the position of having to throw together an ad 
hoc solution to a problem. They've done exceedingly well, but 
we haven't fully resourced them in the way they need to be 
resourced for this mission.
    Senator Collins. General?
    General Petraeus. Senator, if I could just add to what the 
Under Secretary said as well, and that is when I've talked 
about the inputs piece, that we're trying to get the right 
organizations led by the right people with the right concepts 
and the levels of resources necessary to implement those 
concepts, among the right people since in fact General 
McChrystal and Ambassador Eikenberry going in have been the 
addition of a NATO senior civilian representative, a very 
talented United Kingdom (U.K.) Ambassador Mark Sedwill. The 
Special Representative of the Secretary General (SRSG) is now 
Stefan de Mastura, whom we will remember from Iraq when he was 
the United Nations (U.N.) SRSG there. Then most recently 
there's an European Union (EU) representative there as well. In 
fact, when I was in the U.K. this past week I talked to the EU 
foreign secretary, if you will, and she described her strong 
commitment to the mission there as well. All of them were 
involved in our civil-military review or concept drill that 
Ambassador Holbrooke and I hosted in Kabul now about 2 months 
or so ago.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. I'm going to take a minute to clarify some 
of the numbers which Senator Collins elicited, because there 
has been some confusion about it and it's a very critical 
number when it comes to the trainers, the OMLTs, the POMLTs. 
This is a critical mission to get them ready to take 
responsibility for their own security, and I'm going to take a 
minute to go through those numbers with you.
    You said there's a shortfall of 450 what you call 
institutional, I think, trainers essentially. These are what I 
call the basic training. But that's 450 shortfall. There's 
also, I believe not included in that number, a pledged number 
which has not yet been forthcoming. Is that correct? What is 
that number?
    Secretary Flournoy. I have there are 574 pledged, 235 
pending, meaning they're still getting confirmation in 
capitals.
    Chairman Levin. Is that on top of the 450?
    Secretary Flournoy. Yes, that would be in addition to.
    Chairman Levin. That's a lot of additional. Go on.
    Secretary Flournoy. But I think generally we can count on 
those.
    Chairman Levin. Maybe you can count on them, but they're 
not there yet.
    574 plus 234 plus 450, is that correct?
    Secretary Flournoy. Correct.
    Chairman Levin. Now, on OMLTs and POMLTs, about how many in 
each of those units? First on the OMLTs, if we're 14 short--how 
many are there? 5, 10, 20?
    Secretary Flournoy. OMLTs are between 11 and 28 personnel 
per OMLT. It depends on the----
    Chairman Levin. That's fine.
    Secretary Flournoy. They're tailored to the conditions.
    POMLTs, it's between 15 and 20 persons.
    Chairman Levin. We can do the multiplication, and that, I 
think, is going to get us up to about 2,000 to 2,500 personnel 
that are short. That's the number that was given to us.
    Does that look right, General?
    General Petraeus. It does, Senator. In fact, that is down 
considerably since we devoted substantial numbers of marines 
and soldiers to these tasks, diverted literally a battalion for 
this, and then also have used a brigade combat team from the 
82nd Airborne, for example, to help with the partnering effort, 
i.e., the OMLTs and POMLTs, in the RC-South area.
    Chairman Levin. Right, and I think very appropriately done, 
and it's a critical mission, so we're very supportive of it. 
Thank you.
    Thank you, Senator Collins, very much.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Thanks again to Secretary Flournoy and General Petraeus for 
being here again today with us. I wanted to talk for a couple 
of minutes about President Karzai's reconciliation and 
reintegration program. I know it's important that 
reconciliation and reintegration efforts operate within the 
context of a broader counterinsurgency strategy. It's not 
possible for the Afghan Government to reconcile with senior 
level Taliban or reintegrate low level Taliban fighters as long 
as the Taliban remains militarily strong and convinced that 
they are winning the war.
    I believe that we need to avoid a situation where warlords 
and power brokers retain their militias. It's certainly too 
high a price to pay for reconciliation.
    Financial incentives alone are not sufficient to reconcile 
with low-level Taliban fighters because they will be subject to 
brutal retaliation against themselves and their families, and 
if the government of Afghanistan cannot protect them from 
retribution it would be suicidal for them to shift sides. 
However, improved security conditions throughout Afghanistan, 
coupled with financial incentives and job opportunities, can 
lead to effective reconciliation.
    I know that U.S. officials have expressed support for the 
inclusion of the Taliban in a future Afghan Government so long 
as any former militants joining the government break with al 
Qaeda and Taliban, lay down their arms, and accept the Afghan 
constitution.
    My question is, outside of the jirga on June 4, has 
President Karzai started translating his reconciliation and 
reintegration initiatives into programs and policies?
    General Petraeus. First of all, Senator, if I could just 
say, that's a very accurate and quite a nuanced description of 
the situation and of the basic concepts behind all of this. 
It's exactly right.
    With respect to reintegration, there is interim guidance 
that our forces and Afghan officials are using. But as I 
mentioned earlier, it's important that President Karzai now 
promulgate this formally, and that we believe will happen quite 
soon, according to General McChrystal in the 
videoteleconference yesterday morning.
    With respect to reconciliation, an outcome of the National 
Consultative Peace Jirga is indeed direction to develop further 
reconciliation programs, while noting that there are criteria 
that do exist. It's very clear, and you just stated those as 
well, what has to take place for groups, former insurgent 
factions, indeed to be eligible for reconciliation.
    But again, the promulgating instructions to provide the 
real governmental guidance and policies for that are still 
under development, noting that again that is quite high level 
and, even though there may be talks going on periodically among 
emissaries or what have you, I think, as you pointed out, that 
it is unlikely to see true reconciliation while the Taliban 
still feels that it is in the ascendant or at least can wait us 
out.
    Senator Hagan. Secretary Flournoy.
    Secretary Flournoy. If I could just add, Senator, on 
reintegration for low- and mid-level fighters, based on 
President Karzai's interim guidance, we have, thanks to this 
committee for making this possible, used the authority that you 
helped to give us to use up to $100 million of CERP in support 
of reintegration efforts. We've actually released those funds 
now, so those are now available for commanders working with 
their Afghan partners at the district and local level to start 
taking advantage of some of these reintegration opportunities.
    On the reconciliation side, coming out of the jirga one of 
the conclusions was to establish what's called a high peace 
council or commission, which will be the Afghan mechanism that 
will really begin to try to start thinking through 
reconciliation in a programmatic sort of level.
    We have also made very clear how we're going to organize 
ourselves on the U.S. side so that we are joined at the hip. We 
want to make sure that this is obviously an Afghan-led process, 
but it is very important that we stay partnered with them as 
they consider how to move forward on this and that this is 
fully integrated with the broader counterinsurgency campaign.
    Senator Hagan. Has the low-level reintegration actually 
started and is it successful?
    General Petraeus. It has started. It would be premature, I 
think, to describe it as successful yet. But it is certainly a 
work in progress in several different locations of Afghanistan. 
There are as many as in one case 80 fighters/insurgents/
militants that I read about this morning in an intelligence 
book, for example, in the RC-West area that came in literally 
with their hands up, laid their weapons down, wanted to be 
reintegrated.
    Their incentives are very much in line with what you laid 
out. In that particular area, a combination of Afghan 
Government security forces and coalition forces, I think non-
U.S., although I'd have to check that, brought about security 
conditions, just put enough pressure on the Taliban that they 
decided, this is not what we want to continue doing for the 
rest of our lives, and if there is an alternative that allows 
us back into society, then the security arrangement does have 
some incentives as well, then that's a course that they're 
willing to take.
    That's basically where they are right now. But the follow-
on piece of that, which is very important, as you'll recall, in 
Iraq ultimately we ended up hiring on our payroll, using CERP 
or fixed site security contracts, 103,000 Iraqis, largely Iraqi 
men. By the way, about 20,000 or more were Shia, just so the 
record understands there was a Shia awakening as well as a 
Sunni awakening.
    We do not envision doing the same thing here, in part 
because there's not the prospect, even despite the great 
mineral wealth that's found--that is not going to be exploited 
in substantial form, we wouldn't think, for some years. So that 
we don't want to saddle Afghanistan with a very costly program. 
Rather, we want to enable much more local programs, with the 
amount of CERP that the Under Secretary talked about being part 
of that.
    Senator Hagan. You mentioned the new-found wealth of the 
minerals. I know that on June 14 the New York Times reported 
this discovery of nearly a trillion dollars in untapped mineral 
deposits. Does this new mineral wealth have the ability to 
fundamentally alter the Afghan economy, but does it also have 
the ability to amplify the existing problems of government 
corruption, as well as provide greater incentive for the 
Taliban to actually fight for control of the government?
    I was just wondering, does Afghanistan's new-found wealth 
in any way alter the coalition's counterinsurgency approach, 
governance support plan, development plan? I know this would be 
years in the making, but on the ground now how does this play 
into our strategy?
    General Petraeus. First, to answer your first question, I 
think an all of the above potential is present. Potentially, it 
could be an incredible boon to Afghanistan. It could enable 
them to pay for their own governmental officials, forces, 
programs, and so forth, in a way that I think prior to this 
there was not that same expectation, but again being very 
careful about how difficult this will be.
    Beyond that, we have been engaged--again, this was not a 
revelation to a lot of us who have been working this. Again, 
there was a keen awareness of the different copper deposits. 
China is already in trying to extract that and to build the 
infrastructure necessary and to get it out and so forth.
    But there is an awareness of these different opportunities 
that are out there. Some of them are being exploited in small 
ways by either local strongmen--I don't know if I'd quite go to 
warlords, but different power brokers and so forth, or 
officials. It's very important that there be a legal regime 
that governs this as well. This is something that we're quite 
keenly aware and the civilian elements have been working. I'll 
just give you one example, the timber. There's enormous timber 
resources in eastern Afghanistan in particular. There is a law. 
They haven't been able to implement it, and that's the effort 
that has to go forward if it's to become something that serves 
the state, rather than just some interests within it.
    Secretary Flournoy. I would just add, when we became aware 
when the survey results came in last year, I think what it has 
done, even though it's a very long-term project, it has helped 
to inform some prioritization, for example putting more 
priority on capacity-building in the ministry of mines, the 
ministry of finance, putting more emphasis on looking at this 
particular area of law and regulation so that we try to--if 
you're going to start with a sector, let's start with this 
sector.
    We're trying now to work with USAID and others to make sure 
that the knowledge of some of these deposits and so forth 
actually informs some of our near-term projects in communities 
where these are located, so you start creating the foundations 
that will eventually position those communities to take full 
advantage of the wealth that's literally right underneath them.
    So I think it has informed some reprioritization of our 
efforts on the development side.
    I see my time is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Madam Secretary, General, thank you for your outstanding 
service to our country. General, I also want to welcome you 
back today. I know we're very pleased to have you back. I'm not 
sure I would have been anxious if I were you to come back in 
front of this committee. But nevertheless, thank you for your 
great service.
    General, about a year ago, General McChrystal restricted 
close air support (CAS) operations in Afghanistan in an effort 
to reduce civilian casualties and damage. I fully understand 
the efforts by you and General McChrystal to employ 
counterinsurgency tactics and strategy in this war, and that 
General McChrystal's CAS directive is an effort to restrain the 
use of firepower, which is crucial to fighting an insurgency.
    However, it seems to me that the directive can also elevate 
the risk to troops who are under fire and require the kind of 
assistance that CAS can provide. After a year or so of this 
directive being in place, what is your evaluation of the 
results of this directive and what kind of effect do you think 
that it's had on the war?
    General Petraeus. First, Senator, in fact General McKiernan 
was the first one to promulgate the so-called tactical 
directive, and he did that with the intent of reducing to an 
absolute minimum the loss of innocent civilian life in the 
conduct of military operations. He did it in the wake of some 
instances in which substantial numbers of civilians were killed 
in the course of military operations and almost undermined the 
entire strategic effort there in Afghanistan. It had a very 
serious impact.
    General McChrystal did refine the tactical directive, and 
issued counterinsurgency guidance as well. Again, same intent. 
Let me state up front, though, that we will drop a bomb or use 
attack helicopters or any other enabler at any time, at any 
place, if our troopers' lives are in jeopardy, if their safety 
and wellbeing is in jeopardy. If they're pinned down and can't 
get out, we will do what is necessary.
    But there are a number of cases in which that is not 
necessarily, where you're being engaged from a house--just to 
give you one example, and there are many of these--you're being 
engaged from a house, let's say. It may not be completely 
effective fire. You can break contact. Our predisposition is to 
close with and destroy the enemy. That's the motto of the 
infantry, to press the fight, to take the fight to the enemy.
    But there are cases in which you have to balance that with 
the recognition that if you don't know who's in that house and 
taking the fight to the enemy ultimately means blowing up the 
house, which is sometimes what has to result if you're going to 
take out those bad guys that are shooting at you, but in the 
course of doing that you kill a substantial number of 
civilians, that tactical success then becomes a strategic 
setback of considerable proportions.
    Now, as we have evaluated this and looked at it, and we 
have done after-action reviews throughout the course of the 
year, there are clearly cases in which we need to continue to 
educate our leaders. Again, we want on the one hand to be 
absolutely responsive when that is necessary. As I said, we 
will never restrict the use of our firepower or our enablers if 
our troopers are in jeopardy on the ground. But also, you need 
a sufficient very rapid review process so that folks really do 
look at this and examine and make sure that, again, we are not 
going to create a strategic setback in the quest for a tactical 
victory or advantage.
    That's how we have come at that. We have worked very hard 
to educate our troopers, to train our troopers in the 
predeployment process during the road to war, if you will, the 
road to deployment. We've incorporated this in our combat 
training center mission rehearsal exercises, in doctrine, in 
various tactics, techniques, and procedures. We'll continue to 
do that.
    We get feedback periodically that troopers feel that they 
are being held back. We don't want that to be the case. That is 
not the intent. The intent is very clearly just to reduce to an 
absolute minimum the loss of innocent civilian life, which in a 
counterinsurgency operation in particular can unhinge you.
    Senator Thune. Yes?
    Chairman Levin. Let me interrupt you, if I could.
    A vote has just begun in the Senate. I would suggest the 
following: that after Senator Thune's questions that we take a 
10-minute recess; that the rest of us that want to and are able 
to come back, go vote, come back immediately, so that after 
that 10-minute recess we will have some people here to question 
you, so there won't be too long a gap. We'd want there to be 
about a 10-minute recess.
    Thank you very much.
    Senator Thune. Thank you, Mr. Chairman.
    General, is there any indication, though, that the Taliban 
are engaging in direct or indirect fire attacks more often and 
with greater effect, now that they know that there is 
potentially a diminished threat from the air? Do you see any 
evidence to that effect?
    General Petraeus. First of all, insurgents historically 
have always tried to use our rules of engagement against us. We 
know that. They did that in Iraq periodically. We had people in 
Iraq literally pushing through crowds shooting at us. This 
happened in a number of other cases in recent decades as well 
in these kinds of situations.
    But we are about living our values, and every time we have 
taken expedient measures not only has it been wrong, we have 
also paid a price for it in terms of it biting us in the back 
side in the long run. So that's again--we have to be aware that 
they will use our reluctance to kill innocent civilians or to 
risk the lives of innocent civilians in the course of these 
operations.
    Having said that, frankly, they generally are not engaging 
us directly as much as they are coming at us indirectly. They 
realized some years ago, certainly last year, that if they 
engage our troopers in a direct fire fight that they will lose. 
So they are using improvised explosive devices in much larger 
numbers than they have in the past, and that's where we see the 
increase in the incidents of violence.
    Senator Thune. It's my understanding that B-1 bomber 
aircraft are being used quite frequently in intelligence, 
surveillance, and reconnaissance (ISR) roles, rather than in an 
on-call fire support role. I don't know if you know the answer 
to this or not, but could you provide us with an idea of how 
frequently that Afghan and Navy crews are being utilized by 
ground troops in Afghanistan in ISR roles?
    General Petraeus. We  do  that  all  the  time,  Senator. 
Again,  a  B-1 bomber--we have combat air patrols (CAP), so we 
always have CAPs over Afghanistan. While they're waiting to be 
called on for a bombing mission, because again that's the only 
way we can have responsive bombing. In fact, we want it to be 
available within 10 minutes, is the metric. I review these 
metrics periodically for responsiveness of CAS and also, by the 
way, for responsiveness of medevac, which is the golden hour. 
Generally, the average on medevac responsiveness has been to 
get from point of injury to the first treatment facility, 
lately it's in the range of 45 to 50 minutes, which is where we 
want to keep it.
    But as they are waiting for missions, we'll use the 
lightning pod or the other capabilities that B-1s, F-16s, F/A-
18s, whatever aircraft we have. They're very, very good in this 
role. We've all seen the downloads. We've all used this, 
frankly, and they are superb in this role.
    Now, we'd rather use unmanned aerial vehicles (UAV) or 
something like that, which are both more persistent, cheaper, 
greater dwell time, and so forth. But we have these platforms 
overhead anyway and so we do put them to use while we're 
waiting to use them in a CAS role, if they are indeed used in 
that role on their mission.
    Senator Thune. How many manned aircraft are there typically 
in the air above Afghanistan at any moment in time, any point 
in time?
    General Petraeus. Let me provide that to you for the 
record. In fact, we can show you the unmanned as well. But it's 
certainly in the dozens at the very least when you start 
talking about tankers, command and control aircraft, jammers in 
some cases, in addition to those that are providing on-call CAS 
in a variety of different locations around the country, you 
have to be in the south, in the east, in the center or what 
have you and then dozens of UAVs as well.
    [The information referred to follows:]

    On average, there are approximately 86 aircraft up at any given 
time in Afghanistan. For example, a recent snapshot of actual aircraft 
airborne in Afghanistan at 0930Z (1400 Afghanistan) on Saturday, 19 
June 2010, showed 20 Close Air Support fighters and bombers, 1 
electronic warfare aircraft, 4 C2 platforms, 3 reconnaissance aircraft, 
25 unmanned aircraft, 7 tankers, 1 airdrop, and approximately 25 
helicopters (rotary wing do not appear on the ATO). This is indicative 
of an average day's sorties.

    Senator Thune. As the number of CAPs increase, my 
assumption is that the manned missions over there will be 
reduced. Is that a fair statement?
    General Petraeus. No, I'm not sure I would--let me lay that 
out for you. In fact, we have put more CAPs, tried to put more 
CAPs, over Afghanistan as we have spread out our forces. Again, 
they're somewhat different missions, needless to say, as well. 
Obviously, some of our UAVs are armed, the Predator and the 
Reaper, but not the rest.
    So a substantial number of those are doing only full-motion 
video or various intelligence tasks, not responsive with 
weapons. Of course, the weapons on those that are armed are not 
as large as those that are carried by, say, a B-1 or some of 
the other bombers.
    Senator Thune. We do have a vote. My colleague from Florida 
may want to say something here. But just a final editorial 
comment if I will, because you have answered this question, I 
think, many times in response to the questions that have been 
posed by other members of the committee. But I share a concern, 
too, with respect to the date next summer for withdrawal. There 
was a report last week of a wedding party in Argendab District, 
which we visited in January, that the Taliban killed at least 
39 people. There are reports that the Taliban executed a 7-
year-old child in Helmand Province for cooperating with the 
Afghan Government. Notwithstanding the Taliban's so-called code 
of conduct, there's still a lot of evidence of brutality.
    The question I guess would be a lot of these folks in these 
areas, critical areas to us, who are cooperating with and 
helping the government, what happens when we leave? Then there 
was this report yesterday in the Washington Post, which is 
being disputed and denied by the Pakistan Government, but I 
want to read you just one paragraph in this news story: ``U.S. 
officials say''--and these were releases of Taliban leaders 
from Pakistan--``that the releases reflected Pakistan's 
strategy of working closely with the United States on key 
fronts while also maintaining relationships with militant 
groups capable of serving Pakistan's interests in Afghanistan 
when U.S. forces are gone.''
    I'm concerned that the notion that we're going to be 
pulling down here in the not too distant future does shape the 
relationships, not only between the people of Afghanistan and 
the Taliban and the people of Afghanistan and our U.S. forces 
and efforts there, but also the neighbors in the region. So for 
what that's worth, I would just add that and echo a concern 
that's been raised by other members of the committee 
previously.
    Thank you, sir. I guess with that we're on break. So thank 
you all.
    [Recess from 10:53 a.m. to 11:06 a.m.]
    Chairman Levin. I believe that Senator--let me check. I 
think Senator Ben Nelson is next. That is correct. Senator 
Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation to the two of you and all the 
men and women in uniform that are so valiantly protecting our 
freedoms. We appreciate your leadership in that effort.
    General Petraeus, one of the things that I thought was so 
important and I'm pleased that we're seeing that happen now is 
the establishment of benchmarks to be able to judge progress. 
We achieved that same goal with Iraq and I'm very happy that 
we're approaching this same way with benchmarks in Afghanistan.
    Two of your major objectives that were submitted in the 
benchmark progress reports to the committee in April were to: 
one, develop a self-reliant Afghan security force; and two, a 
more capable, accountable government in Afghanistan. I 
certainly agree with these and that they're critical to our 
success.
    If you were to use a metric at the present time to measure 
our current progress, would you think, with respect to the 
self-reliant Afghan security force, that we're 10 percent, 20 
percent? Is there some calculation in your mind as to where we 
are, what we've achieved, and yet what remains as the goal? The 
same thing when it comes to a reliable government? This could 
apply to Secretary Flournoy as well.
    General Petraeus. With respect to the ANSFs, Senator, 
obviously lots of different types of forces, different rates of 
progress among them, not only between the different components, 
but also throughout the country, to be sure. I think the 
important point to make is that we've really made progress in 
getting the inputs right in this area as well, in terms of 
getting the right organization, the NTM-A and its various 
component elements, and then on the Afghan side their various 
component elements as well, and in some cases adding, as an 
example, a recruiting element, which was not present before on 
the police side in particular.
    Then getting the right people in charge of them, and 
General Caldwell and his team of all-star coalition and U.S. 
leaders, I think, is again another important step forward. The 
concept's right. I mentioned, for example, with the training of 
the police that it used to be recruit, assign, then train when 
you get to it.
    Senator Ben Nelson. Ready, fire, aim.
    General Petraeus. That's about right.
    Then have the resources to do it. Of course, you provided, 
at the request of the President, the resources to add an 
additional 100,000 ANSF by the fall of 2011.
    So all of those, again very important, added to the 
additional trainers in terms of resources, we've been able to 
go from again 1 to 80 ratio of trainer to trainee, to now a 1 
to 30 training ratio. The addition of trainers, while still a 
significant shortfall exists; additional OMLTs and POMLTs, 
although still again more are needed and General McChrystal's 
directive to have units partner has made a difference in that 
regard.
    If you want to characterize all of that and say where are 
you and a certain percentage, I don't know that we're quite at 
the 50 percentile mark, certainly. I think again there has been 
important progress in this regard. I think there are some 
foundations now on which we can build much more effectively 
than we have been able to in the past.
    But we are still at the point of, having gotten the inputs 
right now, to see how the outputs come out. Not to say that all 
that has been done in the past to build institution, 
infrastructure, unit, trainees, and so forth is by any means 
without enormous value, because it is. We went through the same 
thing like this within Iraq as well, and you're constantly 
adjusting, and then you have to adjust to the enemy as well.
    Do you want to talk governance?
    Secretary Flournoy. On the governance side, again I can't 
give you a set percentage, but I can tell you the kinds of 
things we're looking at and trying to measure. One is a general 
sense of the population as to the responsiveness of government 
to their basic needs, and there's everything from polling to 
participation in shuras and council meetings and so forth.
    At the ministry level, we're very focused on making sure 
that ministries can actually receive and disburse monies in an 
accountable manner. We're in the process of working with the 
various Afghan ministries to actually certify them in terms of 
financial management, and I think we've certified three or four 
and there are a number, an additional three or four in the 
pipeline, and we'll keep working through those, looking at 
their capacity to perform core functions.
    At the local government level, it really has to do with, 
have we actually created a connection with the local people, is 
the local government becoming the sort of focal point of 
community decisionmaking, do they have the capacity to actually 
oversee and execute projects, and so forth.
    So there are a number of different metrics that we're 
looking at. As General Petraeus has been saying, we're putting 
a lot of the right inputs in place, a lot of the right 
foundational pieces, and now we're going to start measuring 
progress over time. But it will take some time.
    Senator Ben Nelson. With respect to the surveys or the 
polling----
    [Audio system feedback.]
    Senator Ben Nelson.--and I don't know why it's doing this.
    Chairman Levin. I wonder if somebody could check out the 
sound system here, because we have this hum or feedback.
    Senator Ben Nelson. In connection with the polling, I know 
that the Afghan acceptance of ISAF has not necessarily been 
increasing. It's been decreasing. From March 2010, with 29 
percent of Afghans having a good or very good opinion of ISAF; 
in comparison, 34 percent now have a bad or a very bad opinion 
of ISAF, which is the lowest it's been since the surveys were 
started in 2008.
    Is there comparable polling or are there comparable surveys 
on the support or the attitude of the Afghans towards their 
government?
    Secretary Flournoy. I can cite at least one that I'm 
familiar with, sir.
    Chairman Levin. You need to talk louder.
    Secretary Flournoy. I'm sorry.
    Chairman Levin. Is your mike on?
    Secretary Flournoy. I don't think it's on.
    Chairman Levin. A lot louder.
    Secretary Flournoy. There is a recent poll that was done 
that shows about 59 percent of the Afghan population believes 
that the combination of their government and ISAF is moving the 
country in the right direction, sort of a general, are we 
heading in the right direction question. That was an 
improvement since last fall. But frankly, I think we need to 
get better data from the polls. Right now we get somewhat 
contradictory information out of the polls.
    Senator Ben Nelson. Do you have any polling information on 
their local governments versus where the overall direction of 
the country is going?
    General Petraeus. Interestingly, in the south just recently 
a poll indicates greater optimism about the future than it did 
just a few months ago.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Levin. The sound I think is now off. I think 
they're trying to fix it. So we're all going to have to talk 
much louder during this interim period.
    Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Good morning. Thank you both.
    General Petraeus, what would happen if in the future the 
Taliban took over part or all of Afghanistan from our national 
security perspective? What would be the consequence?
    General Petraeus. I think, Senator, given what's happening 
in other areas, with pressure on extremist groups in other 
locations, that some of those will make their way back into 
Afghanistan and enjoy sanctuary, as they did prior to September 
11, recalling that the September 11 attacks were planned in the 
Kandahar area and the initial training of the attackers took 
place in training camps in Afghanistan.
    Senator Graham. On a scale of 1 to 10, 1 being not so 
significant and 10 being very significant, what would Taliban 
control of part or all of Afghanistan mean to us, national 
security-wise?
    General Petraeus. The President has said that----
    Senator Graham. Closer to 10 than 1?
    General Petraeus. Yes.
    Senator Graham. If we were not there now, what would 
happen?
    General Petraeus. I think the Taliban certainly would take 
control of certain areas of the country. Others might devolve 
into warlordism and you might end up with a couple of different 
civil wars going on between different ethnic groups, even 
sectarian groups, and some warlords overlaid on top of that.
    Senator Graham. This is June 2010. Are we winning?
    General Petraeus. Winning to a counterinsurgent, Senator, 
means making progress. In that regard, I think that we are 
winning, but I think that it is a slow process. As I explained, 
we have just about got the inputs right in terms of getting the 
organizations in place, the right people in charge of them, the 
right concepts and the right level of resources to enable 
implementation of those concepts under those leaders in charge 
of the right organizations.
    Senator Graham. What percentage of Afghanistan is under 
central government control?
    General Petraeus. What's that, sir?
    Senator Graham. What percentage of the country, 
Afghanistan, is under effective central government control?
    General Petraeus. Certainly more, much more than what is 
not. Again, we have to talk about how do you want to define 
central government control.
    Senator Graham. Central government control means being an 
effective police force, a responsible army, a functioning, non-
corrupt local and national government.
    General Petraeus. We have a ways to go in that regard, 
obviously. Again, there are areas of the country that have 
those characteristics, but they're certainly in the minority.
    Senator Graham. Would you agree with me that in June 2010 
most of Afghanistan is not governed in an effective manner, 
where you have an honest police force and a non-corrupt, 
functioning government, that most of the country doesn't fall 
under that model?
    General Petraeus. I think that's a fair assessment. Again, 
I'd want to sit with you with a map. I'd want to talk a little 
bit in a more nuanced fashion.
    Senator Graham. I'm just trying to get a baseline of where 
we're at in June 2010.
    How many al Qaeda members do we think reside in Afghanistan 
today?
    General Petraeus. Probably a very small number, certainly 
perhaps in the double digit numbers, that small, if any. Again, 
the nexus of al Qaeda we still believe is very much in the 
certain agencies of the Federally Administered Tribal Areas of 
Pakistan.
    Senator Graham. How many are over there?
    General Petraeus. Now we're into the hundreds. This is a 
question of how do you talk about the symbiotic relationships 
between these, because it can very easily extend into the 
thousands. There are trainees moving through there. Then there 
are relationships. How do you count the support crew, the 
family members? As you'll recall, a number of these individuals 
literally married into tribes over there, and it becomes a very 
difficult accounting drill in a region where people survive by 
being chameleons at times.
    Senator Graham. Is it fair to say that al Qaeda has moved 
next door?
    General Petraeus. That is correct.
    Senator Graham. What is the number of big ``T'' Taliban 
that we're fighting in Afghanistan, give or minus?
    General Petraeus. In the thousands, and I can provide you 
the whole laydown, because again it depends on how you define 
not just--what is the Afghan Taliban? Do you want to include 
the Islamic Movement of Uzbekistan? Do you include the Hakkani 
Network? Do you include Commander Nazir? Do you include----
    Senator Graham. Let's include them all.
    General Petraeus. Then you're well into the thousands, and 
then you have to start talking about the tiers of these 
different operatives. Again, the leadership, of course, at the 
very top, that matters greatly, and then you get all the way 
down through the mid-level to the low-level, the $5- or $10-a-
day Taliban, as they say, that clearly can be broken off. You 
could argue whether it's not unlike Iraq. You had a hard-core 
al Qaeda in Iraq, you had various strands of insurgent 
elements.
    Senator Graham. So, long story short, into the thousands 
probably?
    General Petraeus. Certainly.
    Senator Graham. Our policy of withdrawing in July 2011, as 
I understand it, is that we're going to begin to withdraw in 
July 2011. The only thing in question is the pace of 
withdrawal. Is that fair?
    General Petraeus. Indeed, Senator, as I described--and I 
want to get you a copy of the statement that I made this 
morning because I tried to provide a very precise description 
of that.
    Senator Graham. Is generally what I said fair?
    General Petraeus. July 2011 is when a process begins that 
includes the beginning of a responsible drawdown of the surge 
forces and includes the beginning of a process of transition of 
some tasks to Afghan officials and forces, based on conditions. 
All of this based on conditions.
    Senator Graham. I want to make sure I do understand, 
because you told Senator Kaufman it's not a matter of if we're 
going to leave, it's just how quick we're going to leave. Is 
that not true?
    General Petraeus. Based on conditions.
    Senator Graham. Okay.
    General Petraeus. Given current projections as well. 
Senator, I'd like you to read the statement that I gave at the 
outset.
    Senator Graham. I will.
    In June 2012, do you anticipate us having more or less than 
50,000 American soldiers in Afghanistan?
    General Petraeus. Senator, I wouldn't hazard a projection. 
I think that would be speculative. Again, we're a year from the 
beginning of the process, which is a year from the date that 
you just stated. I think that it's just not productive. In 
fact, it could be unproductive.
    Senator Graham. One last question. How does the Taliban 
view this policy? What intelligence do we have? Has this 
policy, that we're going to begin to withdraw in July 2011, 
given any indication that the enemy is encouraged by that plus 
the fact that NATO forces are beginning to withdraw?
    General Petraeus. The enemy has a number of different 
emotions right now, Senator. One is that the enemy is under 
greater pressure than at any time before, and they are feeling 
this. We have insights into this, as they say. We have put some 
pretty big dents into elements of the Afghan Taliban in 
Afghanistan and there have been some pretty big dents in the 
extremist ranks, the senior leader ranks, in the Federally 
Administered Tribal Areas as well.
    Having said that, there is an awareness of the July 2011 
date and there is some sense among some of them. They are 
watching NATO allies as well. They have specifically, with 
their information operations campaigns and their tactical 
campaigns at times we think, targeted certain elements of the 
coalition, certain countries. Their strategy certainly is to do 
what they have done in the past, which is outlast whoever it is 
that is confronting them.
    I tried to be very precise this morning with what July 2011 
means. That's why your colleague, Senator Lieberman, I believe, 
mentioned the words vital national security interest, which 
again say something to all of us, that were featured in the 
President's speech at West Point, and why again we should come 
back to the fact as well that that was a message of urgency 
that complemented the message of enormous commitment.
    Let's not forget that by the end of August this year, 
Senator, the number of forces on the ground, U.S. forces on the 
ground, will be well more than three times, triple, what was on 
the ground at the beginning of 2009. That is vastly more than 
the surge in Iraq. The number of civilians has tripled as well, 
and the authorization that you have provided for the ANSF is a 
very substantial one also, 100,000 more ANSF. That is a symbol 
and a reflection of commitment as well.
    That's what we have tried to convey in the region, by the 
way. We have sat down with all the regional leaders to ensure 
that there is not--and that's what--in my statement today I 
said let's be clear what July 2011 is and what it is not. It is 
not when we race for the exits and reach for the light switch.
    Senator Graham. I think what they are probably more certain 
of is that on the July 2011 date there will be less Americans 
to fight and less NATO troops to fight, and that's the policy. 
I think it's a huge mistake.
    So thank you.
    Secretary Flournoy. May I? If I could just add, one of the 
reasons we've entered into a very public and high profile 
strategic dialogue with our partners in Afghanistan and, 
frankly, in Pakistan as well. We are issuing declarations out 
of that, that we are trying to both flesh out and communicate 
the nature of an enduring commitment to this region and what 
that's going to look like, and the fact that we are not leaving 
any time soon, even though the nature and complexion of the 
commitment may change over time.
    Chairman Levin. Thank you.
    Just in time. Senator McCaskill.
    Senator McCaskill. Let me first start briefly on some 
contracting issues. I know we've had a number of members talk 
about the private security contracting and I'd like to touch on 
that and the police training. On the private security 
contracting, I take it, General Petraeus, that you are 
perfectly willing to say on the record that we need to get back 
to this being more of an inherently governmental function, as 
opposed to something that we're contracting out?
    General Petraeus. If I could just talk a little bit about 
the private security contractors, because there's obviously a 
reason that they're there and that is because they augment what 
our troops do, just as they did in Iraq. What we learned in 
Iraq we're trying to apply now in Afghanistan and have been for 
some time, and that is to make sure that we get them under the 
authorities, that they understand the rules, if you will, that 
you helped us with the NDAA. We use those in Iraq, as you'll 
recall, and at least two cases where we actually brought cases 
to court based on those authorities under the military 
commander because we had the jurisdiction over them.
    We are doing that in Afghanistan as well, and also applying 
the efforts to coordinate their activities, to ensure they are 
very clear on what their rules of engagement or self-defense 
are, and that they are fully integrated into our battlefield 
awareness, our situational awareness, and command and control 
systems as well.
    Now, General McChrystal has also said he would like to get 
rid of private security contractors, because in a perfect world 
again that would be an inherently governmental function. But 
the fact is that to do that requires--there's a reason they are 
securing convoys, logistics, and others. I contracted out my 
own security in Iraq when I was a three-star general because we 
didn't have enough military police in this one-off 
organization, the train-and-equip mission, to secure all those 
that were lower in rank than I was, and I had enough clout to 
be able to contract it out. They couldn't do that for 
themselves, so we gave them the military police unit that was 
designed for me.
    That's the situation that leads to this, and again it's a 
reality out there, and of course it's a reality on the DOS 
front as well.
    Senator McCaskill. I just think it's something that we need 
to continue to underline.
    General Petraeus. Correct.
    Senator McCaskill. If we're going to give our incredibly 
strong leaders missions to accomplish on behalf of the United 
States of America, we have to continually bang the drum that we 
have to have the resources there that are necessary to perform 
inherently governmental functions.
    I have to tell you, General Petraeus, it doesn't surprise 
me that you gave up your military police unit to contract out 
your security. But I think a whole lot of Americans wouldn't be 
comfortable with that. You're an incredible resource for our 
Nation.
    General Petraeus. It was when I was a three-star, not a 
four-star.
    Senator McCaskill. Three-stars--the reason you became a 
four-star is because you were an above-average three-star. I 
think that it would be important for us to acknowledge that 
having--and I do want to get on the record an acknowledgment 
that we are pulling people out of the workforce in Afghanistan 
that we need in our army and in our local police departments, 
at higher pay, and sometimes they're not good guys.
    General Petraeus. Right. Not only are we doing that there, 
and President Karzai and I had a conversation with Ambassador 
Holbrooke as well on the fact that in some cases we are 
investing in Afghanistan's human capital, helping train, 
educate, provide skills to people, they return to their 
inherently governmental function, and then we compete with the 
Afghan Government and in some cases take them away and put them 
on a contract to us as you name it, a doctor who's now an 
interpreter, a great governmental official who now becomes 
again, who knows, human terrain team or whatever.
    So that is a conflict and it's something that Afghanistan 
has to address in terms they need some rules and regulation and 
policies, and we have to be sensitive. I don't know if you 
heard our mention of the task force that we have formed.
    Senator McCaskill. General Caldwell.
    General Petraeus. This is one actually with Rear Admiral 
Kathleen Dussault, who you will remember as a one-star, Joint 
Contracting Command-Iraq commander. She is now a two-star and 
is going to go out and lead a task force that will complement 
what the contracting command in Afghanistan is doing to really 
get into the details of this and to look at some of these 
issues that are out there, also to get down to the 
subcontractors to the subcontractors, to follow the money, to 
find out how is it being doled out, who really is benefiting 
from this.
    Senator McCaskill. That's great. I know, Secretary 
Flournoy, you are aware that we've also asked you to put in the 
Quadrennial Defense Review (QDR) contracting plans, that in the 
NDAA we're asking that the QDR include contracting. I think if 
we've learned anything over the last 5 years, we've learned 
that if we are going to be fighting a counterinsurgency far 
away, contracting is an essential piece of that mission, and if 
we haven't learned that lesson, then we're in real trouble.
    Let me briefly talk on the ANP. I would certainly want 
there to be an acknowledgment somewhere that we may need to 
hold on to training local police as part of our fundamental 
core competency in going against a counterinsurgency. This 
notion that the DOS had it and then we give it back to DOD and 
then the DOS takes it back and now it's back with DOD, and now 
we have a problem with the contract and we're struggling with 
whether or not we compete it. Here we are in the crucial months 
of a strategy that has been adopted by our Commander in Chief 
and by the military in Afghanistan and we frankly are 
flatfooted as it relates to our ability to contract with the 
ANP trainers.
    General Petraeus. I could not agree with you more, Senator. 
We see this wherever there is what we call an industrial 
strength mission. Again, this is to take nothing away from DOS 
or international narcotics and law enforcement affairs. There 
are fantastic armies of one in those organizations, but they 
are not structured, they don't have the deployability, they 
don't have the personnel protection, all the rest of these that 
in a counterinsurgency situation--they're terrific for the 
normal type of mission that has been performed in the past. But 
I lived through this in Iraq. I watched us try to do it with 
the traditional structures and organizations, and then ended up 
being the guy that had to take it over and pull it together. We 
just ended up taking more and more and more tasks. Ultimately, 
even the overall ministry adviser missions ended up all being 
under the Multi-National Security Transition Command-Iraq 
organization there after we tried to do it the normal way and 
it didn't work.
    I think it's very important, and there's an issue of 
interagency doctrine there that is important, or interagency 
roles and missions. Again, I am one who, like Under Secretary 
Flournoy and Secretary Gates, has argued for more resources for 
DOS and these different elements that are trying to perform 
these missions as well.
    If I could, there is one we have in fact formed. We formed 
it a couple years ago, in fact when I was at Fort Leavenworth. 
Another hat was added for the commander at Fort Leavenworth, 
the Joint Center for International Security Force Assistance. 
This is designed for the military to capture what it is we have 
learned about the industrial strength efforts here, too, 
because again we have learned. Traditionally we did this with 
Green Berets, with Special Forces, who would go out and they'd 
train a couple battalions, maybe even a brigade or two, in some 
country in Africa or Latin America or something like this.
    Now we are doing again bulk industrial strength efforts, 
and we're having to use conventional forces in very significant 
ways. They dwarf the numbers of our Green Berets and have taken 
over the bulk of these missions. We have sought to capture the 
lessons from that as well, and I think we've done a reasonably 
good job in terms of doing that and then developing doctrine, 
the preparation of these forces for deployment and the rest of 
that as well.
    Senator McCaskill. Thank you. I'm out of time, but I do 
want to let you know, I will submit for the record--I'm very 
concerned about the situation in Kyrgyzstan and the stability 
of that government, our relationship with that government as it 
relates to our airfield there. I know they've arrested the 
former president's son in the U.K. and I know there's 
allegations of serious skimming in terms of fuel contracts with 
that air base. I know we have a backup of trains with fuel.
    That northern supply route, we've taken a long time to get 
it in place and it looks precarious to me right now, and that 
is of great concern. So I will address some questions to the 
record and will look forward to learning where you think we are 
as it relates to the ethnic strife that we're now seeing in 
Central Asia and how that impacts on our mission in 
Afghanistan.
    General Petraeus. Could I very quickly just reassure that 
the northern distribution network, the bulk of which on the 
ground, virtually all of it, runs through Kazakhstan and 
Uzbekistan, is functioning very smoothly. There are no issues 
with it. In fact, we continue to increase. I think we're almost 
at the point of 70 percent now of our supplies, not all of the 
other military equipment, run through the northern distribution 
network. This has helped enormously to take the pressures off 
the routes that come through Karachi, through the Khyber Pass 
and the Chaman Gate. Also, the prices went down in Pakistan as 
a result of having competition. What a surprise.
    Beyond that, the Kyrgyzstan issue, Transit Center at Manas 
is quite a distance from Osh. We have had no security issues 
whatsoever up there. We are responding to and working hand-in-
glove with the DOS to be prepared if there is a determination 
of humanitarian assistance or to help in any other way, as we 
did in the wake of the riots that resulted in the displacement 
of the government.
    There's an OSD team that is working on replacing the 
contract. In the mean time, we have been able to keep the fuel, 
we have all of our tankers back up there flying again, and 
again touch wood that that can just continue as we are sorting 
out the way ahead on the contract front.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Sessions.
    Senator Sessions. Thank you both for your service to your 
country.
    I'd like to go back to the fundamental question that the 
American people have at the time of this hearing, is that 
they're picking up information that things are not going well 
in Afghanistan. They are concerned about it. Members of 
Congress are picking that up. We're seeing it in the media, 
rightly or wrongly.
    I guess first of all, Secretary Flournoy, I understood you 
to say that you believe the overall trajectory of our efforts 
there is in the right direction since I guess that we are 
making progress toward the goal that we'd like to see for 
Afghanistan. Is that a fair statement?
    Secretary Flournoy. It is, Senator. I think we are moving 
in the right direction. The nature of the counterinsurgency 
work is, there are going to be setbacks along the way. It's 
very difficult. But we are moving in the right direction.
    Senator Sessions. The reports from your perspective are 
pointing out problems, and some are very real, still don't 
dissuade you in that view that overall we're still on the right 
trajectory?
    Secretary Flournoy. Yes, especially because we are still 
having the resources that the President ordered coming into 
theater, still getting in place, and not fully engaged yet in 
the fight. As they come on line, I think that will add to our 
ability to create some momentum.
    Senator Sessions. General Petraeus, I remember still so 
vividly the decision to execute the surge. The President had to 
ask our soldiers who expected to come home to extend for 3 
months, one of the most bitter things that I remember having to 
go through. It's still emotional to me. I remember asking you, 
did you think we can be successful in Iraq. At the time that 
was a matter of doubt. I guess we can say that the trajectory 
of drawing the troops down so rapidly indicates that you were 
at least right, at least at this point in time.
    Do you think we can be successful in Afghanistan, given the 
current state of affairs there?
    General Petraeus. I do. Again, it will not be easy, nor was 
it in any way, shape, or form easy in Iraq. It was very, very 
hard in Iraq. We took very tough losses in Iraq, as you well 
know from visiting many different times. There were significant 
ups and downs.
    I still remember, for example, way past the September 
hearings, well at the end of that year, for example, as various 
government leaders came to very senior U.S. officials and 
called for a very significant change in governmental leadership 
there. This is way beyond the point that anyone was disputing 
that there were significant security gains. This is a tough, 
tough business and it is, as I described earlier, very much a 
roller-coaster ride. Those who are living it have to try to 
keep their eye on the horizon to ensure that the trajectory is 
generally upward. I agree with the Under Secretary that it is.
    Senator Sessions. You talk about DOS and their 
contributions, which are very valuable. But you also pointed 
out that the NGOs and our other government entities don't carry 
security with them and it's difficult for them to fulfill their 
responsibilities. In an insurgency situation in which the very 
safety of American personnel are still at stake, doesn't it 
make sense--or I'll just say it this way and I'll let you 
comment. It's my opinion that the people who are in these PRTs, 
the people who are out there, are mostly military and we need 
to understand that they have the ability and can effectively 
dispense aid for local projects and so forth, that can save 
lives. I think the military has really such an intensity of 
interest in this because their soldiers' lives are at stake.
    So would you comment on that fundamental balance between 
where the reconstruction monies should be allocated?
    General Petraeus. First of all, I think your point is very 
well taken. Second, in fact PRTs by and large are significantly 
military.
    Senator Sessions. These are the PRTs.
    General Petraeus. PRTs are a mix of civilian and military. 
Typically you'll have civilian leadership and you'll have a 
number of very good civilian experts that bring skills that are 
hard to find at least within the military, although sometimes 
in our Reserve components we even have those skills.
    But what we want to do is partner. By the way, we do have 
significant skills in uniforms, folks who pack weapons and 
everything else and are prepared to go downrange, many of them 
again from our Reserve components, who perform civilian 
functions when not in uniform that lend themselves very well to 
these kinds of tasks.
    Then on top of that, of course, we have the National Guard 
Agricultural Development Teams that have been superb. These are 
individuals who are farming experts. In some cases they're the 
leaders in the agriculture departments of their States or 
counties, and they have been very valuable over there. They 
come as an entire self-contained unit, so you have a unit that 
can move itself, feed itself, secure itself, and communicate 
and provide the expertise in the agricultural arena on top of 
that.
    So this is a mix. That's the way it ought to be. We can 
dispense some of the money, and indeed the CERP funds are 
substantial when you talk about $1.1 billion in CERP or 
whatever. That's a significant amount of money to dispense. 
Certainly we coordinate then very carefully with USAID and the 
other elements that are doing reconstruction and development 
work to make sure that we're not double-tapping a particular 
target or project.
    Senator Sessions. Two things. First, I do believe often 90 
percent of the PRTs are military personnel operating them. 
Second, I guess the chairman asked you about why we aren't 
moving more on utilizing that money that's being asked for.
    General Petraeus. In fact, we have a plan, as the Under 
Secretary explained, that will actually obligate a very 
substantial amount of this on top of what has been obligated 
already this year. As our footprint expands, as the inputs are 
completed, then the obligation rate will pick up as well.
    Senator Sessions. Just briefly, there's been a slowdown in 
Kandahar. I saw an Associated Press article; according to 
General McChrystal, he was going to slow down a bit. President 
Karzai did go there recently, very recently, Sunday, and he 
hasn't done that enough in my opinion. But he went, had a 
meeting with the Kandahar leaders, as Senator Levin and I did a 
couple of years ago, met with serious individuals, respected in 
their local areas. He called on them for support and a majority 
of the audience stood and raised their hands when he asked for 
their support.
    I think General McChrystal saw that as a strong clear call 
for unity and that Karzai displayed extraordinary ownership of 
the operation.
    How would you evaluate that, and does that indicate that 
we're not doomed in Kandahar, but actually may be laying the 
groundwork for a successful operation?
    General Petraeus. That was indeed one of the most important 
of the political shaping operations. There was also another 
shura council that President Karzai held, about probably 2\1/2\ 
months ago now, even larger. It was from 1,500 to 2,000 local 
elders, notables, and leaders. It was so inclusive in fact that 
a number of them felt no reluctance in standing up with the TV 
cameras rolling and criticizing the Afghan Government, in some 
cases President Karzai himself, who turned and pointed the 
finger at himself as well.
    But this latest one, I've read the statement, the talking 
points, if you will, that President Karzai used that were 
translated. They're very good, and in fact I told the chairman 
I would get copies of them to the committee.
    We had a videoteleconference in fact coincidentally with 
General McChrystal yesterday morning, the weekly that's done 
with the Secretary of Defense and the rest of us. He felt quite 
encouraged by it also.
    The fact is I always felt that Kandahar was going to take 
months and months and months. It's not a revelation to me that 
this will go into the winter. That's what I have always 
expected it would, having been on the ground in Kandahar and 
done it so very recently, I think a month and a half, 2 months 
ago most recently, and walked around and talked to the governor 
and talked to other leaders there as well.
    General McChrystal's changing slightly how he's going to 
start by doing more focused training and partnering with some 
Afghan forces before they launch their portion of the tactical 
operation. That's very sensible to me. Again, I don't see that 
as extending the overall timeline necessarily. That's a 
component of the plan that I think a tactical commander has 
every reason to adjust as he sees fit.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Thank you, Secretary Flournoy, General Petraeus. Thank you 
for your service. Good to see you again. About a month ago you 
were kind enough to host me and Senator Nelson at CENTCOM and 
we talked about a variety of issues. I want to follow on what 
my colleague from Alabama was just discussing in talking about 
President Karzai.
    When we had that meeting, we talked about your confidence 
in President Karzai as a partner for our country in this effort 
to fight the Taliban and fight al Qaeda. These recent comments 
that President Karzai made in Kandahar are welcomed, but they 
follow his comments that were reported around the 10th of this 
month that he had lost faith in the U.S.'s ability to defeat 
the Taliban.
    I wanted to get an update from you about your confidence 
level in our partnership and in his leadership in fighting this 
war.
    General Petraeus. Senator, thanks and great to see you 
again as well.
    If I could just start off by saying that I think that the 
statement that President Karzai's lost faith in the United 
States is a newspaper account, not certainly a quote directly 
from him, and it is more a characterization from some second- 
and third-hand sources. It does not square with what my 
contacts with him in recent months would have predicted, nor 
what General McChrystal reports, nor the others who have very 
frequent contact with him in Kabul.
    Again, the example of the shura that was held in Kandahar 
is very significant. That is, that's the next important 
milestone in setting the political conditions for the conduct 
of the military operations, recognizing that many of the 
security challenges in Kandahar are related to political or 
economic disputes, tensions, friction, and so forth. So that's 
a very significant step forward.
    It doesn't mean the Taliban's all going to turn around and 
bow in his direction by any means. They will continue their 
campaign of trying to intimidate, in some cases assassinate and 
attack our soldiers and our Afghan partners. But this is very 
important in getting the people on the side of the government, 
knowing what is going to happen, understanding. He also didn't 
hold out rosy futures. He said this will be difficult, we're 
going to need to fight the Taliban together, et cetera.
    At the end of the day, his success is our success. So 
working and very clearly following the President's guidance a 
couple months ago, that we indeed have to support the leader of 
the sovereign country that we're trying to help.
    Senator LeMieux. So you're still as confident in the 
partnership as you were when we last met?
    General Petraeus. Yes, yes. Clearly there is an issue with 
the resignation of the minister of interior and their 
intelligence service, the National Directorate of Security. We 
know those individuals. We've all worked with them. We all 
regard them as competent. But I think again before we start 
judging what that will do to those ministries, to the overall 
effort, we have to see who the replacements are, judge their 
competence, their ethnicity, because again President Karzai is 
very sensitive that they can't both be Pashtu.
    For what it's worth, the discussions that we're aware of, 
some of which Americans have participated in, as various 
candidates have been considered, indicate that the replacements 
will be competent individuals and individuals certainly that we 
have confidence in and can work with.
    Secretary Flournoy. If I could, Senator, we had President 
Karzai and 14 of his cabinet members here in May for a 
strategic dialogue. They left with a very clear sense of a 
longer-term U.S. commitment. We were talking about activities 
that will extend over the next 5 to 10 years in security 
assistance, in governance, in education, in economics, and the 
full range of a longer-term strategic relationship. They left 
with no question, I think, about understanding that we see that 
as a vital interest for the United States.
    Senator LeMieux. That goes to the question of the timeline. 
I know that some of my other colleagues have already questioned 
you about that. How many of the troops now are deployed of this 
surging effort?
    General Petraeus. Of the final 30,000 that will take us up 
to that 98,000 figure--and again keeping in mind that we 
started in January 2009 with 30,000 to 31,000, so this will be 
a more than tripling of the force on the ground. The Secretary 
of Defense, as has been discussed in here, has some flex factor 
as required for emerging force protection needs and other 
critical requirements. We're about almost at the 21,000 of the 
additional 30,000 on the ground. This is actually slightly 
ahead of schedule in terms of personnel and in terms of 
equipment, which is somewhat remarkable given the Icelandic 
volcanic eruptions, the Haiti emergency relief operation, and 
some other challenges, including the issues with the Transit 
Center at Manas with fuel a month or so ago.
    Yet it has all stayed on track. What we call Transportation 
Nation, the U.S. Transportation Command led by General Duncan 
McNabb, the Logistics Nation led by a host of different 
individuals, and so forth, they have performed miracles, and in 
fact we're issuing equipment early to the brigade that is 
moving into the Kandahar area now.
    Senator LeMieux. When do you expect the full deployment to 
be accomplished?
    General Petraeus. All of the 30,000 required by the end of 
August will be on the ground by the end of August. There is one 
element, a headquarters, that is not required by that time, so 
we obviously won't put it in. It goes in about a month later, 
although we could get it in there. But it doesn't rotate until 
after that, although it is part of the 30,000.
    Senator LeMieux. Do you expect that the amount of troops 
fully deployed by August will be a sufficient complement to 
what you need to accomplish the mission?
    General Petraeus. That's correct. In fact, General 
McChrystal has in a letter to the ranking member of the HASC 
stated that this will enable us to be what's required to carry 
out the strategy. Recognizing that, as I said, if there are 
emergent needs we will always ask for those. That's our 
obligation to our troopers. In fact, Secretary Gates has this 
flex factor that could enable him to satisfy some of that at 
his level.
    Senator LeMieux. I would expect that as we come into the 
summer of 2011, if you also felt that you needed to keep that 
level of troops on the ground, that you would make that 
recommendation to the President?
    General Petraeus. In fact, that's correct, Senator. In the 
statement that I made upfront, and we'll make sure that you get 
a copy of that, I stated that we'll look at the conditions on 
the ground at that time, I and I'm sure General McChrystal, 
Admiral Mullen, and all the other military leaders involved, 
will provide our most forthright and best professional military 
advice. Then at the end of the day also support the ultimate 
policy decision made by the President.
    Senator LeMieux. Thank you. Thank you again for your 
service.
    My time is up. I wanted to also talk to you about Iran and 
what their influence is currently in Afghanistan, so I will 
submit some questions for the record to you.
    General Petraeus. Thank you, sir.
    Senator LeMieux. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    I'm just going to end with a final comment about a point 
which has been, I think, fairly made here by Senator Graham, 
that the Taliban knows that we're going to have fewer U.S. 
troops in Afghanistan starting in July 2011. Your answer, I 
think, is also fair and accurate, that how many fewer and the 
speed of the reductions will, as the President has directed, be 
based on conditions at that time.
    It's also true that the Taliban knows that the ANA, which 
is an army that the people support, is going to be far, far 
bigger in July 2011 than it is now. I think it's also true that 
the Afghan Government understands that those reductions will 
begin in 2011. One of the points is that that will give the 
Afghan Government a greater sense of urgency about their 
responsibility to take their own security on as their 
obligation more than it is ours. Is that something you would 
agree with, General?
    General Petraeus. Absolutely, yes.
    Chairman Levin. Madam Secretary?
    Secretary Flournoy. They want to fully exercise their 
sovereignty, including providing security for their own people.
    Chairman Levin. We've done well. If there's a quick comment 
by either of my colleagues?
    Senator Lieberman. Mr. Chairman, if I might, just to follow 
up in terms of messages we might send to the Taliban. I don't 
expect this to happen, but am I correct that General McChrystal 
understands that if for some reason between now and July 2011 
he feels he actually needs additional American troops, that he 
is free to request that?
    General Petraeus. Absolutely.
    Senator Lieberman. Then the final question. There has been 
some discussion about different ways in which as we head toward 
July 2011 we can reassure both the Afghans, their enemies, and 
the region of our longer-term commitment. I know that the last 
time President Karzai was here some of us talked to him and 
there's some interest, it seems to me, I'm sure, in the Afghans 
in seeking a longer-term security relationship with us, 
including potentially becoming designated as a major non-NATO 
ally, and that would go beyond July 2011, might obligate us to 
some longer-term funding of the ANSF, for instance.
    Secretary Flournoy, is that on the table?
    Secretary Flournoy. That is on the table. We are working 
together with our Afghan partners on a strategic framework for 
the relationship mid- to long-term. As we develop that, we will 
certainly be consulting with you here. We would also like to 
make that framework a public framework, our intention is very 
clear for an enduring and substantial relationship to Afghans 
and Taliban and others in the region.
    Senator Lieberman. Thank you.
    Are you supportive of that, General?
    General Petraeus. Yes. In fact, that has been discussed and 
really is being worked. I don't want to prejudge the policy, 
but certainly discussions have been made.
    Senator Lieberman. Sure. That's very encouraging. I think 
that's a very constructive way to go. If I might just draw the 
parallel, as new countries have come into NATO, the 
understanding has been that this is an exchange, that you get 
the value of NATO or being a major non-NATO ally, for 
instance--and one of the things that you do in response is to 
improve your own military and indeed to reform your government. 
There might be a very constructive quid pro quo here. But I 
thank you for that and I look forward to hearing more about it.
    Thanks for an excellent morning of testimony, really very 
helpful and ultimately realistically encouraging. I think, as 
we said earlier, if you accept the goal and accept the 
principle that we have a vital national security interest in 
succeeding in Afghanistan, as President Obama has decided, then 
we just have to figure out how to achieve that goal.
    Thank you.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Let me support something that Senator Lieberman was driving 
at. I have put huge emphasis on the importance of getting the 
ANA trained, equipped, enlarged, and taking the lead in 
operations, including in Kandahar. That's been my focus from 
the beginning of this effort in Afghanistan. I have felt that 
that decision to set a date for beginning of reductions in July 
2011 is essential in order to energize the Afghan Government to 
do what only they can do, which is to take responsibility for 
their own security.
    I believe that deeply. I think that's an inherent part of 
counterinsurgency that that happen, and the support of the ANA 
by the Afghan people is there and it is going to make a huge 
difference in terms of success.
    I also very much support a long-term relationship with 
Afghanistan, both security relationship and economic and 
political relationship. I don't view that as being in any way 
inconsistent with my belief that the Afghan Government must get 
a message of urgency, of taking responsibility security-wise 
and politically for their own country.
    I again am very comfortable in supporting both of those 
positions. In fact, I think they're not only consistent, but 
dependent on each other. I think success in Afghanistan is 
going to depend on the willingness of the Afghan Government not 
only to take responsibility for their own security, but to take 
responsibility for decent governance inside of Afghanistan that 
will win the respect of the Afghan people.
    I wanted to add that because, with all my emphasis on the 
ANA taking the lead and taking responsibility, I do believe at 
the same time that they should understand that we have a long-
term commitment and those of us that even want to place greater 
responsibility on them share that belief in a long-term 
commitment, security-wise, economically, politically, between 
us and the Afghans.
    We thank you both. It's been a long couple of days and it's 
been very, very helpful and constructive. We appreciate it. 
Thanks so much.
    We stand adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                      united states and kyrgyzstan
    1. Senator McCaskill. Secretary Flournoy and General Petraeus, 
central Asia is more unstable than it has been in several years with 
the recent overthrow of the Bakiyev government and the ethnic tensions 
in Kyrgyzstan. These events are disconcerting because we are so 
dependent on these countries for transit of key supplies into 
Afghanistan. These countries are also critical to our long-term success 
strategy in Afghanistan, especially to building north-south economic 
ties and fighting the flow of drugs through the country. Within the 
last 2 weeks, there has been violent ethnic unrest in southern 
Kyrgyzstan's Ferghana Valley near the city of Osh, which is the second 
largest city in the country. According to most sources, hundreds of 
people have been confirmed dead, a further 1,500 as injured, and tens 
of thousands of ethnic Uzbeks have fled to neighboring Uzbekistan. 
Although the Transit Center at Manas has not been directly affected by 
the ethnic violence in southern Kyrgyzstan so far, the worry persists 
about how this instability will affect the Northern Distribution 
Network (NDN) in general (air, land, and rail routes), which is so 
critical to supplying our plus-up of troops. What is the state of our 
relationship with the new provisional government in Kyrgyzstan?
    Secretary Flournoy. We have, as part of the U.S. Government's 
overall engagement with Kyrgyzstan, worked closely with the provisional 
government since early April, and our relationship continues to develop 
in a productive, cooperative direction. The Department of Defense 
(DOD), the Department of State (DOS), the U.S. Agency for International 
Development (USAID), and international partners have worked with the 
provisional government to provide humanitarian assistance in response 
to both the unrest in April and the ethnic conflicts in June. We have 
also worked to ensure Kyrgyzstan's continued support for the struggle 
against violent extremism, and the provisional government has provided 
public and private assurances that it will honor the Manas Transit 
Center (MTC) Agreement through the current renewal period, which runs 
through July 13, 2011 (the MTC Agreement provides that the U.S. 
Government could exercise three additional 1-year renewal options), as 
well as the bilateral Agreement for Cooperation, which has no 
expiration date. We will continue to engage the provisional government 
on these and other issues of interest to DOD.
    General Petraeus. Our relationship with the provisional government 
has been generally positive. Interim President Roza Otunbayeva and 
other government officials have expressed openly they will uphold their 
international commitments, including the current MTC agreement. We see 
no indication that they will not continue to do so. Our military-to-
military relationship with Kyrgyz Security Forces has also been 
positive. Kyrgyz units that have received U.S. assistance have 
performed admirably under difficult circumstances. Kyrgyz security 
ministries have been cooperative in evacuating American citizens from 
areas currently affected by the unrest in the southern part of the 
country, in coordination with our team at MTC. There has been no 
significant disruption to the NDN.

    2. Senator McCaskill. Secretary Flournoy and General Petraeus, can 
the new government leadership be counted on to honor our agreement with 
respect to Manas?
    Secretary Flournoy. The provisional government has provided public 
and private assurances that it will honor the MTC Agreement through the 
current renewal period, which runs through July 13, 2011 (the MTC 
Agreement provides that the U.S. Government could exercise three 
additional 1-year renewal options), as well as the bilateral Agreement 
for Cooperation, which has no expiration date.
    General Petraeus. I believe they can and see no indication to the 
contrary. Interim President Roza Otunbayeva and other Government 
officials have expressed openly their continued commitment to uphold 
the current MTC agreement until it expires in July 2011.

    3. Senator McCaskill. Secretary Flournoy and General Petraeus, is 
it possible that the latest attacks were coordinated and meant to cause 
ethnic clashes, as we are now hearing that United Nations (U.N.) aid 
workers are speculating?
    Secretary Flournoy. We lack the necessary information to understand 
fully the origins of the violence. The provisional government has asked 
the international community for assistance with investigating the 
violence that occurred in June, and the U.S. Government has provided 
the provisional government with recommendations for international 
involvement in a Commission of Inquiry. DOD will support U.S. efforts 
to support a transparent, objective investigation into these events.
    General Petraeus. The current situation in Kyrgyzstan is 
characterized by a widespread distrust of the government, security 
forces, and fellow citizens. In the wake of this violence, bad actors 
such as criminals and extremists may attempt to assert themselves. We 
should make every effort to encourage and support the Kyrgyz government 
as it works toward national reconciliation.
    I recommend we continue to support the Kyrgyz government in its 
efforts to investigate the causes of the violence and encourage it to 
host an external investigation by an international body, such as the 
U.N.

    4. Senator McCaskill. Secretary Flournoy and General Petraeus, will 
DOD be investigating this possibility?
    Secretary Flournoy. DOD does not intend to conduct its own 
investigation. The provisional government has asked the international 
community for assistance with investigating the unrest that occurred in 
June, and the U.S. Government has provided the provisional government 
with recommendations for international involvement in a Commission of 
Inquiry. DOD will support U.S. efforts to support a transparent, 
objective investigation into these events.
    General Petraeus. The Kyrgyz Provisional Government's decision to 
ask for assistance from the international community in investigating 
the recent unrest is the best approach. As Secretary Flournoy stated, 
while DOD does not intend to conduct its own investigation, it will 
assist, as will U.S. Central Command (CENTCOM), with any investigations 
as appropriate.

    5. Senator McCaskill. Secretary Flournoy and General Petraeus, 
reports suggest that the Uzbek Government estimates that perhaps 
hundreds of thousands of people have already crossed into the country 
and are living in tent camps. Do you feel the Uzbeks will be able to 
handle the crisis from their side and, more long-term, will the Uzbeks 
be in a position to honor their transit agreements with us?
    Secretary Flournoy. Roughly 100,000 primarily ethnic Uzbek refugees 
from Kyrgyzstan crossed the border into Uzbekistan as a result of the 
violence in neighboring Kyrgyzstan. The Government of Uzbekistan has 
been widely commended by the United States and the international 
community for its role in providing shelter for the refugees between 
June 11-25, 2010. Virtually all of the Kyrgyz refugees crossed back 
into Kyrgyzstan in advance of the June 27 vote on the constitutional 
referendum. In the long term, we believe that the Government of 
Uzbekistan will honor its transit arrangement with the United States.
    General Petraeus. We continue to closely monitor the situation 
through our friends in DOS as they update their reporting on this 
crisis. The Uzbekistan refugee crisis is mostly resolved due to a mass 
return of refugees to Kyrgyzstan on 25 June 2010. Based on reports, the 
Uzbek Government acted quickly and effectively to care for the refugees 
by providing basic shelter, food, and medical care. The U.S. Embassy in 
Tashkent reports there are between 250-400 hospitalized refugees 
remaining in Uzbek after the crisis that will be sent to Kyrgyz 
hospitals when medical conditions permit.
    Due to the limited duration and return of refugees to their 
homeland, we believe it will not impact the Government of Uzbekistan's 
long-term ability to honor the transit agreements.

    6. Senator McCaskill. Secretary Flournoy and General Petraeus, in 
your estimation, is the NDN currently stable?
    Secretary Flournoy. The NDN is currently exceeding our expectations 
in facilitating the transit of sustainment cargo for U.S. and coalition 
forces in Afghanistan. Since its inception in April 2009, more than 
16,000 containers have been shipped across the NDN in support of 
Operation Enduring Freedom (OEF). Countries along the NDN fully support 
this network and continue to work with the United States to improve its 
performance and increase its capacity.
    Virtually no disruptions in transits across the NDN occurred due to 
the recent instability in Kyrgyzstan, and we continue to work with all 
participating countries to ensure uninterrupted, stable operations. 
Publicly supporting the United States through the provision of access 
is often politically unpopular and could result in increased security 
threats to the country, and so consistent, continual effort to maintain 
political support with all participating countries is necessary.
    General Petraeus. Yes, the NDN is very stable. Over the course of 
its 18 month existence, the NDN has developed into a robust network of 
routes which transit the Caucuses, Central Asian States, and Russia. 
Pilferage and attack-free, the NDN provides additive capability to the 
Pakistan-Afghanistan routes and provides flexibility in how we sustain 
operations in Afghanistan.

    7. Senator McCaskill. Secretary Flournoy and General Petraeus, can 
we expect any adverse effects at the Transit Center at Manas (MTC) in 
Uzbekistan, or in Tajikistan as a result of the recent violence in Osh?
    Secretary Flournoy. Thus far, we have not seen any adverse effects 
to U.S. interests at the MTC, in Uzbekistan, or in Tajikistan as a 
result of the violence in southern Kyrgyzstan.
    General Petraeus. The greatest danger to the region lies in the 
potential demographic stress placed on Kyrgyzstan and its neighbors by 
displaced persons. Uzbekistan has taken the brunt of this with no 
reports of refugees in Tajikistan. However, the DOS and the USAID have 
worked quickly to provide aid to Kyrgyzstan and its neighbors. This 
will be key to mitigating this humanitarian disaster.
    The current situation in Kyrgyzstan is characterized by a 
widespread distrust of the government, security forces, and fellow 
citizens. In the wake of this violence, bad actors such as criminals 
and extremists may attempt to assert themselves into a vacuum. We 
should make every effort to encourage and support the Kyrgyz Government 
as it works toward national reconciliation. The potential rise in 
extremist activity is also a concern for Tajikistan and Uzbekistan; as 
bordering countries they likely share a concern that extremist activity 
could spill into their territory. The risk is real, but we do not see 
indicators of spill-over violence at this time.

    8. Senator McCaskill. Secretary Flournoy and General Petraeus, what 
is CENTCOM doing to safeguard our interests and supply networks there?
    Secretary Flournoy. I defer to the Commander of CENTCOM.
    General Petraeus. NDN allows goods to reach Afghanistan through 
several central asian states. We are not dependent on Kyrgyzstan for 
this support, but value it as a contributor in making the NDN a robust 
network with multiple redundancies. Similarly, the MTC serves as a 
basing location for refueler aircraft and a passenger transit location 
for deploying and redeploying troops. Although we have demonstrated the 
ability to relocate our aircraft and passenger transit operation, most 
recently due to the disruption caused by volcanic activity in Iceland, 
the MTC is very valuable to us and we want to ensure it remains a 
location from which we can operate.
    Safeguarding our interests and supply networks at key transit 
centers remains a top priority. In this effort, we continue to work 
with the current provisional Government of Kyrgyzstan and have received 
assurances of their support until parliamentary elections are held in 
October and the newly-elected government is in place. The military 
units in Kyrgyzstan will continue to play an important role interacting 
with communities in Kyrgyzstan and providing support and aid when 
appropriately authorized.

    9. Senator McCaskill. Secretary Flournoy and General Petraeus, if 
we lose access to any of the central asian states currently 
participating in the NDN, is CENTCOM prepared with alternative routes 
capable of picking up that loss?
    Secretary Flournoy. The NDN was conceived as part of a flexible, 
multi-modal logistics network, with multiple redundancies to offset, at 
least in part, a loss of access anywhere in the network. DOD, in 
cooperation with DOS, works closely with partner nations participating 
in the NDN and in Pakistan to continue to enhance and expand the 
capacity of the logistics network so that support for OEF will not be 
put at risk by disruptions on any single route.
    General Petraeus. Yes, CENTCOM is prepared. The NDN was established 
over 18 months ago to provide flexibility to the Pakistan Ground Line 
of Communication. Additionally, the NDN consists of a network of routes 
which enter the CENTCOM Area of Responsibility (AOR) from the north, 
originating in northern Europe, as well as the south, originating in 
either Turkey or Georgia. The routes are purely commercial, with the 
carriers utilizing the same established ports of entry for U.S. 
Government cargo as they utilize for commercial customers. Due to the 
commercial nature of the NDN and the types of cargo, we believe the 
routes are less vulnerable. Within the CENTCOM AOR, the NDN routes 
transit Kazakhstan and Uzbekistan, making it important to maintain 
strong host nation support from these two countries.

    10. Senator McCaskill. Secretary Flournoy and General Petraeus, do 
you see the potential for terrorist groups, such as the Independent 
Movement for Uzbekistan, or Islamic extremists that have grown up in 
and around the Ferghana Valley to exploit the chaos?
    Secretary Flournoy. Ethnic violence in Kyrgyzstan has abated, and 
the provisional government has reestablished control in Kyrgyzstan. The 
constitutional referendum held in June was successful, with a 
government-reported 90 percent of voters agreeing to a new 
parliamentary form of government in Kyrgyzstan.
    Kyrgyzstan is currently stable. Should unrest recur, exploitation 
of instability by the Islamic Movement of Uzbekistan or other extremist 
groups is one of several scenarios that could result from renewed 
violence in the region.
    General Petraeus. [Deleted.]

    11. Senator McCaskill. Secretary Flournoy and General Petraeus, in 
your assessment, is it a fair conclusion to say that many or most 
contracts, especially related to fuel, in Central Asia have some kind 
of connection to corruption, in some cases the ruling families of the 
country, such as the Bakiyevs?
    Secretary Flournoy. All DOD contracts in Central Asia are subject 
to the same legal and regulatory standards as contracts into which DOD 
enters worldwide. DOD takes allegations of corruption seriously and 
conducts regular reviews of its contracts to ensure that they are 
properly solicited and executed. If DOD finds or receives credible 
evidence of corruption, it conducts a full investigation and will, if 
appropriate, terminate a contract or take appropriate legal action.
    General Petraeus. CENTCOM contracting organizations, such as the 
Joint Theater Support Contracting Command, do not contract for bulk 
petroleum. In most cases, this is a function of the Defense Logistics 
Agency's Defense Energy Support Center. It would be inappropriate for 
CENTCOM to comment on contracts outside our purview.

                      afghanistan national police
    12. Senator McCaskill. General Petraeus, I am interested in the way 
that DOS and DOD have been managing the police training mission and 
have yet to see a full, one-stop-shop accounting of what CENTCOM is 
spending on the police training mission per annum (in Afghanistan and 
Iraq). Looking further at the police training missions that you have 
been managing in Afghanistan and in Iraq, would you please provide a 
breakdown of:

        <bullet> The costs associated with the police training mission 
        in each country for each of the last 3 years;
        <bullet> The quantity of personnel involved in police training 
        (DOD civilians, contractors, and military); and
        <bullet> The total support costs to carry out police training 
        (including security, housing, logistics/life support, et 
        cetera).

    General Petraeus. Under the DOD Reorganization Act of 1986, the 
Military Services, which support CENTCOM in the Afghanistan and Iraq 
theaters, budget and account for their costs and manpower, rather than 
the combatant command.
    The Army is the resource sponsor for both Afghanistan and Iraq. The 
Army's OEF and Operation Iraqi Freedom costs are captured in the 
Department's monthly Cost of War Report. This report and DOD's official 
accounting reports include the direct Afghanistan Security Forces Fund 
and Iraq Security Forces Fund amounts that are executed for the DOD 
police training mission, as shown in the table below.

                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year
                                             ---------------------------------------------------
                                                                                2010  (as of 6/       Total
                                                    2008             2009            16/10)
----------------------------------------------------------------------------------------------------------------
Iraq Security Forces Fund...................             312              527              103              942
Afghanistan Security Forces Fund............             408              392              413            1,213
----------------------------------------------------------------------------------------------------------------

    The approximate number of DOD personnel that support the police 
training missions (DOD civilians, contractors, and military) in Iraq 
and Afghanistan are listed below as reported by U.S. Forces-Iraq and 
NATO Training Mission-Afghanistan.

------------------------------------------------------------------------
                                                     Fiscal Year
                Personnel                 -----------------------------
                                              2008      2009      2010
------------------------------------------------------------------------
Iraq:
  DOD (Military and Civilian).............     5,500     5,500     7,000
  Contractor..............................       800       800       400
------------------------------------------------------------------------
Afghanistan:
  DOD (Military and Civilian).............         0         0       237
  Contractor..............................       721     1,205     1,404
------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                          u.s. troop drawdown
    13. Senator Burris. Secretary Flournoy and General Petraeus, what 
concerns do you have with the directed drawdown date of July 2011?
    Secretary Flournoy. We have confidence that the progress we are 
making jointly with our Afghan partners and other allies will allow us 
to initiate transition to Afghan security lead beginning within the 
next year. My overall concern is that any drawdown in July 2011 is 
consistent with the President's vision of a responsible, conditions-
based reduction.
    General Petraeus. In order to ensure that Afghanistan can build the 
capacity to take full responsibility for its own security, the pace of 
the drawdown of our forces in Afghanistan should, as the President has 
stated, be the beginning of a process for transition to the Afghan 
Government, and the beginning of a responsible drawdown of U.S forces 
based on conditions on the ground in July 2011.

    14. Senator Burris. Secretary Flournoy and General Petraeus, are 
you concerned that the insurgency is just bidding their time until our 
withdrawal?
    Secretary Flournoy. We do not assess that the Taliban are ``biding 
their time,'' although we do assess that the Taliban may not understand 
the U.S. enduring commitment to Afghanistan as a strategic partnership 
in the region. The Taliban continue to conduct operations in support of 
their strategic goals: the removal of foreign forces from Afghanistan 
and the return of Mullah Omar as the leader of Afghanistan. The 
increase in our forces and operations in Afghanistan has put pressure 
on the Taliban and their pursuit of those goals. This is a resilient 
insurgency and a tough fight, but we are making progress on the ground.
    General Petraeus. We do not assess the Taliban are ``biding their 
time.'' We assess the Taliban consider the announced July 2011 U.S. 
withdrawal to be an indication of waning U.S. and international support 
for the conflict. However, we assess the Taliban do not intend on 
ceding any ground to International Security Assistance Force (ISAF) or 
the Afghan National Security Forces (ANSF) between now and July 2011 
pending the announced withdrawal. The Taliban continue to conduct 
operations in support of their strategic goals; the removal of foreign 
forces from Afghanistan and reinstatement of Mullah Omar as the leader 
of Afghanistan. They have increased violence in response to increased 
ISAF and ANSF operations, and continue efforts to expand their 
influence in key areas of Afghanistan. I feel they will continue 
attempting to do so regardless of our withdrawal timeframe or policy.

    15. Senator Burris. Secretary Flournoy and General Petraeus, based 
on progress in Marja and concerns with Kandahar, is a July 2011 
drawdown still realistic?
    Secretary Flournoy. A July 2011 conditions-based drawdown is still 
realistic. I want to ensure that the meaning of July 2011 is well 
understood. As President Obama has previously indicated, July 2011 will 
mark the beginning of a transition of our forces out of Afghanistan and 
a period in which the Afghan Government will take on more 
responsibility. He did not say that after July 2011 there would be no 
forces from the United States or allied countries in Afghanistan. He 
did not say that we will switch off the lights and close the door 
behind us. The pace at which the transition occurs will depend on 
conditions on the ground.
    General Petraeus. Yes, the July 2011 drawdown is realistic. 
However, it is important that July 2011 be seen for what it is; the 
date when a process begins. It is a process in which the reduction of 
U.S. forces must be based on the conditions at the time, not a date 
when the U.S. heads for the exits.

                       contractors in afghanistan
    16. Senator Burris. Secretary Flournoy and General Petraeus, what 
steps are being taken to reduce our overreliance on contractors in the 
Afghanistan theater?
    Secretary Flournoy. We could not support the operations in 
Afghanistan without the use of contractors. We do not have the military 
force structure to meet the requirements of base operating support and 
other services. Contractors are a vital operational enabler, which 
allow our military forces to focus on other functions. The use of 
contractors provides us an instant, scalable capacity that can expand 
and contract with greater agility. Although the costs for contracted 
services to DOD are substantial, developing and maintaining a military 
structure to perform these same functions would be much more costly.
    We are conscious of the number of contractors in Afghanistan and 
continue to take measures to minimize the number necessary to 
accomplish the mission. One such measure is increasing the use of firm 
fixed-price contracts, giving contractors the incentive to accomplish a 
task with the least amount of personnel. Also, we are transitioning 
from a quarterly contractor census to a monthly census, utilizing data 
from the Synchronized Predeployment Operational Tracker (SPOT). This 
will provide us greater visibility into contractors and their 
activities. Lastly, we conduct routine Joint Logistics Procurement 
Support Boards (JLPSB) to synchronize contracting requirements to 
maximize efficiency and ensure that existing contracts are being 
executed most effectively.
    Contracted support plays an important part in our strategy. 
Employing local nationals promotes economic vitality and supports the 
strategy of ``Winning the Afghan People.'' Currently, 70 percent of the 
funds executed within Afghanistan go to companies that consist of local 
nationals.
    General Petraeus. We could not support the operations in 
Afghanistan without the use of contractors. We do not have the military 
force structure to meet the requirements of base operating support and 
other services. Contractors, especially private security contractors 
PSC), are a vital operational enabler, which allow our military forces 
to focus on other functions. The use of contractors provides us an 
instant, scalable capacity which can expand and contract with greater 
agility. Although DOD is paying a substantial price for contracted 
services, developing and maintaining a military structure to perform 
these same functions would be expensive as well.
    Contracted support plays an important part in our strategy. 
Employing local Afghan nationals promotes economic vitality and 
supports `Winning the Afghan People.' Currently, 70 percent of the 
funds executed within Afghanistan go to companies that consist of local 
nationals.
    We are conscious of the number of contractors in Afghanistan and 
continue to take measures to minimize the number necessary to 
accomplish the mission. One such measure is increasing the use of firm 
fixed-price contracts, giving contractors the incentive to accomplish 
the task with the least amount of personnel. We are also transitioning 
from a quarterly contractor census to a monthly census utilizing data 
from the SPOT which will provide greater visibility of contractors. 
Lastly, we conduct routine JLPSBs to synchronize contracting 
requirements to ensure that existing contracts are leveraged and 
produce efficiencies whenever possible.

    17. Senator Burris. Secretary Flournoy and General Petraeus, how is 
contractor oversight being improved?
    Secretary Flournoy. DOD is working diligently to improve contractor 
oversight. The emphasis has been on strengthening the skills of 
military and DOD civilian personnel who observe operations and review 
contractors' performance. The Defense Contract Management Agency (DCMA) 
is one of many partner organizations working to provide and improve 
contractor oversight in Afghanistan. DCMA provides oversight, as 
delegated by the Rock Island Contracting Center, of the Logistics Civil 
Augmentation Program IV, Air Force Civil Augmentation Program, and 
Theater Wide Contract Administration. DCMA also provides contractor 
administration for various other types of contracts, as delegated 
through the Theater Business Clearance process.
    DCMA has resident personnel (military and civilian) in three 
Afghanistan locations for better access to contract activities and 
alignment with customers. Additional DCMA personnel are assigned as the 
oversight workload grows in Afghanistan.
    Improvement has been made to the requirements determination process 
and use of Contracting Officer Representatives (CORs) and Subject 
Matter Experts (SMEs) within the theater through the use of risk 
analysis and mitigation. The CORs are critical to adequate surveillance 
of contract execution. Their work enables DCMA to perform more in-depth 
contract administration and analyze issues from information obtained by 
the CORs performing quality assurance oversight functions. Deploying 
units are identifying and training CORs prior to deployment. DCMA 
provides orientation and training on how to perform the oversight 
functions.
    Contract oversight improvement actions include:

        <bullet> Increased emphasis on the use of CORs and SMEs.
        <bullet> Unit assignment and training CORs prior to deployment.
        <bullet> Extensive use of risk analysis to ensure best use of 
        available DCMA and COR resources.
        <bullet> Management Internal Control Reviews are conducted at 
        DCMA Contract Management Office locations to highlight and 
        reinforce best practices, while also identifying areas where 
        oversight efforts can be strengthened.

    General Petraeus. We have implemented several changes over the last 
few years to improve contractor oversight in the CENTCOM Area of 
Operations (AOR). To expand centralized management and oversight of 
contracting, the most prominent change is the transition of the Joint 
Contracting Command-Iraq/Afghanistan to a Joint Theater Support 
Contracting Command (JTSCC). The JTSCC is a subordinate functional 
command aligned under the command/control of CENTCOM to facilitate a 
balanced focus across the AOR. Initially, we have expanded the JTSCC's 
responsibility to Kuwait and Pakistan. In the future, we may expand it 
further to include other key areas such as the central and south asian 
states. The JTSCC is responsible for providing oversight on contracts 
written in Iraq, Afghanistan, Pakistan, and Kuwait and is also 
responsible for coordinating with other DOD organizations that write 
contracts executed in the CENTCOM AOR.
    Task Force 2010 was recently established under two-star leadership 
to track contract funding and identify any malign actors and power 
brokers in Afghanistan. This is critical to ensure the billions of 
dollars spent to support the counterinsurgency campaign do not have 
unintended consequences. Task Force 2010 will increase the transparency 
of money flow, ensuring it gets in the right hands and supports our 
strategy in Afghanistan.
    Task Force Spotlight was implemented under one-star leadership to 
enforce PSCs' adherence to established guidance. PSCs must report 
detailed census data on all employees in the synchronized pre-
deployment and operational tracker system and the biometric 
registration system, comply with requirements for individual arming, 
and record serious incidents. Accurate and detailed information of this 
nature is paramount for effective oversight.
    Contractor Operations Cells and the Armed Contractor Oversight 
Division were established to provide visibility of armed contractors' 
movements throughout the battle space in order to synchronize efforts 
and avoid fratricide.
    CORs numbers have increased in Afghanistan to over 90 percent fill 
rate. CORs provide the direct interface with contractors and oversee 
the services they are providing.

    18. Senator Burris. Secretary Flournoy and General Petraeus, could 
Reserve and Guard personnel better perform the services assigned to 
contractors, specifically with regard to PSCs?
    Secretary Flournoy. Reservists and National Guard personnel are 
already contributing essential skill sets to the operations in Iraq and 
Afghanistan. Although our Guard and Reserve Forces are exceptionally 
well-trained and capable, a contract work force allows us to increase 
and decrease capacity in non-warfighting areas very quickly. It takes 
years to build military personnel capacity with the requisite 
experience level. Contractors bring to the table the required 
experience at the required time without the commitment to growing the 
end strength of the force.
    General Petraeus. While our military forces are exceptionally well-
trained and capable, a contract work force allows us to increase and 
decrease capacity very quickly. It takes years to build military 
personnel capacity with the requisite experience level. Contractors 
bring to the table the required experience at the required time without 
the commitment to growing end strength.

                  afghanistan national security forces
    19. Senator Burris. General Petraeus, are you satisfied with the 
progress of the ANSF?
    General Petraeus. I am satisfied we are taking action to solve the 
problem, but I recognize there is much work to be done until there are 
sufficient ANSF and that we have many challenges to overcome.
    Six months ago we were faced with the following challenges: (1) 
recruiting was insufficient to cover attrition and we had at least one 
month of negative growth in the ANSF; (2) the number of NATO Training 
Mission-Afghanistan (NTM-A) institutional trainers could not handle the 
number of recruits required to meet growth objectives; (3) NTM-A 
manning was about 25 percent of requirements; (4) Afghan National 
Police (ANP) training focused on reform of the existing police, not 
initial training of new police; (5) fewer than 13,000 soldiers and 
police were enrolled in voluntary literacy training; and (6) NTM-A 
instructor ratios averaged 1:79 with high of 1:466.
    Today, there are areas of improvement. NTM-A institutional trainers 
and Afghan trainers have doubled from 6 months ago. NTM-A manning has 
increased to 58 percent from 25 percent. Our instructor ratio has 
increased to 1:29 from 1:79. Although the number of NTM-A institutional 
instructors have increased, we still require more NTM-A trainers to 
assist in the generation of ANSF that we hope to see grow to 305,000 by 
November 2011.

    20. Senator Burris. General Petraeus, what are your expectations of 
where the ANSF will be over the next year?
    General Petraeus. By this time next year, I expect the growth of 
the ANSF to remain steady, reaching 305,000 (171,000 Afghan National 
Army (ANA) and 134,000 ANP). I also expect that, with the deployment of 
our additional maneuver forces as part of the President's force 
expansion, more of our forces will partner with the ANSF to conduct 
combined operations. Increasingly, the ANSF will take the lead in 
combined operations. ANSF lead will be driven by capabilities 
development, not by time.

                    mineral resources in afghanistan
    21. Senator Burris. General Petraeus, with the recent announcement 
of Afghanistan's potential mineral wealth, what are your concerns about 
the impact this could have on violence and security?
    General Petraeus. The announcement of the potential mineral wealth 
in Afghanistan is sure to generate a sense of hope and prosperity for 
the Afghan people. It is also sure to catch the attention of nefarious 
groups, including insurgents, who already engage in gem smuggling and 
extort ``taxes'' from legal mining companies in return for security. As 
legitimate mining increases, so does the potential for increased 
criminal and/or insurgent related activity.
    To realize the full revenue potential of the country's resources, 
the Afghan Government needs to install additional regulatory and 
enforcement measures. While this will further strain already overtaxed 
governance elements and security forces, the Afghan Government should 
encourage continued exploration and discovery of these resources. It 
can only do this through a deliberate, controlled process under the 
umbrella of an effective government and stable security environment.

    22. Senator Burris. General Petraeus, do you foresee a role that 
American troops would play with regard to the mineral issue?
    General Petraeus. I responded to some questions in an interview on 
Saturday that were quoted in the New York Times on Sunday, 13 June, in 
a story by James Risen on this subject. I think he covered the issue 
and challenges very well. While such wealth is potentially game 
changing, it is not an easy feat to explore and mine for these things, 
particularly in Afghanistan. One must also be mindful of the paradox 
what natural resource wealth can pose to poor countries with weak 
governments. And, those interested in extracting the mineral wealth are 
not always magnanimous in their methods.
    Additionally, Deputy Under Secretary of Defense for Business 
Transformation, Paul Brinkley, has taken an interest in this matter, 
and in generating economic life in Afghanistan. He did some great work 
in Iraq with his Task Force for Business and Stability Operations. This 
task force will work along with the USAID, DOS, and the U.S. Geological 
Service to build capacity within the Ministry of Minerals and Mines to 
enable the Afghan Government to better manage their resource wealth. I 
refer you to those organizations for more about this effort. 
Nevertheless, as we did in Iraq, we will support his team's efforts as 
directed by the Secretary of Defense in developing business and 
economic interests in Afghanistan.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                        afghanistan interpreters
    23. Senator Wicker. General Petraeus, we are often at the mercy of 
interpreters to provide an accurate description of the conversations 
between U.S. forces and local Afghans. However, I am concerned we are 
distorting the economy in Afghanistan by paying interpreters so much 
money. It is my understanding a low level Category 1 interpreter can 
earn between $50,000 and $60,000. Those trusted with classified 
information can earn over $200,000. At the same time, I have heard pay 
to Afghan officials is just over $500 per month. These individuals 
working as translators are likely very intelligent and capable Afghans 
who probably possess other skill sets important to the rebuilding of 
Afghanistan. Please describe in detail the pay and category level for 
local Afghan interpreters.
    General Petraeus. CENTCOM interpreter contracts in Afghanistan are 
issued by the Senior Contracting Official-Afghanistan and awarded 
through the Regional Contracting Center (RCC) Kabul, RCC Kandahar, and 
RCC Bagram. They employ only local national Afghan interpreters and the 
average pay is approximately $600 per month. This information is 
CENTCOM specific and does not apply to other agencies or commands that 
issue interpreter contracts in Afghanistan.

                    afghanistan contractor pay rates
    24. Senator Wicker. General Petraeus, if there are disparities in 
the pay between Afghan officials and the Afghans we are contracting, 
what are we doing to alleviate this disparity and to encourage the most 
capable Afghans to work toward the betterment of their country? If you 
have started programs in this area, what are the results thus far?
    General Petraeus. I am aware that some disparities in pay exist, 
particularly with PSCs, which may be affecting recruitment and 
retention within the ANSF and the ANP. ISAF and the Government of the 
Islamic Republic of Afghanistan (GIRoA) are working together to develop 
courses of action to reduce the reliance on PSCs. I understand and 
support the GIRoA's intent to eventually end the use of PSCs and 
transfer that function to the ANP; however the ANP and ANSF are not yet 
able to assume this role. ISAF and GIRoA are developing a phased 
program to work toward that goal, and will continue efforts that 
support the build-up of the ANP and ANSF.
    Task Force Spotlight and Task Force 2010 will recommend ways to 
mitigate consequences of pay disparity. These task forces facilitate 
the capability for greater oversight, regulation, operational 
transparency, and visibility of the flow of contracting funds and goods 
below the prime contractor level. Their efforts will eventually 
minimize malign actor influence, improve PSC accountability, and ensure 
an improved distribution of funds to the Afghan people.
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux
                                  iran
    25. Senator LeMieux. General Petraeus, I am concerned that as Iran 
continues to export Islamic extremism and terror throughout the world 
they will develop relations that undermine our operations in 
Afghanistan. What is your current assessment of Iranian influence or 
attempted influence in Afghanistan?
    General Petraeus. Iran hopes to increase its influence in the 
Afghan Government (and with the Afghan populace) and decrease U.S. 
presence and influence. Iran supports multiple Afghan political 
entities and government officials to create and pass legislation that 
will limit or remove U.S./coalition forces presence. Iran continues an 
effective ``hearts and minds'' campaign through economic and 
educational endeavors that highlight Iran's aid and positively 
influence the local populace. Iran also aims to maximize intra-ISAF 
fissures via measured support to the Taliban to hasten foreign combat 
forces withdrawal. Iran's focus is not to destabilize the Karzai 
Government and create a Taliban-led Afghanistan, but rather use the 
Taliban as an integral part of a comprehensive plan to expedite the 
removal of U.S./Coalition Forces from Afghanistan.

    26. Senator LeMieux. General Petraeus, Iran's nuclear program and 
developing ties with other rogue nations like Venezuela is an extremely 
destabilizing force. This week the Saudi Government granted permission 
for the Israelis to use their airspace in the event they would choose 
to conduct an air strike against Iranian nuclear facilities. Could you 
please comment on the internal situation of the regime and the regional 
implications if Israel were forced to respond militarily to Iranian 
nuclear program?
    General Petraeus. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                cooperation between government agencies
    27. Senator Vitter. Secretary Flournoy and General Petraeus, in 
Iraq and now in Afghanistan we've seen unprecedented integration of 
DOD, DOS, and USAID action. This integration is unquestionably crucial 
to success in each theater. Even more crucial is the DOS and USAID 
ability to assume agency primacy in these theaters as military and 
security roles subside. What do you need to further streamline this 
integration and ensure a successful transition between DOD and DOS and 
how can Congress assist in this effort?
    Secretary Flournoy. Ensuring that the necessary security exists for 
development and civilian-led efforts to succeed is a key focus of our 
efforts. DOD has an excellent working relationship with DOS.
    There is a need for increased spending on the civilian instruments 
of national security: diplomacy, strategic communications, foreign 
assistance, civic action, and economic reconstruction and development. 
Civilian efforts are necessary to facilitate successful military 
operations to relieve stress on the men and women of the U.S. Armed 
Forces and to achieve our strategic objectives in places like 
Afghanistan. The availability of more robust civilian capabilities 
could also make it less likely that military forces would have to be 
used in the first place, as local problems might be dealt with before 
crises arise.
    Over the past several years, Congress has provided additional 
resources for DOS and DOD, but the resources for civilian support have 
proven inadequate. It is critically important that the civilian 
agencies receive additional resources needed for effective whole-of-
government efforts to address the problems we face.
    Regarding Iraq, U.S. departments and agencies are working together 
at the senior and working levels--in Iraq and Washington, DC--to ensure 
that DOS is appropriately resourced when U.S. forces complete their 
drawdown from Iraq. As one would expect with a transition of this scope 
and complexity, there are significant challenges. Congress could assist 
in this effort by continuing to provide the resources and authorities 
necessary to ensure a successful transition in Iraq from military to 
civilian lead.
    General Petraeus. Congress can assist in this effort to ensure a 
successful transition between DOD and DOS by providing a consistent 
level of and flexible access to resources to support operations in the 
joint operational areas. This is especially critical during the period 
of primacy shift from DOD to DOS and USAID in Iraq.

                department of state requirements in iraq
    28. Senator Vitter. Secretary Flournoy and General Petraeus, a 
recent Associated Press news article has reported that ``The State 
Department is quietly forming a small army to protect diplomatic 
personnel in Iraq after U.S. military forces leave the country at the 
end of 2011.'' It goes on to say that ``Patrick Kennedy, DOD's Under 
Secretary for Management, has asked that 50 bomb-resistant vehicles, 24 
Black Hawk helicopters, heavy cargo trucks, fuel trailers, and high-
tech surveillance systems be transferred from military stocks to the 
State Department.''
    Under the assumption that this same capability gap will exist when 
a military drawdown in Afghanistan does occur, what are your comments/
views on the transfer of military capability to DOS and does this 
development fit with the concept of a responsible drawdown?
    Secretary Flournoy. DOD received a letter from Under Secretary of 
State for Management Patrick Kennedy requesting military equipment, 
continuation of life support services and logistics contracts, and 
transportation and logistics support. DOS's request has received high-
level attention in DOD, and DOD is working to provide a response to 
DOS. DOD believes our coordination and close working relationship with 
DOS in Washington, DC, and Baghdad underscore the U.S. commitment to a 
responsible drawdown in Iraq. Efforts continue to ensure that DOS and 
DOD are likewise partnered to provide the necessary resources and 
security for civilian-led efforts in Afghanistan.
    General Petraeus. A list of potential recipients of military 
equipment was created during the initial stages of planning for the 
responsible drawdown in Iraq to enable a prioritized redistribution of 
equipment deemed to be surplus. DOS is on the list as a potential 
recipient, but only after other DOD requirements within the AOR are 
fulfilled; and that single service readiness requirements are not 
jeopardized. DOS has identified that hardened vehicle and helicopter 
assets will be required for personnel continuing the U.S. mission in 
Iraq post 2011. Although military equipment is not the only way to 
achieve this level of self-protection, it is a cost-effective solution 
that meets both DOS needs, as well as reducing the cost to DOD to 
extract its forces from Iraq. It is conceivable that the same situation 
will be faced in Afghanistan when combat forces are redeployed, yet 
appropriate self-protection measures are still required to counter 
threats to U.S. personnel.

    [Whereupon, at 12:03 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
